<html>
<title> - OVERSIGHT HEARING TITLED ``AMERICA'S MINERAL RESOURCES: CREATING MINING AND MANUFACTURING JOBS AND SECURING AMERICA''; AND LEGISLATIVE HEARING ON H.R. 1063, H.R. 687, H.R. 697, H.R. 761, H.R. 767, H.R. 957, AND H.R. 981</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
   OVERSIGHT HEARING TITLED ``AMERICA'S MINERAL RESOURCES: CREATING 
MINING AND MANUFACTURING JOBS AND SECURING AMERICA''; AND LEGISLATIVE 
  HEARING ON H.R. 1063, H.R. 687, H.R. 697, H.R. 761, H.R. 767, H.R. 
                           957, AND H.R. 981 

=======================================================================

                             OVERSIGHT AND
                          LEGISLATIVE HEARING

                               before the

                       SUBCOMMITTEE ON ENERGY AND
                           MINERAL RESOURCES

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Thursday, March 21, 2013

                               __________

                            Serial No. 113-7

                               __________

       Printed for the use of the Committee on Natural Resources


         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
      
                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

80-077 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F. H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Tom McClintock, CA                   Jim Costa, CA
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Cynthia M. Lummis, WY                    CNMI
Dan Benishek, MI                     Niki Tsongas, MA
Jeff Duncan, SC                      Pedro R. Pierluisi, PR
Scott R. Tipton, CO                  Colleen W. Hanabusa, HI
Paul A. Gosar, AZ                    Tony Cardenas, CA
Raul R. Labrador, ID                 Steven A. Horsford, NV
Steve Southerland, II, FL            Jared Huffman, CA
Bill Flores, TX                      Raul Ruiz, CA
Jon Runyan, NJ                       Carol Shea-Porter, NH
Mark E. Amodei, NV                   Alan S. Lowenthal, CA
Markwayne Mullin, OK                 Joe Garcia, FL
Chris Stewart, UT                    Matt Cartwright, PA
Steve Daines, MT
Kevin Cramer, ND
Doug LaMalfa, CA
Vacancy

                       Todd Young, Chief of Staff
                Lisa Pittman, Chief Legislative Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel
                                 ------                                

              SUBCOMMITTEE ON ENERGY AND MINERAL RESOURCES

                       DOUG LAMBORN, CO, Chairman
                RUSH HOLT, NJ, Ranking Democratic Member

Louie Gohmert, TX                    Steven A. Horsford, NV
Rob Bishop, UT                       Matt Cartwright, PA
Robert J. Wittman, VA                Jim Costa, CA
Paul C. Broun, GA                    Niki Tsongas, MA
John Fleming, LA                     Jared Huffman, CA
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Cynthia M. Lummis, WY                Peter A. DeFazio, OR
Dan Benishek, MI                     Tony Cardenas, CA
Jeff Duncan, SC                      Raul M. Grijalva, AZ
Paul A. Gosar, AZ                    Colleen W. Hanabusa, HI
Bill Flores, TX                      Joe Garcia, FL
Mark E. Amodei, NV                   Vacancy
Steve Daines, MT                     Vacancy
Kevin Cramer, ND                     Edward J. Markey, MA, ex officio
Doc Hastings, WA, ex officio



                                ----------                              

                                CONTENTS

                                ----------                              
                                                                   Page

Hearing held on Thursday, March 21, 2013.........................     1

Statement of Members:
    Holt, Hon. Rush, a Representative in Congress from the State 
      of New Jersey..............................................     5
        Prepared statement of....................................     6
    Lamborn, Hon. Doug, a Representative in Congress from the 
      State of Colorado..........................................     2
        Prepared statement of....................................     4

Statement of Witnesses:
    Batulis, Ruthe, President, Dakota County Regional Chamber of 
      Commerce, and President, Minnesota Conference of Chamber 
      Executives.................................................    23
        Prepared statement on the Oversight Hearing..............    24
    Connell, Jamie E., Acting Deputy Director, Bureau of Land 
      Management, U.S. Department of the Interior................    46
        Prepared statement:
            on H.R. 687..........................................    49
            on H.R. 697..........................................    51
            on H.R. 761 and H.R. 1063............................    48
            on H.R. 767..........................................    52
            on H.R. 957..........................................    54
            on H.R. 981..........................................    55
        Questions submitted for the record.......................    56
    Gosar, Hon. Paul A., a Representative in Congress from the 
      State of Arizona...........................................     7
        Prepared statement on H.R. 687...........................     9
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona, Oral statement on H.R. 687...............    10
    Heck, Hon. Joseph J., a Representative in Congress from the 
      State of Nevada............................................    14
        Prepared statement on H.R. 697...........................    15
    Hohn, Mike, General Manager, Soda Ash Business OCI Chemical 
      Corporation................................................    83
        Prepared statement on H.R. 957...........................    85
    Iwanicki, James M., P.E., Engineer Manager, Marquette County 
      Road Commission............................................    18
        Prepared statement on the Oversight Hearing..............    20
    Johnson, Hon. Henry C. ``Hank,'' Jr., a Representative in 
      Congress from the State of Georgia, Oral statement on H.R. 
      981........................................................    17
    Kirkpatrick, Hon. Ann, a Representative in Congress from the 
      State of Arizona...........................................    12
        Prepared statement on H.R. 687...........................    13
    Krill, Jennifer, Executive Director, Earthworks..............    28
        Prepared statement on the Oversight Hearing, H.R. 687, 
          H.R. 697, H.R. 761, and H.R. 957.......................    29
    McGroarty, Daniel, President, American Resources Policy 
      Network....................................................    80
        Prepared statement on H.R. 1063..........................    81
    Melander, Harry, President, Minnesota Building and 
      Construction Trades Council................................    25
        Prepared statement on the Oversight Hearing..............    26
    Miller, Stephen Q., Chairman, Board of Supervisors, Pinal 
      County District 3, Casa Grande, Arizona....................    72
        Prepared statement on H.R. 687...........................    74
        Question submitted for the record........................    75
    Neatby, Pierre, Vice President, Sales & Marketing, Avalon 
      Rare Metals................................................    87
        Prepared statement on H.R. 1063, H.R. 761, and H.R. 981..    88
    Peralta, Soyla ``Kiki,'' Council Member, Superior Town 
      Council, Superior, Arizona.................................   102
        Prepared statement on H.R. 687...........................   103
    Quinn, Hal, President and CEO, National Mining Association...    76
        Prepared statement on H.R. 761...........................    77
    Rambler, Terry, Chairman, San Carlos Apache Tribe............    91
        Prepared statement on H.R. 687...........................    92
        Questions submitted for the record.......................   101
    Wagner, Mary, Associate Chief, U.S. Forest Service, U.S. 
      Department of Agriculture..................................    57
        Prepared statement on H.R. 687...........................    58

Additional materials submitted for the record:
    List of documents retained in the Committee's official files.   112
                                     



OVERSIGHT HEARING ON ``AMERICA'S MINERAL RESOURCES: CREATING MINING AND 
MANUFACTURING JOBS AND SECURING AMERICA''; AND A LEGISLATIVE HEARING ON 
  H.R. 1063, ``NATIONAL STRATEGIC AND CRITICAL MINERALS POLICY ACT OF 
 2013''; H.R. 687, ``SOUTHEAST ARIZONA LAND EXCHANGE AND CONSERVATION 
ACT OF 2013''; H.R. 697, ``THREE KIDS MINE REMEDIATION AND RECLAMATION 
ACT''; H.R. 761, ``NATIONAL STRATEGIC AND CRITICAL MINERALS PRODUCTION 
  ACT OF 2013''; H.R. 767, TO AMEND THE ENERGY POLICY ACT OF 2005 TO 
  MODIFY THE PILOT PROJECT OFFICES OF THE FEDERAL PERMIT STREAMLINING 
PILOT PROJECT; H.R. 957, ``AMERICAN SODA ASH COMPETITIVENESS ACT''; AND 
     H.R. 981, ``RESOURCE ASSESSMENT OF RARE EARTHS ACT OF 2013.''

                              ----------                              


                        Thursday, March 21, 2013

                     U.S. House of Representatives

              Subcommittee on Energy and Mineral Resources

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:07 a.m., in 
room 1334, Longworth House Office Building, Hon. Doug Lamborn 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Lamborn, Broun, Lummis, Benishek, 
Duncan, Gosar, Daines, Cramer, Holt, Horsford, Huffman, 
Lowenthal, DeFazio, Grijalva, Hanabusa, and Garcia.
    Also Present: Representatives Heck, Napolitano, Johnson of 
Georgia, and Kirkpatrick.
    Mr. Lamborn. The Committee will come to order. We are going 
to go ahead and get an expedited start here. As the Ranking 
Member comes in he will make his opening statement at an 
opportune time. But with votes pending, and then with people 
wanting to catch planes later in the day, we thought we should 
go ahead and get started.
    The Chairman notes the presence of a quorum, which, under 
Committee Rule 3(e), is 2 Members. The Subcommittee on Energy 
and Mineral Resources hearing today is to hear testimony on an 
oversight hearing on, America's Mineral Resources: Creating 
Mining and Manufacturing Jobs and Securing America, and we are 
going to have a legislative hearing on H.R. 1063, I introduced 
it, it is National, Strategic, and Critical Minerals Policy Act 
of 2013; H.R. 687 by Representatives Gosar and Kirkpatrick on 
Southeast Arizona Land Exchange and Conservation Act of 2013; 
H.R. 697 by Representative Heck, Three Kids Mine Remediation 
and Reclamation Act; H.R. 761, by Representative Amodei, 
National Strategic and Critical Minerals Production Act of 
2013; H.R. 767 by Representative Cramer to amend the Energy 
Policy Act of 2005 to modify the Pilot Project offices of the 
Federal Permit Streamlining Pilot Project; H.R. 957 by 
Representative Lummis, America Soda Ash Competitiveness Act; 
and H.R. 981 by Representative Johnson of Georgia and Markey, 
Resource Assessment of Rare Earths Act of 2013.
    Under Committee Rule 4(f), opening statements are limited 
to the Chairman and Ranking Member. However, I ask unanimous 
consent to include any other Members' opening statements in the 
hearing record if submitted to the clerk by close of business 
today.
    [No response.]
    Mr. Lamborn. Hearing no objection, so ordered.
    I also ask unanimous consent that the following Members be 
allowed to participate in today's hearing: the gentlelady from 
California, Mrs. Napolitano; the gentlelady from Arizona, Mrs. 
Kirkpatrick, the gentleman from Nevada, Mr. Heck, and the 
gentleman from Georgia, Mr. Johnson.
    [No response.]
    Mr. Lamborn. Hearing no objection, so ordered.

    STATEMENT OF THE HON. DOUG LAMBORN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Lamborn. I would like to welcome everybody to the 
hearing today, and who are listening via our webcast, to the 
Subcommittee on Energy and Mineral Resources oversight, and the 
legislative hearing focusing on assessing the Nation's solid 
mineral resources, and examining our national strategic and 
critical minerals policy.
    As I have stated before, our national minerals policy has 
been neglected for far too long. And as evidenced by the 
bipartisan nature of the legislation we will be considering 
today, there is a clear recognition that, as a Nation, we can 
no longer afford to have our domestic mineral needs or policy 
put on the back burner.
    Strategic and critical minerals are essential to our 
economy, livelihoods and national security, as well. Renewable 
energy, national defense equipment, agriculture, health care, 
and everyday items such as televisions, telephones, computers, 
light bulbs, and so on, are all dependent on minerals. 
Currently, the United States relies on foreign sources for a 
majority of our non-fuel mineral materials. And, according to 
the USGS, we are 100 percent dependent on foreign sources for 
rare earth minerals.
    Mining creates tangible value, introducing new money into 
the Nation's economic system. Additional tangible value is 
added to the raw mined production through manufacturing, 
construction, and other uses. Harvesting domestic mineral 
resources contributes to local economies, and it also 
contributes to the Nation's overall economic security from the 
most basic level up.
    Mining and the associated businesses and industry have been 
one of the few growth areas during our country's prolonged 
recession, and has provided employment opportunities for 
skilled labor, scientists, engineers, and others. These are not 
your everyday, run-of-the-mill jobs, but high-paying, family 
wage jobs with generous benefits. A recent CRS analysis shows 
the non-supervisory positions in the energy and mineral sectors 
pays $1,200 to $1,500 per week, respectively.
    I would like to point out that domestic mining isn't just 
about jobs in the mines. It is thousands of geologists, 
biologists, and environmental engineers. It is about the tens 
of thousands of jobs in the industries that support our miners, 
from the Caterpillar factories in Illinois to Redwing Boots in 
Minnesota, from St. Pierre chains in Worcester, Massachusetts 
to AirFlow Catalyst Systems in Rochester, New York.
    As an added benefit, the Nation will become more self-
reliant on the raw, mined materials our society depends on, as 
well as increasing opportunities for growth in our domestic 
manufacturing sector. We will also have improved economic and 
national security. The end result is Americans everywhere 
benefit from more domestic mining.
    Now, we have an interesting and exciting hearing before us 
today. We will start with a bipartisan panel of our colleagues 
on both sides of the legislation before us. We will have an 
oversight panel following that will provide testimony on 
America's mineral resources creating mining and manufacturing 
jobs and securing America.
    Domestic mining faces many challenges in the U.S., 
permitting and access being only a sliver of the numerous 
challenges facing mine development. However, it holds great 
promise. So we will hear from folks who see a bright future and 
opportunity. Just as the United States has experienced 
significant growth in oil and natural gas reserves and 
resources, mainly from private and State mineral-rich lands, 
there is an opportunity for significant growth in domestic, 
non-fuel, strategic, and critical minerals production, as well.
    Now, this oversight hearing will be followed by an 
administration panel that will provide testimony on the 
legislation under consideration today.
    And finally, we will hear from our legislative panel. We 
are getting a lot of things done today. With the exception of 
my colleague Kevin Cramer's bill to amend the Energy Policy Act 
of 2005 to modify the Pilot Project offices that were referred 
to earlier, the other pieces of legislation have passed out of 
the House Committee on Natural Resources and, in some cases, 
the Floor of the House during the last Congress, unfortunately 
only to languish in the Senate.
    Here I would like to make a pitch for my legislation, H.R. 
1063, the National Strategic and Critical Minerals Policy Act 
of 2013, which I strongly believe will provide the agencies 
with the information they need to make better decisions for the 
country when it comes to the development of our non-fuel solid 
mineral resources.
    Other important bipartisan pieces of legislation under 
consideration today that will not be considered by the Members 
panel, so I should give them a little emphasis right here, H.R. 
761, the National Strategic and Critical Minerals Production 
Act of 2013, which uses the President's Executive order 
requiring coordination between agencies when permitting 
infrastructure projects in order to expedite construction and 
job creation; and H.R. 957, the American Soda Ash 
Competitiveness Act, which sets the Federal royalty rate for 
soda ash at 2 percent, allowing the domestic soda ash industry 
to remain competitive with international producers.
    I look forward to hearing from our witnesses today, and I 
would like to recognize the Ranking Member, from New Jersey, 
Representative Holt.
    [The prepared statement of Mr. Lamborn follows:]
      Prepared Statement of The Honorable Doug Lamborn, Chairman, 
              Subcommittee on Energy and Mineral Resources
    I would like to welcome everyone in the room here today and 
listening via our webcast to the Subcommittee on Energy and Mineral 
Resources oversight and legislative hearing focusing on accessing the 
Nation's solid mineral resources and examining our national Strategic 
and Critical Minerals Policy. As I've stated before--our national 
minerals policy has been neglected for far too long. And as evidenced 
by the bipartisan nature of the legislation we will be considering 
today there is a clear recognition that as a Nation we can no longer 
afford to leave our domestic mineral needs or policy on the back 
burner.
    Strategic and critical minerals are essential to our economy, 
livelihood and national security. Renewable energy, national defense 
equipment, agriculture, healthcare and everyday items such as 
televisions, telephones, computers and light bulbs are all dependent on 
minerals. Currently the United States relies on foreign sources for a 
majority of our non-fuel mineral materials and, according to the USGS, 
is 100 percent dependent on foreign sources for rare earth minerals.
    Mining creates tangible value, introducing new money into the 
Nation's economic system. Additional tangible value is added to the raw 
mined product through manufacturing, construction, and other uses. 
Harvesting domestic mineral resources contributes to local economies, 
and to the nation's overall economic security from the most basic level 
up.
    Mining and the associated businesses and industry have been one of 
the few growth areas during the country's prolonged recession providing 
employment opportunities for skilled labor, scientist, engineers and 
others.
    These are not your everyday run of the mill jobs but high-paying-
family wage jobs with generous benefits. A recent CRS analysis shows 
the non- supervisory positions in the energy and minerals sector pay 
$1,535 and $1,220 per week respectively.
    I'd like to point out that domestic mining isn't just about jobs in 
the mines, its thousands of geologists, biologists, and environmental 
engineers, it is about the tens of thousands of jobs in the industries 
that support our miners. From the Caterpillar factories in Illinois to 
Red Wing Boots in Minnesota, from St. Pierre Chains in Wooster, MA to 
Airflow Catalyst Systems in Rochester, NY.
    As an added benefit--the Nation will become more self-reliant on 
the raw mined materials our society depends on as well as increasing 
opportunities for growth in our domestic manufacturing sector, and 
improving the Nation's economic and national security. The end result 
is Americans everywhere benefit from more domestic mining.
Members Panel
    We have an exciting hearing before us today; we will start with a 
bipartisan panel of our colleagues, on both sides of the legislation 
before us.
Oversight Panel
    The Members panel will be followed by our oversight panel that will 
provide testimony on ``America's Mineral Resources: Creating Mining and 
Manufacturing Jobs and Securing America.'' Domestic mining faces many 
challenges in the U.S., permitting and access being only a sliver of 
the numerous challenges facing mine development. However, it also holds 
great promise as we will hear from folks who see a bright future and 
opportunity.
    Just as the U.S. has experienced significant growth in Oil and 
Natural Gas reserves and resources--mainly from private and state 
mineral rich lands--there is an opportunity for significant growth in 
domestic non-fuel strategic and critical minerals production as well.
ADMINISTRTION PANEL
    The Oversight panel will be followed by the Administration Panel 
that will provide testimony on the Legislation under consideration 
today.
Legislative Panel
    Finally, we will hear from our legislative panel. With the 
Exception of my colleague Kevin Cramer's bill to amend the Energy 
Policy Act of 2005 to modify the Pilot Project offices of the Federal 
Permit Streamlining Pilot Project to include Montana and South Dakota, 
the other pieces of legislation have passed out of the House Committee 
on Natural Resources and in some cases the floor of the House during 
the last Congress only to languish in the Senate.
    Here I'd like to make a pitch for my legislation H.R. 1063 the 
``National Strategic and Critical Minerals Policy Act of 2013,'' which 
I strongly believe will provide the agencies with the information they 
need to make better decisions for the country when it comes to the 
development of our non-fuel solid mineral resources.
    Other important bipartisan pieces of legislation under 
consideration today that will not be discussed by the Members panel 
are:

    <bullet>  H.R. 761 the ``National Strategic and Critical Minerals 
Production Act of 2013'' which uses the President's Executive Order 
requiring coordination between agencies when permitting infrastructure 
projects in order to expedite construction and JOB creation as a 
template for permitting reform for advanced mineral exploration and 
mine development projects--the foundation of other more familiar 
Infrastructure projects such as roads and bridges--leading to JOB 
creation and economic and national security; and
    <bullet>  H.R. 957 the ``American Soda Ash Competitiveness Act'' 
sets the Federal royalty rate for soda ash at 2 percent allowing the 
domestic soda ash industry to remain competitive with international 
producers--namely China--and protects domestic JOBS in the mining, 
transportation and shipping sectors.

    I look forward to hearing from our witnesses today.
                                 ______
                                 

 STATEMENT OF THE HON. RUSH HOLT, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF NEW JERSEY

    Dr. Holt. Thank you, Mr. Chairman. Let me see if I can keep 
my remarks to a minute or two. The bells have sounded. We have 
Members waiting, and we clearly won't be able to get through 
everything.
    But I am pleased we are examining rare earth and critical 
minerals. I am pleased that H.R. 1063, introduced by Chairman 
Lamborn, includes compromised language agreed to in the last 
Congress.
    I would point out that, despite being entitled, ``National 
Strategic and Critical Minerals Production Act of 2013,'' H.R. 
761 has nothing to do with developing these minerals. In fact, 
it is about gutting environmental safeguards and proper review 
of large mining projects.
    Another bill today, H.R. 687 that looks at exchanging land 
at the Tonto National Forest with regard to copper mining, 
raises numerous concerns about the impacts on the environment. 
And I will be interested to hear more about that.
    H.R. 957 would impose reduced royalty rate for soda ash 
produced on Federal lands. We can and should debate the impact 
of such a reduction. But the ability of the soda ash industry 
to increase production should be part of that conversation.
    And, overall, we have to understand that all of this debate 
is done in the context of the archaic Mining Law of 1872. 
Ranking Member Markey and Representative Grijalva and I will be 
introducing legislation that would ensure that large companies 
extracting minerals belonging to the taxpayer from public lands 
pay for the privilege of doing so, as they do for oil and gas. 
More about that later.
    But to save time, let me end my remarks and come back to 
them in the course of the questioning. Thank you.
    [The prepared statement of Dr. Holt follows:]
    Prepared Statement of The Honorable Rush Holt, Ranking Member, 
              Subcommittee on Energy and Mineral Resources
    Thank you.
    I am pleased that we are examining rare earth and other critical 
and strategic minerals that are indispensable in the manufacture of 
high-tech goods. Everything from solar panels and iPhones, to missile 
guidance systems and MRI machines requires one or several of the 
world's 17 minerals collectively known as rare earths. H.R. 981, the 
RARE Act, tasks the U.S. Geological Society with conducting a global 
assessment of rare earth mineral resources and potential supply 
sources. And I am pleased that H.R. 1063, introduced by Chairman 
Lamborn, also includes compromise language agreed to in the last 
Congress that would accomplish the same goals of improving our 
understanding of these important rare earth minerals.
    Unfortunately, while these two bills will improve our understanding 
of critical and strategic minerals, other pieces of legislation that we 
are considering today represent nothing more than huge giveaways to the 
mining industry and rollbacks of environmental protections for our 
public lands. Many of these measures passed the House in the last 
Congress but were too extreme to pass the Senate. Yet, today we are 
considering these same extreme bills with few or no changes.
    For instance, despite being entitled the ``National Strategic and 
Critical Minerals Production Act of 2013,'' H.R. 761 has absolutely 
NOTHING to do with developing these minerals. In fact, this bill is all 
about gutting the environmental safeguards and the proper review of 
large mining projects on public lands for virtually all minerals. The 
bill would really waive proper environmental review and public input 
for large mining operations on public lands for abundant minerals like 
gold, silver or copper.
    Another bill we are considering today, H.R. 687, would transfer 
approximately 2,400 acres of land in the Tonto National Forest, 
including 760 acres that were withdrawn from mining operations by 
President Eisenhower in 1955, to a subsidiary of two foreign mining 
companies--Rio Tinto and BHP Billiton. This bill raises numerous 
concerns about the impacts on the environment, surrounding communities 
and Native American sacred sites.
    Allowing copper mining in this area could have significant impacts 
on the quality and quantity of drinking water for thousands of people 
in this already drought prone area. This proposal could decimate the 
economic benefits of recreation. It could devastate an area sacred to 
Native People. And this legislation would hand over billions of dollars 
worth of mineral resources to foreign mining companies without 
receiving a fair return. All while waiving proper review under the 
National Environmental Policy Act. In addition, support for this mining 
proposal has been eroding. The town of Superior, Arizona--the town that 
would be most directly impacted--recently adopted a resolution opposing 
the deal.
    H.R. 957 would re-impose a reduced royalty rate for soda ash 
produced from Federal lands. We can and should debate the impact of 
such a reduction but the ability of the soda ash industry to increase 
production, exports, and employment last year following the expiration 
of the reduced royalty rate should be part of that conversation.
    And while many of the bills we are considering today provide new 
giveaways to large, multinational mining companies, they do nothing to 
update the Mining Law of 1872, which allows mining companies to pull 
taxpayer-owned hardrock minerals out of our public lands virtually for 
free. In fact, under this 140-year old law, mining companies can 
extract gold, silver, uranium, copper and other hardrock minerals 
without paying taxpayers a dime in royalties for those minerals. This 
law isn't just outdated, it's outrageous. That is why I will be 
introducing legislation with Ranking Member Markey, and Representative 
Grijalva that would ensure that large companies extracting these 
minerals on public lands pay taxpayers for the privilege of doing so, 
just as oil, gas and coal companies do now. As we are looking at ways 
to reduce our deficit, updating this law should be a common sense 
reform. But instead, the Majority continues to focus on heaping new 
giveaways on this industry.
                                 ______
                                 
    Mr. Lamborn. OK, certainly. And thank you, Representative 
Holt. We now have five Members who have come forward for our 
first panel. We have about 8 minutes or so before we have to 
scurry over there to catch the first vote, because the 15-
minute period is running. Hopefully we can get through the 
testimony. If not, we will just reconvene after votes. But we 
will be in recess in about 8 minutes or so.
    Let's start now with Representative Paul Gosar of Arizona.

   STATEMENT OF THE HON. PAUL A. GOSAR, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Dr. Gosar. Thank you, Chairman Lamborn, and thanks for 
scheduling today's legislative hearing on the Southeast Arizona 
Land Exchange and Conservation Act. When I was first elected to 
Congress a little over 2 years ago, one of the first 
initiatives the people of Arizona brought to my attention was 
this land exchange.
    H.R. 687 facilitates a land exchange that will bring into 
Federal stewardship 5,500 acres of high-priority conservation 
lands that contain endangered species, sensitive ecosystems, 
recreational sites, and historical landmarks, in exchange for 
2,600 acres of Federal land in Pinal County, Arizona, 
containing one of the largest undeveloped copper resources in 
the world. It is a critical first step in the development of 
the largest producing mine in North America.
    The potential economic benefits of this legislation are 
staggering. Upon passage of the bill, Resolution Copper 
estimates that it will be able to employ nearly 3,000 workers 
during a 6-year construction period, and that is just the 
start. The mine, assuming the company's mine plan of operation, 
complies with all environmental laws. Let me repeat. It is a 
requirement explicitly by my bill that they comply with all 
environmental bills.
    When they go into full production, they will directly 
employ another 1,400 people. These are high-paying jobs, 
ranging from $40,000 to $120,000 salaries per year in a region 
that is struggling, economically. As many people familiar with 
mining communities know, an influx of over 1,000 mining jobs 
will spur economic development growth in the community. These 
mine workers need restaurants to eat at, convenience stores to 
shop at, and homes to live in. A recent economic study 
estimates an additional 2,300 jobs could be created due to 
these demands. That brings the estimated total number of jobs 
resulting from this legislation to 3,700.
    Overall, independent analysis estimates the total economic 
impact of the project will be over $61 billion. That is over $1 
billion per year over the life of the mine, which equates to 
over $19 billion to Federal, State, county, and local tax 
revenues--$19 billion in tax revenues. In these tough fiscal 
times, I think we could all agree our local governments, and 
certainly the U.S. Treasury, could use those funds.
    This legislation has national security implications. The 
U.S. currently imports 30 percent of our copper demands, and 
the demand is skyrocketing. This critical mineral is used in 
virtually all modern-day technology, ranging from renewable 
energy and hybrid cars to everyday electronics like cell phones 
and iPads. Our country must use domestic resources to meet this 
growing demand, and this project could yield enough copper to 
meet 25 percent of our current needs.
    This legislation is not only a jobs bill, it is a 
conservation bill. The lands that the Federal Government 
acquires in the exchange are highly coveted recreational and 
conservation areas. It protects one of the few remaining 
undammed rivers in Arizona, the San Pedro River. The Dripping 
Springs property is a superb hiking and climbing location. The 
Cave Creek property will protect a riparian corridor, as well 
as numerous archeological sites, and nearly 100 acres of 
private land adjacent to culturally important Apache Leap is 
placed into the Federal stewardship.
    A few of the witnesses today are going to testify that 
Congress is rushing consideration of the land project exchange, 
and that there are many unanswered questions surrounding the 
project. That could not be further from the truth. Over the 
past 8 years, this exchange and the potential mine have been 
subject to intensive review, public consideration, and 
modification. Today will be the fifth legislative hearing in 
either the House or the Senate held to examine the specifics of 
this legislation. This exact language passed the U.S. House 
with bipartisan support, and was almost signed into law last 
year.
    Many of the issues that the detractors of this project will 
bring up in today's hearing have been addressed in the 
Congressional Record at some point. Congresswoman Kirkpatrick 
and I are committed to addressing the few concerns that have 
not as we move forward in this legislative process, in 
particular the concerns about the land that will be conveyed to 
the Town of Superior.
    But don't be fooled. This land exchange has strong 
bipartisan support across the State of Arizona. I would like to 
submit letters of support from the State Government delegation 
of the affected region: Governor Jan Brewer, Democrat State 
Senator Barb McGuire, Republican State Representatives Frank 
Pratt and T.J. Shope, and Brenda Barton. I would like to submit 
these for the record.
    Mr. Lamborn. With no objection, so ordered.
    Dr. Gosar. Also for the record, a resolution unanimously 
passed by the bipartisan Pinal County Board of Supervisors and 
letters of support from the entire bipartisan Gila County Board 
of Supervisors.
    Mr. Lamborn. With no objection, so ordered.
    Dr. Gosar. These two counties encompass the area's most 
affected by the exchange.
    And finally, I have letters from the Town of Payson; the 
Mayor of Globe, Terry Wheeler; a Superior Councilman, John 
Tameron; and a resolution of support from the Town of Kearny.
    Mr. Lamborn. Seeing no objection, so ordered.
    [The information submitted for the record by Dr. Gosar has 
been retained in the Committee's official files:]
    Dr. Gosar. Each of these officials was elected to their 
position in some part because of their support for this land 
exchange. Their constituents--our constituents--want Congress 
to approve this land exchange.
    Thank you for the opportunity to testify. I urge my 
colleagues to support the legislation because I know it will 
lead to a better future for my constituents and this country. 
Thank you, sir.
    [The prepared statement of Dr. Gosar follows:]
Prepared Statement of Paul A. Gosar, a Representative in Congress From 
                   the State of Arizona, on H.R. 687
    First, I would like to thank Chairman Lamborn for scheduling 
today's legislative hearing on the Southeast Arizona Land Exchange and 
Conservation Act. When I was first elected to Congress a little over 2 
years ago, one of the first initiatives the people of Arizona brought 
to my attention was this land exchange.
    H.R. 687 facilitates a land exchange that will bring into Federal 
stewardship 5,500 acres of high-priority conservation lands that 
contain endangered species, sensitive ecosystems, recreational sites, 
and historic landmarks, in exchange for 2,600 acres of Federal land in 
Pinal County, Arizona containing one of the largest undeveloped copper 
resources in the world. It is the critical first step to the 
development of the largest producing mine in North America.
    The potential economic benefits of this legislation are staggering. 
Upon passage of the bill, Resolution Copper estimates it will be able 
to employ nearly 3,000 workers during a 6-year construction period--and 
that is just the start. The mine, assuming the company's mine plan of 
operation complies with all environmental laws, which let me repeat--is 
required explicitly by my bill before the company can begin production, 
will directly employ around 1,400 people. These are high-paying jobs, 
ranging from $40,000 to $120,000 salaries per year, in a region that is 
struggling economically.
    As many people familiar with mining communities know, an influx of 
over 1,000 mining jobs will spur additional economic growth in a 
community. Those mine workers need restaurants to eat at, convenience 
stores to shop at, and homes to live. A recent economic study estimates 
an additional 2,300 jobs could be created due to these demands. That 
brings the estimated total number of jobs resulting from this 
legislation to 3,700.
    Overall, independent analysis estimates the total economic impact 
of the project will be over $61 billion. That is over $1 billion per 
year over the life of the mine, which equates to over $19 billion in 
Federal, State, county, and local tax revenue. Nineteen billion dollars 
in tax revenue--in these tough fiscal times I think we can all agree 
our local governments and certainly the U.S. Treasury could use those 
funds.
    This legislation also has national security implications. The 
United States currently imports 30 percent of our copper and demand is 
skyrocketing. This critical mineral is used in virtually all modern day 
technology ranging from renewable energy and hybrid cars, to your 
everyday electronics like cell phones and iPods. Our country must use 
domestic resources to meet this growing demand; this project could 
yield enough copper to meet 25 percent of our current needs.
    This legislation is not only a jobs bill, it's a conservation bill. 
The lands the Federal Government acquires in the exchange are highly-
coveted recreational and conservation areas. It protects one of the few 
remaining undammed rivers in Arizona, the San Pedro River. The Dripping 
Springs property is a superb hiking and climbing location. The Cave 
Creek property will protect a riparian corridor as well as numerous 
archaeological sites. And nearly 100 acres of private land adjacent to 
the culturally important Apache Leap is being placed into Federal 
stewardship.
    A few of the witnesses today are going to testify that Congress is 
rushing consideration of the land exchange and that there are many 
unanswered questions surrounding the project. That could not be further 
from the truth. Over the past 8 years, this exchange and the potential 
mine has been subject to intensive review, public consideration, and 
modification. Today will be the sixth legislative hearing, in either 
the House or the Senate, held to examine the specifics of this 
legislation. This exact language passed the U.S. House with bipartisan 
support and was almost signed into law last year.
    Many of the issues that the detractors of this project will bring 
up in today's hearing have been addressed in the Congressional record 
at some point. Congresswoman Kirkpatrick and I are committed to 
addressing the few concerns that have not as we move forward in the 
legislative process, in particular concerns about the land that will be 
conveyed to the Town of Superior.
    But don't be fooled--this land exchange has strong bipartisan 
support across the State of Arizona.
    I would like to submit letters of support from the State government 
delegation of the affected region--Democrat State Senator Barb McGuire, 
and Republican State Representatives Frank Pratt, T.J. Shope, and 
Brenda Barton.
    Also for the record--a resolution unanimously passed by the 
bipartisan Pinal County Board of Supervisors and letters of support 
from the entire bipartisan Gila County Board of Supervisors. These two 
counties encompass the areas most affected by the exchange.
    Finally, I have letters from the Town of Payson, the Mayor of Globe 
Terry Wheeler, Superior Councilman John Tameron, and a resolution of 
support from the Town of Kearney.
    Each of these officials was elected to their positions in some part 
because of their support for this land exchange. Their constituents . . 
. OUR constituents, want Congress to approve this land exchange.
    Thank you for the opportunity to testify. I urge my colleagues to 
support the legislation because I know it will lead to a better future 
for my constituents and this country.
                                 ______
                                 
    Mr. Lamborn. OK, thank you.
    We will now hear from Representative Grijalva.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman. I appreciate the 
time. And I think, as President Reagan said famously in a 
debate once, ``Here we go again.'' And as my friend, Mr. Gosar, 
said, this is about the fifth, sixth version of this piece of 
legislation.
    And before I make any comments on this legislation, I want 
to advise the Chairman and the Ranking Member that I made a 
request to Chairman Hastings and Ranking Member Markey to delay 
this hearing until there is meaningful government-to-government 
consultation between the Federal Government and tribal Nations 
affected by this legislation. And that is consistent with the 
Federal agency and tribal memorandum of understanding that is 
in place right now. And I would again urge that consideration.
    I am also asking that we ask the State Department to verify 
that this particular decision on H.R. 687 does not violate any 
resolution that this Congress has passed with regards to 
sanctions, economic sanctions in Iran, or any company or entity 
that does business with them. It is our understanding that Rio 
Tinto, the parent company of subsidiary Resolution Copper, 
jointly operates a uranium mine, of all things, in Namibia.
    And I would suggest that before you take my word for it or 
take the denials as truth, that a formal request from the Chair 
and the Ranking Member to the State Department to validate and 
verify that. We have all passed resolutions and the urgency of 
those resolutions has come for the protection of Israel. I 
would suggest that that is one. The last time we had a motion 
to recommit on the same subject, we split entirely along party 
lines. Democrats supported the motion to recommit, and every 
Republican opposed to it. Before we cross that bridge again I 
would suggest we get information.
    This legislation, quite frankly, Mr. Chairman, is a 
deception. Even today we have no one from Rio Tinto or its 
subsidiary, Resolution, as a witness available to answer 
questions, questions dealing with transparency, the due 
diligence, and what is the return for the taxpayer. There is a 
tattered history to this legislation and this deal. But the 
fundamental and consistent reasons for opposition remain the 
same.
    Pre or post-NEPA, the company says, ``We are going to obey 
everything,'' but once it is in their hands and it is 
privatized, the Federal land, no matter what is found in NEPA, 
no matter what is found in the environmental impact statement, 
there is nothing the Government can do to assure compliance. So 
when we say we are OK with NEPA, after the fact, the law is 
moot after the fact.
    Native Americans, and you are going to hear from them 
today, we have the Chairman and the President of the Hopi and 
Navajo Nation, as well as the Chairman of the All-Indian Pueblo 
Council, representing 20 pueblos in New Mexico and Texas that 
are here, not only in support of their colleagues, San Carlos 
Apaches, but also in opposition to this bill.
    And the opposition continues the same. What is the value of 
the resource? $60 billion? $100 billion? What is under that 
land? And is the trade that we are talking about, is that a 
fair return for the taxpayer? I understand the value is 
proprietary to the company, but I think some due diligence on 
the part of this Committee to understand value and what we are 
giving back to the taxpayer is an important issue.
    I mentioned the issue of sanctions. I think all the 
legitimate opposition and concerns that we have are always met 
with, ``You are anti-jobs, you are anti-mining.'' Well, I think 
there is a rush for this legislation because there is an 
erosion of local support. There is unanimous opposition among 
Native Americans, not only in Arizona but across the country. 
And there is a track record for Rio Tinto with regards to labor 
violations, environmental violations, and failure to do 
reclamation.
    So, why the rush? Perhaps there is a feeling there is a 
much more accommodating presence at the Senate that would allow 
this bill to go as is. Perhaps it is that there is hemorrhaging 
local support in the region for the mine, and let's do it now 
before that support eradicates entirely.
    Mr. Chairman, I hope that we do our due diligence and be 
true stewards of our public lands and the responsibility we 
own. We are not Wal-Mart greeters for Rio Tinto or its 
subsidiary. We are not facilitators or brokers. This cozy deal 
before us today in the form of H.R. 687 is the same deal we saw 
before, and before, and before. We are doing it again, and the 
opposition to the points remain the same. Thank you, Mr. 
Chairman.
    Mr. Lamborn. OK, thank you for your testimony. I apologize 
that we couldn't finish the remainder of the panel. We will go 
into recess now to vote. I am going to let the audience know I 
am estimating about 45 minutes or so before we come back. But 
at that point we will reconvene, hear from the rest of the 
panel, and then go into our other panels.
    We will be in recess.
    [Recess.]
    Mr. Lamborn. The Subcommittee will come back to order. We 
have a couple Members who are on their way from the voting that 
just concluded, but one Member is here and I see another Member 
coming in. Excellent. So we will go ahead and, since Mrs. 
Kirkpatrick is here and we are still on the subject of H.R. 
687, we will hear her testimony and then go to Mr. Heck of 
Nevada.
    Mrs. Kirkpatrick, the floor is yours.

  STATEMENT OF THE HON. ANN KIRKPATRICK, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mrs. Kirkpatrick. Thank you, Mr. Chairman and Ranking 
Member Holt. I am proud to represent Arizona's first district. 
It covers 60,000 square miles, 80 rural communities, including 
the Town of Superior, whose leaders are here today. And it has 
12 Native American Tribes, including the San Carlos Apache 
Tribe, whose leaders are here today.
    I am here today testifying in support of H.R. 687, the 
Southeastern Arizona Land Exchange, of which I am an original 
cosponsor. I would like to start by first recognizing there are 
pros and cons to this legislation and to the land exchange. My 
testimony will touch on both aspects of this project. However, 
it is my belief that there is a way to work together and use 
the legislative process to develop a piece of legislation that 
brings a diversified and stable economy to this region. But not 
without first addressing the project's impact on our 
environment, water, and lands.
    My district includes Arizona's Copper Corridor, which has 
more than a century's legacy of copper mining. It includes 
communities like Superior, Globe, Miami, Hayden, Winkelman, and 
Kearny. Copper is part of Arizona's heritage. It is one of the 
four C's represented in our State Seal.
    The Copper Corridor has played a major role in our State's 
early growth and economic development. Folks here have remained 
in these towns for generations, and have expressed strong 
support over the years for the Superior mine. They have raised 
their families here, worked the mines, run their own 
businesses. But small towns in Arizona have been hit hard by 
the Great Recession. They have been set back by changing 
economic realities. The median household income in my district 
is just over $30,000. These are working families; they 
struggle. But they love their communities and they want to stay 
if there is a way.
    Across the globe there is a great need, an economic demand 
for the high-grade copper these communities can produce. I know 
this, and so does my colleague, Congressman Gosar. That is why 
each of us tried in previous Congresses to make this project a 
reality. And that is why, in this Congress, we have joined 
together to try again in hopes that a bipartisan approach could 
make the difference.
    My district is also home to the San Carlos Apache Tribe. 
The testimony of Chairman Rambler must also be taken into 
account as we move through the legislative process. The Tribe's 
concerns about the impact this project will have on sacred 
sites and land are valid concerns. The Tribe's concerns about 
the impact of the project on our environment, water, and public 
health are also valid concerns. I am committed to using the 
legislative process to represent their concerns. This process 
must be transparent. It must reflect our shared interest in the 
public good. And that means recognizing that these communities 
cannot have long-term economic stability without clean water, 
air, and land.
    The voices of tribal and environmental groups should be 
heard and respected, and that is where the legislative process 
comes in. I support requiring government-to-government tribal 
consultations prior to the land exchange. We also need to 
include environmental protections for the water and land in and 
around the Copper Corridor very likely prior to the land 
exchange.
    If people are going to live, work, and raise their families 
in these areas, these factors must be addressed. I will be 
working toward including responsible provisions like these in a 
final version of this legislation. I believe that if these 
provisions are included, it will help ensure that Superior Mine 
can finally move forward.
    I offer my sincere thanks to all of those who came here 
today to testify about this legislation and make your voices 
heard.
    And I want to especially thank Congressman Gosar and his 
staff for working together with us on this important effort. 
Thank you very much.
    [The prepared statement of Mrs. Kirkpatrick follows:]
 Prepared Statement of The Honorable Ann Kirkpatrick, a Representative 
           in Congress From the State of Arizona, on H.R. 687
    I am proud to represent Arizona's first district, which covers 
60,000 square miles, 80 rural communities, including the town of 
Superior whose leaders are here today, and 12 Native American tribes--
including the San Carlos Apache Tribe, whose leaders are here today.
    I stand here today testifying in support of H.R. 687--the 
Southeastern Arizona Land Exchange, of which I am an original co-
sponsor.
    I would like to start by recognizing there are pros and cons to 
this legislation and to the land exchange. My testimony will touch on 
both aspects of this project.
    However, it is my belief that there is a way to work together, and 
use the legislative process to develop a piece of legislation that 
brings a diversified and stable economy to the region--but not without 
first addressing the project's impact on our environment, water and 
lands.
    My district includes Arizona's Copper Corridor, which has more than 
a century's legacy of copper mining.
    It includes communities like Superior. Globe. Miami. Hayden. 
Winkelman and Kearny.
    Copper is part of Arizona's heritage--it's one of the five C's 
represented in our State seal.
    The Copper Corridor has played a major role in our State's early 
growth and economic development.
    Folks here have remained in these towns for generations and have 
expressed strong support over the years for the Superior mine.
    They've raised their families here. Worked the mines. Run their own 
businesses.
    But small towns in Arizona have been hit hard by the great 
recession.
    They've been set back by changing economic realities.
    The median income in my district is just over $30,000 a year.
    These are working families. They struggle.
    But they love their communities and they want to stay--if there's a 
way.
    Across the globe, there is a great need--an economic demand--for 
the high-grade copper these communities can produce.
    I know this, and so does my colleague, Congressman Gosar.
    That's why each of us tried in previous Congresses to make this 
project a reality.
    And that's why in this Congress, we have joined together to try 
again, in hopes that a bipartisan approach could make the difference.
    Now, my district is also home to the San Carlos Apache Tribe. The 
testimony of Chairman Rambler must also be taken into account as we 
move through the legislative process.
    The tribe's concerns about the impact this project will have on 
sacred sites and land are valid concerns.
    The tribe's concerns about the impact of the project on our 
environment, water and public health are also valid concerns.
    I am committed to using the legislative process to represent their 
concerns.
    This process must be transparent. It must reflect our shared 
interest in the public good.
    And that means recognizing that these communities cannot have long-
term economic stability without clean water, air and land.
    The voices of tribal and environmental groups should be heard and 
respected.
    And that's where the legislative process comes in:
    I support requiring government-to-government tribal consultations 
prior to the land exchange.
    We also need to include environmental protections for the water and 
land in and around the Copper Corridor--very likely, prior to the land 
exchange.
    If people are going to live, work and raise their families in these 
areas, these factors must be addressed.
    I will be working toward including responsible provisions like 
these in a final version of this legislation.
    I believe that if these provisions are included, it will help 
ensure the Superior mine can finally move forward.
    I offer my sincere thanks to all those who came here today to 
testify about this legislation and make your voices heard.
    And I want to thank Congressman Gosar and his staff for working 
together with us on this important effort.
    Thank you.
                                 ______
                                 
    Mr. Lamborn. Thank you, Representative. And as each Member 
provides their testimony, feel free to be excused. I know there 
are other Committees going on and other pressing matters. Thank 
you.
    Mrs. Kirkpatrick. Mr. Chairman, may I be excused?
    Mr. Lamborn. Please, yes.
    Mrs. Kirkpatrick. Thank you.
    Mr. Lamborn. Thank you for being here. And now we will hear 
from Representative Heck of Nevada on his bill.

   STATEMENT OF THE HON. JOSEPH J. HECK, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF NEVADA

    Mr. Heck. Chairman Lamborn, thank you for inviting me back 
to testify before the Subcommittee on an innovative solution 
for restoring the environment, improving safety, and creating 
jobs in my district in Southern Nevada.
    As you know, I originally introduced the Three Kids Mine 
Remediation and Reclamation Act in the previous Congress. This 
legislation was passed successfully through the Natural 
Resources Committee and passed the House by a voice vote, but 
unfortunately, did not receive consideration in the Senate 
before the 112th Congress adjourned. I have since re-introduced 
the legislation as H.R. 697.
    Mr. Lamborn. Representative, is your microphone on?
    Mr. Heck. Yes, it is.
    Mr. Lamborn. OK, excellent. Maybe pull it a little closer.
    Mr. Heck. And I appreciate the opportunity to come back and 
testify before the Subcommittee to talk about a serious 
environmental public safety and abandoned mine reclamation 
issue in the city of Henderson, Nevada. In the interest of 
time, I am going to abbreviate my remarks, but request that my 
full statement be entered into the record.
    Mr. Lamborn. No objection, so ordered.
    Mr. Heck. And I also request that a written statement of 
The Honorable Andy Hafen, Mayor, City of Henderson, Nevada, be 
entered into the record.
    Mr. Lamborn. Without objection, so ordered.
    [The information submitted for the record by Mr. Heck has 
been retained in the Committee's official files:]
    Mr. Heck. The Three Kids Mine is an abandoned manganese 
mine and mill site consisting of approximately 1,262 acres of 
Federal and private lands which lies within the Henderson City 
limits, and is literally across from Lake Mead Parkway, from an 
increasing number of homes and businesses. The Three Kids Mine 
was owned and operated by various parties, including the United 
States, from approximately 1917 through 1961, and used as a 
storage area for Federal manganese ore reserves from the late 
1950s through 2003.
    The project site contains numerous large, unstable, sheer 
cliff open pits as deep as 400 feet, and huge volumes of mine 
overburden and tailings, mill facility remnants, and waste 
disposal areas.
    To give a sense of scale, the mine overburden is 10 stories 
high in some areas. Abandoned waste ponds are up to 60 feet 
deep and filled with over 1 million cubic yards of gelatinous 
tailings containing high concentrations of arsenic, lead, and 
petroleum compounds. Reclaiming the project site will require 
the excavation and management of at least 12 million cubic 
yards of material, enough to fill a modern sports stadium 6 
times. The presumptive remedy for the project site is to use 
the existing mine pits as permanent repositories for the mine 
residue in an appropriately engineered manner.
    The legislation I have introduced with the support of the 
entire Nevada Delegation is the result of over 5 years of work 
among the City of Henderson Redevelopment Agency, the 
Department of the Interior, the State of Nevada, and private 
entities to develop a program to finally clean up the Three 
Kids Mine site.
    Boiled down to its simplest form, the Secretary of the 
Interior will convey the Federal lands at the project site, 
approximately 948 acres, at fair market value, taking into 
account the cost of investigating and remediating the entire 
site, which includes an additional 314 acres of now private 
lands that were used historically in mine operations. The 
Federal Government will receive a release of liability for 
clean-up of both the Federal lands and the private lands.
    This is a unique and complex public-private partnership 
proposal. It will finally lead to the clean-up of the Three 
Kids Mine site at no cost to the Federal Government.
    In closing, I want to once again thank Chairman Lamborn and 
Ranking Member Holt, as well as the other members of the 
Subcommittee for holding a hearing on this serious problem of 
abandoned mine lands and innovative solutions for addressing 
the problem. And I would be happy to answer any questions the 
Subcommittee might have.
    [The prepared statement of Mr. Heck follows:]
Prepared Statement of the Honorable Joseph J. Heck, a Representative in 
             Congress From the State of Nevada, on H.R. 697
    Chairman Lamborn and Ranking Member Holt, thank you for inviting me 
back testify before the Subcommittee on an innovative solution for 
restoring the environment, improving safety, and creating jobs in my 
District in southern Nevada. As you know, l originally introduced the 
Three Kids Mine Remediation and Reclamation Act in the previous 
Congress. This legislation was passed successfully through the Natural 
Resources Committee and the House, but unfortunately, did not receive 
consideration in the Senate before the 112th Congress adjourned. I have 
since reintroduced this legislation as H.R. 697, and I appreciate the 
opportunity to come back and testify before the Subcommittee to talk 
about a serious environmental, public safety, and abandoned mine 
reclamation issue in the City of Henderson, Nevada.

                                 * * *

    The Three Kids Mine is an abandoned manganese mine and mill site 
consisting of approximately 1,262 acres of Federal and private lands 
which lies within the Henderson City limits and is literally across 
Lake Mead Parkway from an increasing number of homes and businesses. 
The Three Kids Mine was owned and operated by various parties, 
including the United States, from approximately 1917 through 1961, and 
used as a storage area for Federal manganese ore reserves from the late 
1950s through 2003. The project site contains numerous large unstable 
sheer-cliff open pits as deep as 400 feet, huge volumes of mine 
overburden/tailings, mill facility remnants and waste disposal areas. 
To give a sense of scale, mine overburden is ten stories high in some 
areas; abandoned waste ``ponds'' are up to 60 feet deep and filled with 
over 1 million cubic yards of gelatinous tailings containing high 
concentrations of arsenic, lead and petroleum compounds. Reclaiming the 
Project Site will require the excavation and management of at least 12 
million cubic yards of material (enough to fill a modern sports stadium 
six times). The ``Presumptive Remedy'' for the Project Site is to use 
the existing mine pits as permanent repositories for the mine residue, 
in an appropriately engineered manner.

                                 * * *

    The Nevada Division of Environmental Protection has identified the 
Three Kids Mine as a high priority for the implementation of a 
comprehensive environmental investigation, remediation, and reclamation 
program. Numerous unsuccessful proposals to clean up and redevelop the 
Project Site have been advanced over the years. All were ultimately 
abandoned due to unrealistic estimates of the scale of required 
remediation, as well as the complexities posed by the mix of private 
and Federal ownership at the Project Site. Something must be done to 
address this serious blight on the Henderson community.

                                 * * *

    The legislation I have introduced, with the support of the entire 
Nevada Delegation, is the result of over 5 years of work among the City 
of Henderson Redevelopment Agency, the Department of the Interior, the 
State of Nevada, and private entities to develop a program to finally 
clean up the Three Kids Mine site. Boiled down to its simplest form, 
the Secretary of the Interior will convey the Federal lands at the 
project site--approximately 948 acres--at fair market value taking into 
account the costs of investigating and remediating the entire site, 
which includes an additional 314 acres of now-private lands that were 
used historically in mine operations. The Federal Government will 
receive a release of liability for cleanup of both the Federal lands 
and the private lands. Under the legislation, before the Federal lands 
are conveyed, the State must enter into a binding consent agreement 
under which the cleanup of the entire Project Site will occur. The 
consent agreement must include financial assurances to ensure the 
completion of the remediation and reclamation of the Site. The cleanup 
will be financed with private capital and Nevada tax increment 
financing at no cost to the Federal Government.
    In more detail, the legislation would direct the Secretary to 
convey the 948 Federal acres of the Three Kids Mine project site to the 
Henderson Redevelopment Agency for fair market value, discounted to 
reflect the costs of cleanup of the entire Project Site. According to 
preliminary estimates, the cleanup costs for the Project Site range 
from a low of $300 million to a high of nearly $1 billion. The BLM's 
preliminary estimate of the value of the lands to be conveyed as if 
they were ``clean'' ranges from $95 million to $190 million. The value 
and costs will be determined by the Secretary under the legislation 
using established national appraisal methods, environmental assessment 
standards, and cost estimating procedures. We fully expect the cleanup 
costs to substantially exceed the value of the lands to be conveyed. 
Moreover, given the mix of private and Federal lands at the project 
site and the substantial cleanup costs involved, there is no viable 
solution to remediate and reclaim the Federal lands without the private 
lands.
    Before any conveyance of Federal land, the legislation requires an 
executed Mine Remediation and Reclamation Agreement between a 
responsible party and the State of Nevada that would govern the 
``CERCLA-protective'' cleanup program for the entire Project Site 
(Federal and private lands) and ensure that the program is fully 
funded. Finally, in exchange for the conveyance, the Federal 
Government's responsibility for the cleanup of this site will be 
assumed and paid for by a responsible third party and the Secretary's 
land will also be cleaned up at no cost to the Federal Government.

                                 * * *

    Fundamental to the economic viability of the entire project is the 
availability of ``tax increment financing'' under the Nevada Community 
Redevelopment Law. The Nevada Redevelopment Law allows the 
Redevelopment Agency to fund the cleanup of blighted conditions such as 
an abandoned mine and environmental contamination through use of an 
``increment'' of property taxes collected within a designated 
redevelopment area over a 30-year ``capture period.'' The ``increment'' 
is a portion of the assessed value of the property which predictably 
increases in value following cleanup and as the subsequent commercial 
and residential redevelopment build-out occurs. To advance this 
important project, the City of Henderson completed annexation of the 
Three Kids site in January 2009, and the Lakemoor Canyon Redevelopment 
Area was established in February 2009.

                                 * * *

    This is a unique and complex ``public/private partnership'' 
proposal. It will finally lead to the cleanup of the Three Kids Mine 
site at no cost to the Federal Government. Millions of dollars have 
been spent on this effort to date on environmental assessment work at 
the Project Site and to advance discussions and negotiations among 
project stakeholders. I believe that this initiative offers a viable 
solution for the cleanup and reclamation of the Three Kids Mine and 
could serve as a model for other similar sites across the country. I 
would respectfully request that the Subcommittee grant expeditious 
consideration of the Three Kids Mine Remediation and Reclamation Act.
    In closing, I want to once again thank Chairman Lamborn and Ranking 
Member Holt, as well as the other members of the Subcommittee, for 
holding a hearing on the serious problem of abandoned mined lands, and 
innovative solutions for addressing the problem. I would be happy to 
answer any questions the Subcommittee might have.
                                 ______
                                 
    Mr. Lamborn. OK, thank you for your testimony. Feel free to 
be excused. I know there are other pressing issues and 
Committee hearings. Thank you for being here.
    We will now hear from Senator--excuse me, Representative 
Johnson--there is an interesting Senate race going on in 
Georgia, but I should say Representative Johnson of Georgia.

   STATEMENT OF THE HON. HENRY C. ``HANK,'' JOHNSON, JR., A 
      REPRESENTATIVE IN CONGRESS FROM THE STATE OF GEORGIA

    Mr. Johnson of Georgia. Well, I tell you, I am going to 
stay right where I am and stay out of that big fight.
    [Laughter.]
    Mr. Johnson of Georgia. But thanks for the elevation, 
anyway.
    Mr. Lamborn. We just made some news today here.
    Mr. Johnson of Georgia. Thanks, Mr. Chairman. I want to 
thank you, Chairman Lamborn. Also, Ranking Member Horsford, for 
allowing me to join you today.
    Mr. Chairman, it is a testament to the statesmanship of the 
Chairman and Ranking Members that you have placed a bill 
offered by a Democrat on the table for discussion today. That 
bipartisan approach will be necessary if we are going to rise 
to the challenges of our time.
    I also must thank Ranking Member Markey for his and his 
staff's hard work in developing H.R. 981, the Resource 
Assessment of Rare Earths Act of 2013, or the RARE Act, which 
we jointly introduced this year.
    Ranking Member Holt I also want to thank for his support 
for this legislation.
    This hearing on creating mining and manufacturing jobs here 
in America, and the securing of our access to necessary 
minerals is critically important. The RARE Act will help ensure 
that our Nation is able to assess rare earth elements, which 
are necessary components of numerous products, from wind 
turbines to solar panels to energy-efficient light bulbs and a 
number of Department of Defense applications, as well.
    The bill is simple and I would also argue that it is also 
non-partisan. It directs the U.S. Geological Survey to lead a 
global, multilateral assessment of rare earth element deposits 
to develop a comprehensive understanding of their distribution 
around the world.
    We need this bill because China now accounts for upwards of 
90 percent of U.S. rare earth element supply. This Chinese 
monopoly is a potentially ruinous economic and geopolitical 
vulnerability for the United States. In recent years, China has 
shown a willingness to exploit its monopoly by restricting rare 
earth elements exports, undermining U.S. national security and 
competitiveness in defense and clean energy. A better 
understanding of where these critical elements are will enable 
us to adjust to supply disruptions from any particular region.
    As I said, this is a non-partisan issue, and that is why I 
am happy to see Chairman Lamborn's bill, H.R. 1063, which is 
under consideration today, and which includes language that 
mirrors the rare earth assessments called for in my bill.
    Thank you, Mr. Chairman, for holding this hearing today. I 
look forward to the comments from the witnesses which I will 
take in via webcast. And thank you, members of the Committee.
    Mr. Lamborn. OK, thank you, Representative Johnson, for 
being here today and providing your testimony.
    That concludes our first panel. We will now move to the 
second panel of witnesses for oversight. And I invite forward 
Mr. James Iwanicki, Engineer Manager for the Marquette County 
Road Commission; Ms. Ruthe Batulis, President of the Dakota 
County Regional Chamber of Commerce, and President of the 
Minnesota Conference of Chamber Executives; Mr. Harry Melander, 
President of the Minnesota Building and Construction Trades 
Council; and Ms. Jennifer Krill, Executive Director of 
Earthworks.
    Like all our witnesses, your written testimony will appear 
in full in the record. So I ask that you keep your oral 
statements to 5 minutes, as outlined in our invitation letter 
and our Committee rules.
    Our microphones are not automatic, so you have to push a 
button to be heard. And the way the timing works is that when 
you press the button a green light comes on, and the 5-minute 
timer starts counting down. After 4 minutes, the yellow light 
comes on, and then the red light at 5 minutes.
    So, we will start in with our testimony. Mr. Iwanicki, you 
may begin.

    STATEMENT OF JAMES M. IWANICKI, P.E., ENGINEER MANAGER, 
                MARQUETTE COUNTY ROAD COMMISSION

    Mr. Iwanicki. Hi. I am James M. Iwanicki, Engineer and 
Manager of the Marquette County Road Commission. Thank you, Mr. 
Chairman and members of the Committee. Thank you for asking me 
here to testify about our experiences with trying to create a 
new county road, County Road 595, to improve the quality of 
life, the health, safety, and welfare of our citizens. County 
Road 595 would have had a positive impact on the mining, 
logging, recreation, and tourist industries.
    Rio Tinto was willing to fund an $83 million, 21-mile 
public road project to access a remote but key area of the 
county. The road would have had a major positive economic and 
public safety impact for the area and region. The road is 
located in a working woods. It would have replaced a system of 
two track roads that are currently used to access the area.
    As a local government official, it was very frustrating in 
dealing with the EPA throughout this project. If I operated the 
Marquette County Road Commission the way the EPA handled this 
permit, I would not be sitting here today. It is even more 
surprising, when you consider the list of support that we had. 
County Road 595 was supported by all local units of government 
in Marquette County and where County Road 595 would either go, 
or where the existing road to the mine goes through. This 
includes three cities, Marquette, Ishpeming, and Negaunee; 
eight townships; the Marquette County Board; two Michigan State 
House of Representative Members, one Democrat, one Republican; 
the Michigan State Senator of the area, a Republican; 63 of the 
110 Members of the 96th Michigan State House; 28 of the 38 
Senators from the 96th Michigan State Senate; the Governor of 
the State of Michigan; the Michigan Department of 
Transportation; the Michigan Department of Environmental 
Quality; the Michigan Department of Natural Resources; the 
Michigan State Police; Republican Dan Benishek of the U.S. 
House; and both Democratic U.S. Senators, Carl Levin and Debbie 
Stabenow.
    EPA over-reached their authority on this project in at 
least five different ways to kill County Road 595. EPA did not 
allow Marquette County Road Commission to use any creation of 
wetlands for mitigation, forested wetlands in particular, as 
allowed by 40 CFR Part 230.92 and 230.92a2. The preservation 
ratios EPA required were beyond that which were reasonable, and 
not compliant with 40 CFR Part 230. Michigan Department of 
Environmental Quality rules allowed a maximum ratio of 12-to-1 
for wetland preservation.
    EPA imposed requirements that required mineral rights to be 
obtained for wetland preservation areas. Federal rules only 
required that site protection should include measures to 
protect sites to the extent appropriate and practical in regard 
to mineral extraction and other threats.
    EPA continually changed the rules in regards to what was 
required for mitigation on the project. EPA suggested that 
wetland preservation be at 20-to-1 replacement ratio in June 
2012 to cover indirect and secondary impacts. But in December 
2012 it required additional mitigation to address secondary 
impacts and gave Marquette County Road Commission less than 30 
days, including Christmas and New Year's holidays, to come up 
with such measures. The EPA public hearing in this process was 
held over 3 months prior to the December 4, 2012 EPA letter, 
and the timing of the letter did not allow sufficient time for 
the Marquette County Road Commission and MDEQ to respond to the 
requirements of EPA's letter, due to the holidays.
    EPA would not allow the Marquette County Road Commission, 
Marquette County, or Michigamme Township, all legal 
governmental entities in the State of Michigan, to be the land 
stewards for the proposed wetland mitigation area, as allowed 
in 230.97(a).
    Because of the EPA decision, we have gone from having a 
common-sense practical solution to solve public safety issues 
and improve the economics of the region to the use of the 
existing road system which will not be as safe as the proposed 
solution, cause more air pollution, and stagnate the economic 
development of the area.
    In conclusion, it is hard for the people in the area to 
understand how a Federal agency that does not live and work in 
our community can make such an important decision for us, 350 
miles away in Chicago.
    Thank you for your time. I would be happy to answer any 
questions the Committee may have.
    [The prepared statement of Mr. Iwanicki follows:]
   Prepared Statement of James M. Iwanicki, P.E., Engineer Manager, 
                    Marquette County Road Commission
    Mr. Chairperson and Members of the Committee:
    Thank you for asking me here today to testify about our experiences 
with trying to create a new county road, CR 595, to improve the quality 
of life, the health, the safety, and the welfare of our citizens. CR 
595 would have had a positive economic impact on the Mining, Logging, 
Recreation, and Tourism Industries.
Background Information
    In January of 2012 Marquette County Road Commission (MCRC) 
submitted a Section 404 permit application to fill approximately 26 
acres of wetland to construct 21 miles of road at a cost of $83 
million. CR 595 was going to be funded by Rio Tinto through a public-
private partnership. In addition Rio Tinto spent over $20 million to 
permit CR 595.
    Rio Tinto was interested in funding the project because they were 
constructing a new nickel and copper underground mine called the Eagle 
Mine. The company is also refurbishing the old Humboldt Mill to process 
the ore. The mine and the mill will create about 300 direct new jobs. 
(See Figure 2) The distance between the mine and the mill as the crow 
flies is about 19 miles. Using the existing road system to go from the 
mine to the mill would be approximately 60 miles one way. CR 595 would 
reduce travel time by an hour. The construction of CR 595 would have 
lasted 2 years and employed over 100 people during that timeframe.
    CR 595 would have been built in a working woods not in pristine 
wilderness. The road alignment is based on existing public and private 
roads. (See Figures 4 and 6-9.),
    CR 595 was the common sense solution to Marquette County's 
transportation needs.
    If you cannot build CR 595 then you can never build any new road in 
Marquette County or the Upper Peninsula of Michigan.
EPA
    <bullet>  In April of 2012 EPA objected to MCRC's project purpose.
    <bullet>  EPA held a public hearing on CR 595 in August of 2012.
    <bullet>  EPA lifted their objection to the project purpose on 
December 4, 2012 but had other objections which needed to be satisfied 
by January 3, 2013 (within 30 days) or jurisdiction would revert to the 
Army Corps of Engineers.
    <bullet>  Rio Tinto needed certainty in their transportation route 
by January of 2013. Failure to have a permit for CR 595 in January 2013 
would cause Rio Tinto to pull their $83 million funding commitment for 
CR 595 and they would use the existing road system to truck the ore.
    <bullet>  EPA did not like how we proposed to mitigate the impacts 
of CR 595. Our proposed mitigation plan involved preserving over 1,576 
Acres of land (2.5 square miles) adjacent to McCormick Tract in the 
Ottawa National Forrest. The area included approximately 647 acres of 
high quality wetland (25 to 1 ratio) including an additional 929 acres 
of uplands (60 to 1, total acreage). (See Figure 5)
    <bullet>  EPA was very aloof doing the whole permit process. They 
would not tell us what would be acceptable. In fact during the last 
month of the project they would not even tell us who the decision maker 
was going to be. They were unwilling to negotiate resolutions openly by 
telling us directly what would satisfy their issues.
    <bullet>  EPA wanted additional wildlife protection and they 
proposed creating wildlife crossings (tunnels or bridges) large enough 
to accommodate moose, bear, and cougar and to place fencing to guide 
wildlife to the crossing. But they would not tell us where these 
crossings needed to go.
    <bullet>  EPA wanted to limit secondary road connections to CR 595 
by placing deed restrictions on CR 595 so adjacent land owners could 
not connect to the road.
EPA's Overreach of Their Authority
    The Marquette County Road Commission (MCRC) believes the EPA 
overstepped its authority in the following areas:

    1. EPA would not allow MCRC to use any creation (``establishment'') 
of wetlands for mitigation, forested wetlands in particular, as allowed 
by 40 CFR part 230.92 and 230.93(a)(2).
    2. The preservation ratios EPA required (i.e. 20:1) were beyond 
what was reasonable and not compliant with 40 CFR part 230. Michigan 
Department of Environmental Quality (MDEQ) rules allow a maximum 
replacement ratio of 12:1 for wetland preservation.
    3. EPA imposed requirements that required mineral rights to be 
obtained for the wetland preservation areas. Federal rules only require 
that site protection should include measures to protect sites ``to the 
extent appropriate and practicable'' (230.97(a)(2)) in regard to 
mineral extraction and other threats.
    4. EPA continually changed the ``rules'' in regards to what was 
required for mitigation on the project. EPA suggested that wetland 
preservation be at a 20:1 replacement ratio in June 2012 to cover 
indirect and secondary impacts but in December 2012 it required 
additional mitigation measures to address secondary impacts and gave 
MCRC less than 30 days (including Christmas and New Year holidays) to 
come up with such measures. The EPA public hearing in this process was 
held over three months prior to the December 4, 2012 EPA letter and the 
timing of the letter did not allow sufficient time for MDEQ or MCRC to 
respond to the requirements of EPA's letter due in substantial part to 
the holidays.
    5. EPA would not allow the Marquette County Road Commission, 
Marquette County, or Michigamme Township (all legal governmental 
entities in the State of Michigan) to be the land steward of the 
proposed wetland preservation area, as allowed in 230.97(a).
Political Support for CR595
    CR 595 is supported by all local units of government in Marquette 
County where CR 595 would either go through or where the existing road 
to the mine goes through. This includes 3 cities, (Marquette, 
Ishpeming, Negaunee) 8 townships, the Marquette County Board, the two 
Michigan State House of Representatives members that represent 
Marquette County, the Michigan State Senate senator who represents 
Marquette County, 63 of the 110 members of the 96th Michigan State 
House, and 28 of 38 senators from the 96th Michigan State Senate, the 
Governor of the State of Michigan, Michigan Department of 
Transportation, Michigan Department of Environmental Quality, Michigan 
Department of Natural Resources, the Michigan State Police, Dan 
Benishek (R) U.S. House of Representative, and both U.S. Senators Carl 
Levin (D), and Debbie Stabenow (D).
Result of EPA's Overreach
    <bullet>  Heavy truck traffic will now be routed through the 
populated areas of Marquette County.
    <bullet>  Local Units of government are trying to address the 
safety issues created by EPA's lack of regards for people and local 
units of government.
    <bullet>  The following are excerpts from The Mining Journal, the 
local newspaper:

Headline: CR 595 project killed
Date: January 4, 2013
Online location: http://www.miningjournal.net/page/content.detail/id/
583130/CR-595-project-killed.html
Author: John Pepin, Staff Writer

Quotes:

    <bullet>  Road Commission Engineer-Manager Jim Iwanicki said the 
U.S. Environmental Protection Agency's refusal to remove objections to 
the project prevented the DEQ from issuing a permit that had the 
required Federal backing.

        ``It's a shame that the EPA has killed a good project,'' 
        Iwanicki said. ``The EPA's action is going to affect a lot of 
        lives in Marquette County and the road commission believes it 
        will affect them negatively.''

    <bullet>  Iwanicki said the EPA ``stonewalled'' road commission 
efforts to comply with the agency's request in several phone 
conversations held with the road commission, EPA and DEQ in December.

        ``The EPA moved the bar every time we got close,'' Iwanicki 
        said. ``Throughout the whole process, it's been an ever-
        changing target.''

        The road commission responded on Dec. 27 to the EPA's 
        requirements for removing its remaining objections, but 
        Iwanicki said it became clear before Christmas; the Federal 
        agency would not be satisfied.

    <bullet>  Iwanicki said the agency never liked the project from the 
start and for months worked to change expectations and requirements. He 
said Thursday's official finality to the project was expected and was 
``just the bow on the package.''

        ``They played a good game of bureaucratic nonsense,'' Iwanicki 
        said of the EPA.

Headline: City wants joint meeting on truck traffic
Date: March 12, 2013
Online location: http://www.miningjournal.net/page/content.detail/id/
585271/City-wants-joint-meeting-on-truck-traffic.html
Author: Kyle Whiney--Journal Staff Writer

    Quotes:

    <bullet>  In the wake of the Michigan Department of Environmental 
Quality's decision to not permit the proposed Marquette County Road 
595, local groups have been working to determine the route mining 
company Rio Tinto will use to transport ore from its Eagle Mine to the 
Humboldt Mill.

    <bullet>  The city commission also charged its special legal 
counsel with determining how best to communicate with the U.S. 
Environmental Protection Agency concerning Rio Tinto traffic on city 
streets.

        In an August letter to the EPA, the city voiced concerns 
        related to the prospect of mine trucks traveling through 
        Marquette.

        At that time, according to the letter, the city had no plans 
        ``for expanding local infrastructure to support increased heavy 
        truck traffic.'' The alternate route would ``create substantial 
        negative social impacts, as well as drastically undermine 
        decades of transitional economic development and tens of 
        millions of dollars of investment supporting Marquette's 
        current economy.''

Editorial: Finding new truck route worth the effort
Date: March 14, 2013
Online location: http://www.miningjournal.net/page/content.detail/id/
585322/Finding-new-truck-route-worth-the-effort.html
Author: Mining Journal Editorial

Quotes:
    <bullet>  Concerns over the increase in truck traffic from the 
mine, which is expected to begin production in 2014, became more 
significant when a plan to construct a new north-south haul road--
Marquette County Road 595--through the woods from the mine to the mill 
was scrapped.

        Rio Tinto now plans to use its originally intended route, which 
        involves trucking the ore from Eagle Mine on County Road AAA to 
        CR 510, then on CR 510 to CR 550, south on CR 550 to the City 
        of Marquette, then on Wright Street to U.S. 41 and finally west 
        on U.S. 41 to the mill. While we maintain our stance that the 
        CR 595 option was by far the best route, particularly for 
        public safety reasons, it's a good idea to have the county, 
        city and township seriously explore an alternative to driving 
        the trucks through residential areas and on busy roads.
                                 ______
                                 
    Mr. Lamborn. Mr. Iwanicki, thank you for your testimony.
    We will now hear from Ms. Batulis.

 STATEMENT OF RUTHE BATULIS, PRESIDENT, DAKOTA COUNTY REGIONAL 
CHAMBER OF COMMERCE, PRESIDENT, MINNESOTA CONFERENCE OF CHAMBER 
                           EXECUTIVES

    Ms. Batulis. Mr. Chair and Members, thank you for having us 
here today. I want to bring greetings from Minnesota, where 
yesterday it was minus 7 degrees. So we are glad to be here. My 
name is Ruthe Batulis. I represent a statewide association of 
chamber of commerce executives, and I am President of Dakota 
County Regional Chamber of Commerce.
    As you know, business and labor do not always agree. But 
when it comes to job creation, and specifically the jobs that 
come from the mining of strategic metals, we could not agree 
more. You will hear from my friend, Harry Melander next to me, 
from the Building and Trades Association in a minute. We are 
tremendously excited about the Jobs for Minnesotans Coalition, 
and what strategic metal mining can do for the entire State of 
Minnesota and our country.
    You have heard previous testimony about the jobs that are 
created, ancillary jobs that are created from the strategic 
metal mining and the production of materials and entrepreneurs 
that can really drive creation of jobs throughout the State. 
These strategic metals such as nickel and copper are used in 
the green economy in electric cars, wind turbines, and, of 
course smart phones and other high-tech equipment.
    Imagine Minnesota's high-tech manufacturing industry, where 
contractors and suppliers have the opportunity to creatively 
utilize those strategic metals mined right in Minnesota. That 
is on the horizon.
    In Minnesota, we have some of the best schools in the 
country. We know that providing for a good education and a good 
investment isn't cheap. Resources for our schools are 
constantly an issue of public debate and discussion. Our 
schools will gain tremendously from an emerging strategic 
metals industry in Minnesota because royalties generated from 
the projects directly benefit our schools. In Minnesota, these 
royalties from mining go directly into what our lawmakers call 
the School Trust Fund. At this time about $5 million a year 
goes into the Trust Fund. That is $26 for every student. 
Imagine the impact of $2.5 billion going into the school 
district.
    The addition of strategic metal mining in Minnesota will 
add to this existing fund. Businesses and construction unions 
alike need skilled workers. And, as such, the education and 
workforce development issues are paramount. The prospect of 
this kind of investment is thrilling.
    Our members are always seeking ways to make their processes 
more efficient and effective to serve their customers. In fact, 
you are all working together to make the permitting process 
more efficient and effective, and it is a great sign for all of 
us, this renewed commitment and job creation.
    We are blessed in Minnesota that any large-scale projects 
and the jobs that follow come with the equivalent of the Good 
Housekeeping Seal of Approval. Our environmental laws are among 
the most stringent in the world, ensuring that our precious 
waters are protected from the outset through our permitting 
processes. Our citizens can always rest assured that permitting 
projects have undergone responsible and extensive scrutiny by 
the Department of Natural Resources, the Minnesota Pollution 
Control Agency and other State agencies.
    Minnesotans have just recently worked across party lines to 
ensure responsible scrutiny is done in an effective manner that 
allows permit seekers to have certainty and investors to 
continue to seek opportunities in Minnesota and the United 
States.
    I applaud you for all that you do here in Washington, and 
appreciate what you are about to accomplish to foster job 
creation in Minnesota and the United States.
    Thank you for hearing us here today, and I can answer any 
questions that you might have.
    [The prepared statement of Ms. Batulis follows:]
    Prepared Statement of Ruthe Batulis, President of the Minnesota 
                    Conference of Chamber Executives
    Mr. Chairman, Members of the Committee, good morning, my name is 
Ruthe Batulis and I am the President of the Dakota County Regional 
Chamber of Commerce, also in Minnesota. We are a regional chamber of 
commerce in the southeast suburbs of the Twin Cities. We proudly serve 
the cities of Eagan, Farmington, Lilydale, Mendota Heights, Mendota, 
Rosemount, Sunfish Lake, and West St. Paul. And we're proud to 
contribute to the outstanding quality of life our businesses enjoy 
every day. I also currently serve as President of the Minnesota 
Conference of Chamber Executives--the professional association for 
chamber leaders across our State.
    We are also tremendously excited about the Jobs for Minnesotans 
Coalition, and what strategic metals mining means for the entire State 
of Minnesota and the country.
    As you know--business and labor don't always agree, but when it 
comes to job creation, and specifically the jobs that will come with 
the mining of strategic metals in Northern Minnesota, we couldn't agree 
more.
    Minnesota is fortunate to have an abundance of natural resources. 
We are literally ``by nature'' an agricultural state, a timber State 
and a mining State.
    What people don't necessarily think of when it comes to our natural 
resources--and for us what is very exciting--is that thousands of 
associated and spinoff jobs are created as a result of our natural 
resources industry. When the strategic metals mines start producing 
materials, entrepreneurs and workers across Minnesota and throughout 
the Twin Cities will have new opportunities in all kinds of industries. 
These strategic metals are used in electric car batteries, smart 
phones, wind turbines and other high tech equipment. The sky is the 
limit.
    Imagine Minnesota's medical device manufacturing industry, or 
Minnesota's many national defense contractors and suppliers with the 
opportunity to creatively utilize strategic metals mined right here in 
Minnesota. That is on the horizon.
    Furthermore, Minnesota (especially Dakota County) has some of the 
best schools in the country. Providing for schools is a good 
investment, but it isn't cheap! Resources for our schools are 
constantly an issue of public discussion and debate. Our schools will 
gain tremendously from an emerging strategic metals industry in 
Minnesota, because of the royalties generated from the projects that 
directly benefit our schools. In Minnesota, royalties from mining go 
directly into what our law makers call our ``school trust fund.'' The 
addition of Strategic Metals Mining in Minnesota will add to this 
existing fund. Businesses and construction unions alike need skilled 
workers for the future, and as such, education and workforce 
development issues are paramount. The prospect of this kind of new 
investment is thrilling.
    My members are always seeking ways to make their processes more 
efficient and effective to serve their customers. The fact that you are 
all working together to make the permitting process more efficient and 
effective is a wonderful sign to us of a renewed commitment to my 
members and businesses in general.
    We are blessed in Minnesota that any large-scale projects and the 
jobs that follow come with the equivalent of ``Good Housekeeping Seal 
of Approval.'' Our environmental laws are among the most stringent in 
the world, ensuring that our precious waters are protected from the 
outset through our thorough permitting process. Our citizens can always 
rest assured that permitted projects have undergone responsible and 
extensive scrutiny by the Department of Natural Resources, the 
Minnesota Pollution Control Agency and other State agencies.
    As my friend Harry said during his testimony, Minnesotans just 
recently worked across party lines to ensure this responsible scrutiny 
is done in an efficient manner so that permit seekers have certainty 
and investors will continue to seek opportunities in Minnesota and the 
United States.
    I applaud you all for working to do the same here in Washington, 
and appreciate what you are about to accomplish to help foster job 
creation in Minnesota and across the country.
    I am happy to answer any questions you may have.
                                 ______
                                 
    Mr. Lamborn. Thank you for your testimony and for being 
here.
    And we will now hear from Mr. Melander.

STATEMENT OF HARRY MELANDER, PRESIDENT, MINNESOTA BUILDING AND 
                  CONSTRUCTION TRADES COUNCIL

    Mr. Melander. Chair, Committee members, my name is Harry 
Melander, and I work as the President of the Minnesota Building 
and Construction Trades Council, an organization that 
represents over 50,000 unionized workers throughout the State 
of Minnesota, and also the Co-Chair of Jobs for Minnesota, with 
David Olson, the President of the Minnesota Chamber of 
Commerce, and working very closely with Ruthe on this issue.
    David, Ruthe, and I, along with other business, labor, 
local bodies of government, professional associations, and the 
heart and backbone of our State, small businesses, and its 
employers, form this diverse group of Minnesotans to focus on 
jobs, jobs that will be created in the development of strategic 
metals in our State.
    Minnesota has a long history of iron ore mining for well 
over 100 years, and is on the verge of its next generation of 
mining metals. These metals, copper, nickel, and others, are 
used in the production, as indicated earlier, in smart and 
green products that we all use today. These metals will also be 
used in products yet to be designed that will save lives and 
also create new jobs for Northeastern Minnesota that will last 
for generations, revitalizing an industry and its region.
    Minnesota has one of the largest untapped sources of these 
metals in the world. If allowed to move permitting forward, we 
will have the second-largest deposit of nickel, globally. We 
think that is important for our Nation's independence and its 
security.
    Jobs for Minnesota is here today encouraging you and others 
to use what we call ``The Minnesota Model.'' As indicated in 
our written comments, 2 years ago, with a Republican-led House 
and Senate and a Democratic Governor, we were able to create a 
law that limited the time applicants have to get permits. In 
the report submitted to you today, that good work by different 
interests has benefited Minnesota, limiting the time it takes 
to issue permits in our State.
    What you are doing here today will have a positive effect 
on the permitting process on a national level. Members, we can 
no longer look to others for materials that are already 
limited, globally. We believe what Minnesota has done is only a 
start. The work you do today in efficient permitting will make 
our country prosperous and allow us to continue to grow 
technology with an abundant source of metals used in advancing 
technologies around the world.
    You have an opportunity to create and expedite always safe 
means of permitting on our limited resources. Please do not 
lose sight of this opportunity. If we can do it in Minnesota, 
others can do that. Thousands of Minnesotans and others in our 
country are waiting for jobs.
    Thank you. And if there is any questions, I would be more 
than happy to answer those.
    [The prepared statement of Mr. Melander follows:]
Prepared Statement of Harry Melander, President, Minnesota Building and 
                      Construction Trades Council
     Mr. Chairman, Members of the Committee, good morning, my name is 
Harry Melander and I am the President of the Minnesota Building and 
Construction Trades Council. We are the advocate and voice for 
unionized construction workers in Minnesota. Fifty thousand members 
strong, we have provided leadership and advocacy for construction 
workers in Minnesota for 60 years.
    On behalf of my members, I have recently teamed up with David 
Olson, the President of the Minnesota Chamber of Commerce, to form the 
Jobs for Minnesotans Coalition.
    Jobs for Minnesotans is a growing coalition of labor organizations, 
businesses and business associations, middle class workers, local 
governments, educators and other supporters of job creation in the 
State of Minnesota. The initial focus of this diverse coalition is to 
champion the development of critical and strategic metals (copper, 
nickel, platinum, palladium and gold) mining in Minnesota and provide 
information about the direct and ancillary job creation that strategic 
metals mining will produce for the state, once permitted to begin 
operations.

Why this Coalition?

    Minnesota is on the verge of becoming one of the most significant 
producers of strategic metals in the world. Right now, the United 
States has no domestic source of nickel, a key element in many products 
used for our national security. If those seeking permits in Minnesota 
are able to proceed, Minnesota will become the 2nd largest producer of 
nickel globally. This is critically important.
    For my members, a recent University of Minnesota Duluth study shows 
that strategic metals projects could mean the potential for 1,300 jobs 
in Minnesota. A job surge of this magnitude in Minnesota's Iron Range 
would have a significant, lasting impact on our State's, and the 
region's economy. By moving forward to safely extract these minerals 
from one of the world's largest known, untapped deposits in what is 
known as Minnesota's ``Duluth Complex'' means jobs for generations for 
hard working Minnesotans.
    The Minnesota Department of Natural Resources is charged with 
issuing the permits to mine. Just 2 years ago, labor and business, our 
Democratic governor and Republican legislature stood together to pass 
landmark permit efficiency legislation, much like that which you are 
considering here at a Federal level. There was no discussion of who was 
going to get a political win. It was about getting Minnesotans back to 
work; together--and doing it in an environmentally sensitive way.
    In fact, during the last Legislature, streamlining permits in 
Minnesota was House File 1. And Governor Dayton, early in that session, 
issued similar executive orders while the legislature passed this 
landmark legislation which the he then signed into law.
    Both branches of government are actively working together again 
this legislative session to shorten the permitting time. In fact it was 
a key policy point made by Governor Dayton's Chief of Staff at the 
Minnesota Chamber of Commerce's legislative banquet earlier this year.
    My point here is that an efficient permitting process can be 
something that policymakers of all political stripes can and should 
stand together to support. I am enclosing for the record the recent 
February 2013 report by the Minnesota Pollution Control Agency which 
outlines the successes of efficient environmental permitting in 
Minnesota today, due to the laws we passed.
    What you are working on here is a natural extension of what we did, 
working together in Minnesota. On behalf of the 50,000 men and women I 
represent through the Building and Construction Trades Council, and the 
growing coalition I am leading with my State chamber counterpart, I'd 
ask that you too stand together for jobs and pass significant 
permitting efficiency legislation here in Washington.
    I am happy to answer any questions you may have.

Note: The report entitled, ``Environmental Permitting: MPCA's 
Semiannual Permitting Efficiency Report'' Minnesota Pollution Control 
Agency, (February 1, 2013) (http://www.pca.state.mn.us/index.php/view-
document.html?gid=18982) has been retained in the Committee's official 
files. Minnesota Pollution Control Agency, 520 Lafayette Road North, 
Saint Paul, Minnesota 55155-4194. This report is available in 
alternative formats upon request, and online at www.pca.state.mn.us. 
Document number: Irp-gen-10sy13.
                                 ______
                                 

                          JOBS FOR MINNESOTANS

                  Minnesota--Permitting Efficiency Law
    During the 2011-2012 biennium, Democratic Governor Mark Dayton and 
the Republican-controlled Legislature worked on a bi-partisan basis to 
enact the permitting efficiency law. The bills were in response to 
concerns expressed about the overall length and uncertainty associated 
with regulatory processes, including both environmental review and 
permitting.

Minnesota House File 1/Senate File 42 (2011)
Minnesota House File 2095/Senate File 1567 (2012)

    <bullet>  Established a 150-day goal for the Minnesota Pollution 
Control Agency (MPCA) and Minnesota Department of Natural Resources 
(DNR) to issue permits and requires a report on applications not 
meeting that goal.
    <bullet>  Allows a project proposer the option to prepare the draft 
Environmental Impact Statement (EIS), rather than a regulated 
government unit such as a State agency or local government.
    <bullet>  Requires that final decisions on permits be made within 
30 days--rather than 90 days--of the final approval of an EIS.
    <bullet>  Eliminated district court review of environmental review 
decisions and sends all appeals directly to the Court of Appeals.
    <bullet>  Requires that when the MPCA adopts standards that exceed 
federal standards, the MPCA must document that federal standards are 
not protective enough.
    <bullet>  Allows a permit applicant to begin new construction or an 
extension before a national pollutant discharge elimination system 
(NPDES) or State disposal system (SDS) permit is issued by the MPCA, 
unless Federal law prohibits the action.
    <bullet>  Established a permits coordinator required to assist 
permit applicants.
    <bullet>  Allowed DNR permit holders who have a permit or have 
applied for a permit to continue to operate during a suspension of 
government services as long as they abide by all rules and regulations 
in the permit.

    On February 1, 2013 the MPCA released its semiannual report to the 
Legislature. In its findings, the MPCA acknowledged that full 
implementation would take additional time but that they are pleased 
with the overall results. Most notably the MPCA continues issuing more 
than 90 percent of priority (construction) permits within the 150-day 
goal while ensuring the protection of human health and the environment.
    Since the enactment of the Permitting Efficiency Law, the MPCA has 
initiated a number of improvement endeavors:

    <bullet>  Improving communication around permitting metrics through 
the Agency electronic dashboard.
    <bullet>  Standardizing permitting processes across media and 
programs to minimize business and technology system duplication and 
establish a unified agency-approach, where possible, to permit 
delivery.
    <bullet>  Developing new technology tools to improve data 
integration and utilization of data, and system efficiency.

    * The MPCA Report can be accessed here: http://www.pca.state.mn.us/
index.php/view-document.html?gid=18982.
                                 ______
                                 
    Mr. Lamborn. Thank you for your testimony.
    We will now hear from Ms. Krill.

  STATEMENT OF JENNIFER KRILL, EXECUTIVE DIRECTOR, EARTHWORKS

    Ms. Krill. Thank you. Mr. Chairman, Ranking Member Holt, 
and members of the Subcommittee, for giving me the opportunity 
to testify here today. My name is Jennifer Krill, and I am the 
Executive Director of Earthworks. We are a nonprofit 
organization dedicated to protecting communities and the 
environment from the destructive impacts of mineral and energy 
development.
    Earthworks opposes H.R. 761, the National Strategic and 
Critical Minerals Production Act of 2013. The authors and 
advocates of this legislation, the mining industry lobby and 
its champions, would have you believe that mining companies in 
the United States are stifled by the current regulatory system. 
The truth is the mining lobby's vision of a mining-hostile 
United States is, in our view, pure fantasy. Our stable 
democracy, our courts that enforce contracts, and an orderly 
and reliable process for public input in permitting decisions 
make this country one of the best places for mining investment.
    Hard-rock mining companies in the United States also enjoy 
a myriad of subsidies and loopholes that create an extremely 
friendly regulatory environment.
    First, they have the 1872 Mining Law, which was mentioned 
earlier today, a law that allows mining companies, foreign and 
domestic, to take gold, copper, silver, uranium, and any other 
mineral from public lands for free. The Forest Service has 
repeatedly said that because of this antiquated law, they 
cannot deny mine proposals on our National Forests. While 
operating under this 140-year-old law, mining companies are 
also given free reign to pollute our water, thanks to two Clean 
Water Act loopholes that allow mining waste to be dumped 
directly into streams, rivers, lakes, and wetlands. The metals 
mining industry is the single largest source of toxic pollution 
in this country.
    An extremely favorable tax code rounds out the fantastic 
regulatory environment for hard-rock mining. The percentage 
depletion allowance allows a company to deduct a fixed 
percentage from their gross income, which costs taxpayers over 
$500 million per year.
    In the case of minerals mined on public lands, mining 
companies, because of the percentage depletion allowance, 
sometimes get paid by the government to mine minerals that the 
public gave them for free.
    According to the Frasier Institute, a center-right Canadian 
think tank which annually surveys mining companies around the 
world, three U.S. States, Nevada, Utah, and Wyoming, are ranked 
in the top 10 highest jurisdiction for investment, according to 
the opinions of mining company managers and executives from 
around the world.
    Environmental review does not discourage mining investment 
in the United States. We know this because the Frasier survey 
asked that question of these global companies, and the answer 
was no.
    This is not an issue of too many lawyers or regulators. It 
is an economics issue. Mining occurs where minerals are, and 
where the target mineral price makes the process economically 
viable. H.R. 761 is a bill written for a problem that does not 
exist. This legislation would negatively impact the environment 
and our public lands and the communities surrounding them, 
while doing little to give mining companies the social license 
to operate that they often claim that they desire.
    By seriously impairing the public's ability to review and 
provide input on the uses of its lands, this legislation simply 
adds another special favor to an overly blessed industry. What 
we believe is really needed is a concerted mining industry 
effort to work with communities to build more responsible 
mines, to reform outdated policies, and to play by the rules 
with which other industries already profitably comply.
    I would like to take my last minute and turn to H.R. 687, 
the Southeast Arizona Land Exchange and Conservation Act of 
2013. This is a bill that is also opposed by Earthworks. A 
foreign-owned mining company is planning a massive mine in 
southeast Arizona. Because the area is partially protected and 
would be destroyed by the mining process, this company would 
like to privatize 2,600 acres of public lands.
    As you will hear from the Chairman of the San Carlos Apache 
Tribe later today, the Oak Flat Campground, which has been 
protected since 1955 under the Eisenhower Administration, is a 
sacred area to Tribes and is used often for religious purposes. 
In addition to the destruction of this sacred site, this land 
exchange would end public access to some of the most 
spectacular outdoor recreation and wildlife viewing areas in 
Arizona.
    This bill would sacrifice the interests of Arizonans and 
all Americans in order to enrich foreign shareholders. We 
strongly urge you to protect these public lands for future use. 
Thank you.
    [The prepared statement of Ms. Krill follows:]
       Prepared Statement of Jennifer Krill, Executive Director,
                               Earthworks
H.R. 761--``National Strategic and Critical Minerals Production Act of 
        2013''
    Thank you Mr. Chairman for the opportunity to testify before your 
Committee in opposition to H.R. 761, the National Strategic and 
Critical Minerals Production Act of 2013. My name is Jennifer Krill, 
and I am the Executive Director of Earthworks. We are a non-profit 
organization dedicated to protecting communities and the environment 
from the destructive impacts of mineral and energy development. We work 
closely with a broad coalition of local governments, Native Americans, 
citizen groups and other conservation organizations to improve the 
policies governing hardrock mining and oil and gas development.
    The authors and advocates of H.R. 761--the mining industry lobby 
and its champions--would have you believe that mining companies in the 
United States are stifled by the current regulatory system. They 
describe a country where mineral development is stymied by Federal 
rules that divert companies to spend their mineral investment dollars 
elsewhere. But the mining lobby's vision of a mining-hostile United 
States is pure fantasy.
    In reality, hardrock mining companies in the United States enjoy 
subsidies and loopholes that create an extremely friendly regulatory 
environment for them.
    It starts with the 1872 Mining Law--a law that allows mining 
companies, foreign and domestic, to take gold, copper, silver, uranium 
and any critical or strategic minerals from public lands for free, 
without paying a royalty to the taxpayer. Years of case law define 
hardrock mining as the highest and best use of public lands; Federal 
land managers now give hardrock mineral extraction precedence over 
hunting, fishing, sacred sites and all other uses of public lands. The 
Forest Service has repeatedly said that because of this antiquated law, 
they cannot deny mine proposals on our national forests.
    In addition to royalty-free mining, the 1872 Mining Law collects no 
reclamation fee from the industry. The EPA estimates that the clean up 
cost of these hardrock abandoned mine sites is $50 billion--all of 
which is currently being paid for by the taxpayer.
    While operating under this 140-year-old law, mining companies are 
also given free rein to pollute our waters thanks to two Clean Water 
Act loopholes that allow mining waste to be dumped directly into 
streams, rivers, lakes and wetlands. The metals mining industry is the 
single largest source of toxic waste and one of the most 
environmentally destructive industries in the country. In fact, the 
Environmental Protection Agency estimates hardrock mining pollutes 40 
percent of the headwaters of watersheds in the western United States.
    An extremely favorable tax code rounds out the regulatory fantasy 
for hardrock mining companies in the United States. The Percentage 
Depletion Allowance (PDA) permits a company to deduct a fixed 
percentage from their gross income according to the mineral extracted, 
ranging from 22 percent for uranium to 15 percent for silver and other 
hardrock minerals. In some cases this deduction actually exceeds costs. 
The result is a situation where mining companies not only pay virtually 
nothing for the deposit royalty for the public's minerals, but also get 
paid by the government to mine public minerals they were freely given 
under the PDA. This subsidy costs taxpayers over $500 million every 
year.
    This trifecta of an outdated mining law, the ability to dump mine 
waste directly into fresh water and enormous tax breaks for the 
industry makes hardrock mining unique in this country, and renders H.R. 
761 unnecessary and absurd.
    The United States of America is one of the world's best places for 
mining investment. We have stable Democratic institutions, courts that 
enforce contracts, favorable tax and environmental policy, and an 
orderly and reliable process for public input in permitting decisions.
    Just ask the mining companies. According to the Fraser Institute--a 
center-right Canadian think tank who annually survey approximately 700 
mining, exploration, development companies around the world--Nevada, 
Utah, and Wyoming, rank in the top 10 most attractive jurisdictions for 
mineral exploration investment, according to mining company managers 
and executives surveyed.
                           the nevada example
    According to the University of Nevada Reno, more than 80 percent of 
Nevada's surface area is public land managed by the Federal Government 
in trust for all Americans by the Bureau of Land Management and the 
U.S. Forest Service. Consequently, Federal law--and NEPA in 
particular--applies to the vast majority of Nevada.
    As a result, if permitting delays imposed on public lands were so 
burdensome, one would expect that Nevada would be unattractive relative 
to other potential mineral investment destinations.

    The opposite is true.

    Consider again the Fraser Institute survey and its most important 
criteria included in the composition its ``Policy Potential Index'' 
(i.e. policy attractiveness):

        ``The Policy Potential Index is a composite index that measures 
        the effects on exploration of government policies including 
        uncertainty concerning the administration, interpretation, and 
        enforcement of existing regulations; environmental regulations; 
        regulatory duplication and inconsistencies; taxation; 
        uncertainty concerning native land claims and protected areas; 
        infrastructure; socioeconomic agreements; political stability; 
        labor issues; geological database; and security.''

    Note what is absent from that ranking: mineral potential. The 
ranking is based on policies, and things that result from policies, 
alone.
    In the most recent survey (2012-2013 edition), Nevada--in terms of 
the aggregate effect of the various policies that apply to mining 
within the State--is the 7th most attractive mineral investment 
destination in the world. Wyoming, another State known for its 
abundance of public lands, ranks 5th. Utah, another public lands State, 
follows close behind.
    The aforementioned Policy Potential Index includes areas in which 
Nevada would score well but is conceivably not directly attributable to 
regulation (e.g. infrastructure). Do environmental regulation and 
permitting drag down mineral investment in Nevada and the rest of 
public lands in the United States?
    The answer is ``no''. In fact, the Fraser Survey also includes a 
ranking of the relative attractiveness of regions' ``current mineral 
potential with no regulations in place and assuming [only] industry 
best practices''.
    If the claim that existing regulations actually restrict mineral 
investment in Nevada and Federal public lands around the nation were 
true--then one would expect survey participants to find the absence of 
regulations to increase Nevada's mineral investment appeal.
    Instead, the opposite is true. According to the Fraser Survey, when 
mining industry insiders were asked to assume no government regulations 
in a jurisdiction, Nevada's mineral investment attractiveness ranking 
in the 2012-13 survey remains unchanged. In past years, it actually 
dropped.
    Furthermore, the 2012-13 Fraser Survey directly asks survey 
respondents whether a jurisdiction's environmental regulations deter 
investment, encourage investment, or have no effect. 69 percent of 
respondents said environmental rules in Nevada--80 percent of whose 
area is subject to Federal oversight--either encourage mineral 
investment or do not deter it.
    Taken as a whole, the Fraser Survey is a direct refutation for the 
need for this bill. In fact, the only evidence found in the survey 
suggest that existing oversight--including Federal policies like NEPA--
is a relative competitive advantage, not disadvantage.
                    definition of strategic minerals
    The bill broadly defines critical and strategic minerals as those 
that ``support domestic manufacturing, agriculture, housing, 
telecommunications, healthcare, and transportation infrastructure.'' In 
other words, all minerals including gold, the most valuable mineral 
mined in Nevada.
    Gold is particularly inappropriate for designation as a critical or 
strategic mineral for the simple reason that the majority of it in the 
United States--54 percent in 2011 according to the USGS--is used in 
jewelry fabrication. 54 percent is actually quite low in terms of 
jewelry's historic percentage of U.S. gold demand. As recently as 2008, 
it was 84 percent.
    Since jewelry fabrication is neither a critical nor strategic use 
for gold, then no critical or strategic purpose is served by exempting 
its mining from our most basic environmental protections like NEPA 
review.
the importance of public participation, public lands, and environmental 
                               protection
    When the National Environmental Policy Act (NEPA) was enacted in 
1969 by an overwhelming bi-partisan majority and signed by President 
Richard Nixon, the goal of the legislation was to create a process by 
which the environmental impacts of large industrial projects could be 
explored, weighed and eventually mitigated.
    NEPA makes sure that in addition to government and industry input, 
everyday citizens can take part in the development and oversight of 
projects that affect our social, economic, and environmental health. 
The NEPA process provides citizens an opportunity to learn about 
proposed Federal actions and offers agencies an opportunity to receive 
valuable input from the public.
    The average time it takes BLM to permit a large mine is 4 years--
not 10, not even 7. When a particular permit takes longer, the reason 
either has to do with State processes or, more likely, delays created 
by the mining company themselves--sometime for perfectly legitimate 
reasons like changes in market conditions.
    Under current law, agencies must fully evaluate the environmental 
impacts of actions that may significantly affect the environment. 
Though, it is important to point out that the law does not require that 
the decision-making agency choose the most environmentally-friendly 
option, it only requires that they weigh all the options.
    Furthermore, the NEPA process is the public's window on how a 
mining operator plans to comply with environmental law. Without NEPA, 
the public is forced to rely on the mining company, and the permitting 
agency, to verify that mining operator's plan of operations can 
realistically do so.
    While such faith is touching, the facts indicate it is sadly 
unfounded.
    In a unprecedented 2008 research paper commissioned by Earthworks, 
conducted by a member of the National Academies of Science Earth 
Science Board, and reviewed by regulators and industry, mining industry 
promises of environmental compliance for ``major'' mines undergoing 
full NEPA review were compared against what actually happened at the 
mines. The most disappointing finding: 100 percent of mines in the 
study predicted environmental compliance; 75 percent of them did not.
    The only reason we know of industry (and permitting agencies') 
failure to adequately govern mining operations: NEPA review. If not for 
NEPA, citizens would not know how badly the mining industry performs, 
nor be able to use this information to pressure permitting agencies to 
improve its behavior.
    This legislation would run roughshod over the values of 
transparency and public participation that are at the heart of NEPA--
essentially taking public review out of potential uses of our public 
lands.
    While mining on public lands helps stimulate economic activity, 
protection of those lands is also vital to the western economy. Last 
year, over 100 economists including 3 Nobel laureates, sent a letter to 
President Obama stressing the importance of the protection of our 
public lands to our national economy. They said:

    ``The rivers, lakes, canyons, and mountains found on public lands 
serve as a unique and compelling backdrop that has helped to transform 
the western economy from a dependence on resource extractive industries 
to growth from in-migration, tourism, and modern economy sectors such 
as finance, engineering, software development, insurance, and health 
care.''

    They also note, ``increasingly, entrepreneurs are basing their 
business location decisions on the quality of life in an area. 
Businesses are recruiting talented employees by promoting access to 
beautiful, nearby public lands . . . Together with investment in 
education and access to markets, studies have repeatedly shown that 
protected public lands are significant contributors to economic 
growth.''
    Section 103 reprioritizes the entire field of public land and 
environmental law regarding mineral operations, making ``development of 
the mineral resource'' the ``priority of the lead agency.''
    Under current law, the Federal land agencies are subject to a 
variety of congressional mandates that attempt to balance mineral 
production with the protection of human health, water and air quality, 
wildlife, etc. For example, if a mining project may adversely affect a 
threatened or endangered species, then as the Supreme Court has held 
pursuant to the Endangered Species Act, ``Congress intended endangered 
species to be afforded the highest of priorities.'' TVA v. Hill, 437 
U.S. 153 (1978). If the ESA is not applicable, then other congressional 
policies apply, such as the prevention of ``unnecessary or undue 
degradation'' to public land under the Federal Land Policy and 
Management Act of 1976, 43 U.S.C. 1732(b). See Mineral Policy Center v. 
Norton, 292 F.Supp.2d 30, 33 (D.D.C. 2003) (discussing competing 
congressional mandates for mining operations on Interior Department 
lands).
    H.R. 761 essentially eliminates these long-standing congressional 
mandates, and subjects the BLM and Forest Service to a new ``maximize 
mineral development'' standard. Although Section 103 states that the 
agency must ``mitigate environmental impacts,'' that vague language 
does little to protect environmental values in light of the new 
overarching development standard. For example, under current 
environmental law, ``mitigation'' can mean simply ``minimizing 
impacts'' or ``reducing the impact over time.'' 40 CFR 1508.20. Coupled 
with the ``maximize development'' priority, as well as the requirement 
that the agencies ensure that ``more of the mineral resource can be 
brought to the market place,'' an agency's ``mitigation'' authority is 
thus severely curtailed.
                      equal access to justice act
    H.R. 761 also allows regulators to exempt mining projects from the 
Equal Access to Justice Act (EAJA). In many cases, affected communities 
cannot afford to hire a lawyer, much less the litany of scientific and 
technical experts needed to mount a serious challenge to a major 
multinational mining corporation. The practical effect of this 
provision would leave many communities unable to sue for the 
contamination of their lands and waters.
                               conclusion
    In sum, environmental reviews and legal challenges do not 
substantially affect mining investment, employment, or the reserves of 
certain critical minerals. The market has long ago priced in these 
costs and the result is that many of our Western States are among the 
best places for mineral investment and have substantially lower 
unemployment rates than surrounding communities. This is not an issue 
of too many lawyers or regulators; it's an economics issue. Mining 
occurs where the target mineral price makes the process economically 
viable.
    NEPA has been in place for more than 40 years. Federal Government 
agencies and the mining companies they regulate understand the process 
well and value the market certainty NEPA creates and investors crave. 
Dismantling this well-established process could undermine the purported 
purpose of this bill of encouraging investment and securing more 
critical mineral resources.
    The consequences of H.R. 761 would negatively impact the 
environment of publicly owned lands within mining States, and the 
communities surrounding them, while doing little to give mining 
companies the social license to operate that they often claim they 
desire. By seriously impairing the public's ability to review and 
provide input on the uses of its lands, this legislation simply adds 
another special favor to an already overly blessed industry.
    H.R. 761 is a bill in search of a problem that does not exist. What 
is really needed is a concerted mining industry effort to work with 
communities to build more responsible mines, to reform the outdated 
policies that haunt them, and to play by the rules with which other 
industries profitably, comply.
H.R. 687--``Southeast Arizona Land Exchange and Conservation Act of 
        2013''
    On behalf of Earthworks and the thousands of members we represent 
in Arizona and nationwide, we also urge you to oppose H.R. 687 the 
Southeastern Arizona Land Exchange and Conservation Act of 2013 (the 
``land exchange bill'') that would, in part, revoke a mining 
prohibition on 760 acres of public lands in the Tonto National Forest 
in the area of the Oak Flat Campground 60 miles east of Phoenix.
    Resolution Copper Company (RCC), a foreign-owned mining company, is 
planning a massive block-cave mine and seeks to acquire Oak Flat 
Campground and the surrounding public lands through this land exchange 
bill. If they succeed, the campground and an additional 2,300 acres of 
the Tonto National Forest will become private property, forever off 
limits to many recreationists and other users. Privatization of this 
land would end public access to some of the most spectacular outdoor 
recreation and wildlife viewing areas in Arizona. And massive surface 
subsidence will leave a permanent scar on the landscape, eliminating 
the possibility of a diversified economy for the region.
    The Eisenhower Administration recognized the Oak Flat Campground as 
an important recreational resource in 1955, specifically placing it off 
limits to future mining activity. Oak Flat should remain under Federal 
jurisdiction for its continued protection. With tens-of-thousands of 
visitors each year, Oak Flat contains a world-class natural resource 
for birding, bouldering, camping, hiking, hunting, picnicking, rock 
climbing and other recreational uses. On the eastern border lies Gaan 
Canyon, one of the crown jewels of Arizona's State trust lands with 
some of the finest remaining riparian habitat in the State.
    Oak Flat Campground and the surrounding area has long been an 
important cultural site for Western Apaches. The Tonto National Forest 
recognized at least a dozen archeological sites in and around Oak Flat 
and traditional Apache continue to use the Campground area for 
performing religious and cultural rites. Privatizing Oak Flat and 
destroying its surface would forever eliminate Apache traditional 
practices in the area, since they would be unable to access the site.
    Transfer of part of our national forests to a multinational copper 
mining company will almost certainly deplete and contaminate water 
resources and nearby watersheds. Surface water, tributary water, and 
aquifers are located where the copper ore body resides. Excavating this 
ore risks contamination. Many billions of gallons of water are 
necessary to carry migrating slurry to and from the ore body over the 
decades long life of the mine. Altering the surface and subsurface 
geological structure of this area via the impending subsidence will 
forever change the natural state of aquifers and drainage of watersheds 
through out the region.
    Section 4(j) of H.R. 687 provides sham compliance with the National 
Environmental Policy Act of 1969 (NEPA) (42 U.S.C. 4321). This is 
because the environmental impact statement (EIS) occurs only after 
privatizing the land. By that point, the Government loses the 
opportunity to act on reasonable alternatives, and the mine becomes a 
forgone conclusion regardless of the potential impacts the EIS finds.
    In addition, as soon as this bill becomes law, the land becomes 
available for mining activities. Section 4(h) mandates that only laws 
pertaining to mining on private land will apply. The Secretary will 
also issue a special use permit for exploration of Oak Flat within 30 
days of Resolution Copper's request (Section 4(f)). Only after 
Resolution Copper has built mine shafts, adits, tunnels, and tailings 
deposition areas will the Secretary then receive a mine plan of 
operations.
    Finally, this land exchange bill would set a chilling precedent 
allowing for the revocation of similar land withdrawals such as parks, 
recreation areas, and wildlife refuges. Public lands such as Oak Flat 
that are set aside for recreation should remain protected for future 
generations. This land exchange bill would sacrifice the interests of 
Arizonans, and all Americans, to enrich foreign shareholders. It would 
destroy sacred sites for short terms gains. Thirty years from now--when 
the mining jobs once again leave--the region will be much worse off 
because the landscape will be ruined. We strongly urge you to protect 
these public lands for the public's future use and preserve the unique 
opportunities for Arizonans that the Oak Flat area provides.
H.R. 957--American Soda Ash Competitiveness Act
    Earthworks also respectfully opposes H.R. 957, The American Soda 
Ash Competitiveness Act. The experience gained from the last time 
Congress lowered the royalty on soda ash and related sodium minerals 
teaches us that this industry remains competitive regardless of the 
royalty rate. The U.S. Department of Interior's Report to Congress on 
the Soda Ash Royalty Reduction Act of 2006 makes this clear.
    Despite cutting the royalty from a weighted average of 5.6 percent 
to 2 percent, the soda ash industry experienced almost no change in the 
volume of production, leases, or sales. Overall capital investment 
since FY 2006 has fallen. Domestic employment in the soda ash industry 
has similarly dropped since FY 2006. While industry revenues increased 
significantly, the Department of the Interior attributes this to a 
spike in prices coupled with a sharp decline in production costs--due 
to historically low prices of the natural gas used to power these 
operations.
    Instead, this bill amounts to an unnecessary extension of a 
taxpayer giveaway first granted in 2006. Without the royalty reduction, 
DOI estimates States alone would have received $62.1 million more from 
FY 2007-2010. They estimate total lost royalty revenues between FY 
2007-2011 at more than $150 million. Additionally, BLM regulation (43 
CFR 3513) provides an administrative process through which Federal 
sodium lessees may individually seek royalty rate reductions. Creating 
an industry wide reduction only encourages a trend toward shifting soda 
ash extraction from State and private lands to Federal lands just to 
take advantage of the lower royalty. The end result is simply lower 
government revenues, without the benefits of more jobs or greater 
global competitiveness.
                                 ______
                                 
    Mr. Lamborn. Thank you. And thank you all for being here 
and providing testimony. We will now have a round of questions 
for the witnesses from the members of the Committee. And I will 
start by asking a question of Mr. Iwanicki.
    Later today on another panel we are going to hear from BLM 
and others that requiring agencies, including the EPA, to 
better coordinate on NEPA documents and mine permits is 
unnecessary and will somehow hinder their ability to follow 
their multiple-use mandate. How would you respond to that?
    Mr. Iwanicki. I am not quite sure of that question. I know 
for us, with our project with County Road 595, we had all 
private funds that were being used to build this county road. 
And, therefore, we did not have to go through the Federal 
process. And we did follow a lot of those guidelines in doing 
our permit process with our Department of Environmental Quality 
and with the EPA, but we did not follow all the rules of the 
NEPA process through our project.
    Mr. Lamborn. OK, thank you. And I am going to ask a 
question now of Ms. Batulis and Mr. Melander. What advice do 
you have for us in Washington to try and streamline the 
permitting and NEPA processes so it doesn't take 7 to 10 years, 
or even more, to permit a project?
    Mr. Melander. Want to go? Me?
    Ms. Batulis. You go.
    Mr. Melander. Chair, Committee members, a response to that 
question is that I think looking at what the State of 
Minnesota, as indicated in my comments, what we call ``The 
Minnesota Model'' is something to look at. We have a State that 
is beautiful, other than being cold, as Ruthe had indicated, 
and we love our State. But we have opportunities here that we 
need to take advantage of in a safe way. But using the model 
that Minnesota has developed, I think, is a good start.
    Mr. Lamborn. Ms. Batulis?
    Ms. Batulis. I would agree with Harry. What really happened 
in Minnesota was both sides of the aisle worked together to 
find a common ground that would work for everyone. And it was 
about streamlining the process so that we can create jobs. It 
is all about jobs now. And we really saw some extraordinary 
work done across the aisle that we are all very proud of. So 
that would be our suggestion.
    Mr. Lamborn. OK. Thank you. And I would like to note at 
this time that both Michigan and Minnesota--Michigan is 
represented very well by Representative Benishek, who is here 
on the Committee--are home to, in the case of Minnesota, the 
3rd largest producer of non-fuel minerals, and Michigan, the 
10th largest producer of non-fuel minerals in the country. So, 
there are significant deposits of strategic and critical 
minerals.
    Ms. Krill, I would like to ask you a question real quick 
here. Is there any new proposed mine in the United States that 
your organization does approve of?
    Ms. Krill. Our organization approves of mines--I am sorry, 
am I on? Yes.
    Mr. Lamborn. I can hear you.
    Ms. Krill. Our organization would approve of mining that 
has attained the free, prior, and informed consent of 
indigenous communities, that does not pollute waterways or 
allow the dumping of tailings or mine waste into waterways, 
rivers, lakes, streams, and wetlands, that enjoy the community 
support of the local community, that do not impact areas of 
high biodiversity, and follow international labor 
organizational standards for labor organizing.
    At this time, there are some mines that follow some of 
these principles, and others that we would support. We haven't 
found a mine in the United States that follows all of these 
principles that we would support. And we encourage industry and 
are working actively with industry in dialog to identify a way 
that we can move forward.
    Mr. Lamborn. Well, it sounds to me that if there is no new 
mine in this country that you support, that you could be 
accused of opposing for the sake of opposing, that you will 
always find some reason to oppose.
    Ms. Krill. We don't oppose mines, either. In fact, many 
mines we don't take a position on. There are some areas where 
we feel like mining is not an appropriate activity. And in 
those instances we do take a position of opposition.
    Mr. Lamborn. OK. At this point I am going to turn to 
Representative Holt for his questions.
    Dr. Holt. Thank you. Let me begin with just a comment 
following from that last exchange. I would say that the 
standards that Ms. Krill, that you laid out are attainable and 
desirable. And I would hope that all operations, mining and 
otherwise, would work to achieve those.
    Ms. Krill, the Interior Department has stated that H.R. 761 
is, ``drafted in such,'' and this is a quotation, ``drafted in 
such a manner as to cover virtually all hard-rock mining on 
Federal lands.'' Do you believe that a bill that is intended to 
deal with strategic minerals should also be broad enough to 
cover clay, coal, crushed stone, sand, gravel, scrap iron?
    Ms. Krill. No, we do not. We oppose H.R. 761 because, in 
large part, because of how broad it really is. As I said 
earlier, mining companies mine where minerals are. The 
economics of mining in the United States favor the ability of 
mining companies to mine in the United States.
    Dr. Holt. Ms. Batulis, simple question. Could you define 
for us a critical and strategic mineral?
    Ms. Batulis. Copper, nickel.
    Dr. Holt. OK.
    Ms. Batulis. And I think the----
    Dr. Holt. And would you include crushed stone, granite, 
gravel, clay?
    Ms. Batulis. Mr. Chair, Committee members, no.
    Dr. Holt. No? Yes. Mr. Melander?
    Mr. Melander. The same question, sir?
    Dr. Holt. Yes, please.
    Mr. Melander. As indicated by Ruthe, those precious metals. 
And regarding sand and gravel, I would not consider those 
precious metals.
    Dr. Holt. Yes. I think we might have some redrafting to do, 
or some amending here, then.
    Do you include gold and silver in that?
    Mr. Melander. Gold, correct.
    Dr. Holt. OK. Ms. Krill, in a later panel, we will hear 
testimony that the United States is putting itself at a 
competitive disadvantage with other countries, because of 
permitting time. And yet, in your testimony you say that the 
United States is one of the best places in the world for mining 
investment. Which is it?
    Ms. Krill. Well, if Mr. Holt, if you listen----
    Dr. Holt. Would you care to elaborate on the statement that 
you made in your testimony?
    Ms. Krill. Absolutely. If you listen to the opinions of 
mining managers from a global perspective, they do indeed favor 
the United States as a place for mining investment. The BLM 
says that the average time for permitting in the United States 
is 4 years. With various other regulatory conditions, the 
United States is, indeed, considered a favorable place by 
mining investment, worldwide, to mine.
    Dr. Holt. Ms. Krill, in light of the conditions under which 
the Mining Act of 1872 was passed--we were trying to build a 
Nation and expand to fill the western territories--would you 
say that this bill is up to date? In particular, do you think 
at a time that there is so much talk about reducing the deficit 
we should be asking mining companies to pay a royalty rate for 
extracting these minerals?
    Ms. Krill. I----
    Dr. Holt. And should it be comparable to what is done for, 
say, oil and gas?
    Ms. Krill. I absolutely agree that mining companies should 
be paying a royalty rate. Mining companies shouldn't be granted 
access to public lands and public minerals for free. And if 
there is an interest in reforming how mining is done in this 
country, I would suggest we start with reforming the Mining Law 
of 1872.
    Dr. Holt. Yes. The name itself suggests some dated 
characteristic of it.
    [Laughter.]
    Dr. Holt. Just in the few seconds that remain, Ms. Krill, 
do you know whether Western States charge a royalty rate for 
extraction of minerals, different from the Mining Act of 1872, 
different from the Federal----
    Ms. Krill. There are Western States that charge a royalty 
rate for mining. federally, on a national level, we do not.
    Dr. Holt. Well, I think my time has expired. I thank the 
witnesses and I thank the Chair.
    Mr. Lamborn. Thank you. And I would point out to the 
Ranking Member that the Mining Law of 1872 has been amended 
many times over the years. So let's keep up on the amendments.
    And, Ms. Krill, I would like to point out to you that when 
you say that minerals are extracted for free, you are 
neglecting State severance taxes, you are neglecting the taxes 
that are paid by mining companies on a corporate income, taxes 
paid by their employees on personal income, sales tax, property 
tax, and on and on and on.
    OK. We are going to go to our next witness--excuse me, next 
Committee member. I would like to point out that we are missing 
Representative Amodei. Unfortunately, his mother passed away 
earlier this week, so our thoughts and prayers are with him. 
But we will go instead next to Representative Gosar.
    Dr. Gosar. Thank you. I want the record very, very clear. 
Ms. Krill, have you ever endorsed or supported--careful wording 
here--any mining operation in the United States, your 
organization?
    Ms. Krill. Have we ever endorsed----
    Dr. Gosar. Or supported a mining operation in the United 
States.
    Ms. Krill. A single operation.
    Dr. Gosar. Absolutely.
    Ms. Krill. No. We have endorsed and supported principles 
for----
    Dr. Gosar. I am getting at that point. It seems like, I am 
going back with the Chairman's connotation, that no is an 
answer. No is not an answer any more in America. It is how do 
we accomplish this under the protocols.
    Let me ask you the next question. In regards to the United 
States, isn't it a lot about our mineral composition, that we 
are rich with minerals in the United States that so many 
foreign and national mining companies really would like to work 
here, because it is a concentration and plethora of minerals 
that we actually have here? Is that not true, compared to about 
any other continent?
    Ms. Krill. Mining companies do mine where the minerals are.
    Dr. Gosar. So we are very rich, and that is why. So I mean 
we want to make sure we are careful about how we look at those 
things.
    Chairman, for the record, what I would also like to do is, 
put in the record a letter from the Nature Conservancy and this 
is an op ed from the Arizona Republic, as well as a climbing 
recreational group from Queen Creek for the record that support 
this mine.
    Mr. Lamborn. Seeing no objection, so ordered.
    [The information that Dr. Gosar submitted for the record 
has been retained in the Committee's official files:]
    Dr. Gosar. Let me ask you one more question, Ms. Krill. You 
know, has your organization ever been out to the mine?
    Ms. Krill. I am sorry, which mine?
    Dr. Gosar. Resolution Copper in Southeast Arizona.
    Ms. Krill. Yes.
    Dr. Gosar. You have actually toured the mine?
    Ms. Krill. I have not personally, no.
    Dr. Gosar. No, I don't think anybody has toured the mine, 
frankly. I just checked with the company. You have not toured 
the mine, as far as I can understand.
    Let me ask you another question.
    Ms. Krill. I thought you were referring to Oak Flat 
Campground.
    Dr. Gosar. That is the campgrounds.
    Ms. Krill. The site.
    Dr. Gosar. I am looking at the mining site.
    Ms. Krill. OK.
    Dr. Gosar. You know, hands-on are a lot of different 
things. There is being able to see, to dialog about the facts. 
You know, facts are kind of an interesting thing. It is hard to 
argue around facts, because the facts set you free. I know that 
there was an invitation, was there not, from the company to 
come out and review the mine?
    Ms. Krill. I have not received a invitation, but I would be 
happy----
    Dr. Gosar. I think you need to go back in your records to 
do your due diligence to find out that they actually extended 
that, and they were turned away. So I would hope that you would 
go back into your records.
    And I would invite you, like I would invite the Member from 
Arizona who has not been in his tenure, out to the mine. 
Because I think those are the things that answer questions. You 
know, facts set you free. And I think Arizona has been stalwart 
in that aspect in regards to doing this, with all the magical 
features that we have been able to do and to build Arizona.
    And I think that I would leave my questions at that. Thank 
you. I yield back, Mr.----
    Mr. Lamborn. All right, thank you. We will now go to 
Representative Grijalva.
    Mr. Grijalva. Thank you very much. Ms. Krill, a couple of 
quick questions. In reference to the first part of your 
testimony, there was a time prior to President Nixon signing 
the NEPA Act where there was no NEPA, that we can talk--it is 
not about ``what if,'' there was none.
    Consequences of that lack of oversight, transparency, 
public participation, what drove that Congress, that President 
to enact the NEPA Act? What was the situation in terms of not 
just the environment, but communities as well?
    Ms. Krill. That is a very good question, Representative 
Grijalva. I think that the critical thing that NEPA provides to 
communities and to the public is an opportunity to participate 
in a clear and transparent and consistent process. The 
minerals, for example, in mining, which we are discussing, the 
minerals are minerals that belong to the public. And it is very 
important, in our democratic society, that the public has this 
opportunity to comment on and to participate in a process about 
what we do with public minerals.
    Mr. Grijalva. And you mentioned the H.R. 687. H.R. 761 is 
kind of the same process as H.R. 687, only taken to steroid 
quality, in the sense that we would do away with all regulatory 
controls, to do it after the fact, when there is nothing to 
bind, an action or a remedy. Fair or unfair comparison between 
the two bills?
    Ms. Krill. I think that is a fair comparison.
    Mr. Grijalva. I was going to ask Mr. Melander, on all these 
issues, and I think my friend from Arizona has mentioned that 
this is about how you say yes, not just no. And I couldn't 
agree more. But the point is that everything, and you said it 
is about the jobs and it is about creating that kind of a 
sustainability in Minnesota, and everybody is at the table at 
that effort.
    Verification of the job numbers, do you verify them 
yourself? Or, let's say, for instance, we are working off in 
Resolution Copper, the job analysis by the company, themselves, 
and it is a movable target. And so, how do you validate that 
you are making a commitment, whether it is regulatory, whether 
it is government assistance, based on a sole source, 
proprietary source of analysis by the company on job 
production, or do you seek an independent source to verify that 
that is indeed what is going to be there at the end of the day, 
in terms of number of jobs?
    Mr. Melander. Chair, Representative--and that, too, is a 
good question. And one can get in trouble indicating the amount 
of jobs.
    The first part of your question, when we make reference to 
our specific State in regards to the opportunity in 
generational employment, it is done working with our partners 
in trying to get a realistic expectation.
    What we like to do, and we do this consistently, is we talk 
about work hours that will be generated. I mean it is really 
hard to describe, I mean, to really be clear. But when we, 
whether it is, and this has nothing to do with it, but whether 
we are building stadiums or projects, we base it off of work 
hours, because it is a better way to describe the opportunities 
for individuals, at least within our industry.
    Mr. Grijalva. OK. As you generate precious metals, copper, 
gold, and I think, I don't know who stated that those are for 
use and for the industries as they grow here in that country, 
what is a ratio of export versus keeping the product domestic? 
What is the emphasis? For instance, the other legislation, the 
CEO, that said the Resolution Copper mine will help meet this 
need, and the need is that China will build three more cities 
larger than Sydney every year until 2030, and that the major 
stockholder in Rio Tinto, the parent company, is, indeed, 
China.
    And so, we take out our domestic taxpayer resource and ship 
it overseas, no royalties, no payback, no infrastructure, no 
sustainability in that community. Is there a ratio that you 
think is appropriate? Anybody can answer it.
    Mr. Melander. Chair, Representative, by no means were we 
prepared to start to give a statistical or analytical 
information in regards to export and import of these precious 
metals, strategic metals.
    Mr. Grijalva. I appreciate----
    Mr. Melander. We were here today to talk about the 
opportunities that we believe are----
    Mr. Grijalva. You are absolutely right, and it is probably 
an unfair question. If Resolution or Rio Tinto were sitting in 
your seat, they might have an answer. Thank you.
    Dr. Gosar [presiding]. Thank you very much. I would like to 
yield to the gentleman from Michigan, Dr. Benishek.
    Dr. Benishek. Thank you, Mr. Chairman. I want to thank the 
Chairman for holding this important hearing today, and I want 
to also thank Mr. Jim Iwanicki from my district in Northern 
Michigan for coming to Washington to tell us about the 
tremendous obstacles he had in simply building a county road 
through a working forest in the Upper Peninsula, and the 
difficulties he has had with the EPA.
    Mr. Iwanicki, can you tell me some of the most frustrating 
part of dealing with the EPA? And I heard in your testimony 
about the changing goal post, how to deal with them, and they 
seem to change the rules halfway through the process. Can you 
elaborate on that a little bit more?
    Mr. Iwanicki. Well, the EPA was kind of cold to the idea of 
building a county road in this working woods area from the 
start. And it took great effort on our part locally and with 
your help and the help of our Democratic Senators to at least 
get them to listen and evaluate the permit, which we thought 
was a huge deal. And any time we seemed to come to a conclusion 
and thought we had solved their issue, they would come back and 
say, ``Well, that is not really what we meant, we were looking 
for something more like this,'' and that was very evident when 
you took a look a the wetland mitigation process and the 
process that went through the wetland mitigation.
    We first proposed doing some creation of forested wetlands, 
and the EPA said, ``No, we don't like the creation aspect; we 
would like more preservation.'' We then turned around and came 
up with a preservation plan for them, and then they started 
with the issues of, ``Well, we don't like who the land stewards 
are going to be, we don't like the way you have the mineral 
rights in protecting that preservation area and the lack of 
mineral rights for it.'' So again, it was very frustrating.
    Dr. Benishek. Let me ask you a question. How many acres of 
wetlands would need to be mitigated by the construction of the 
road?
    Mr. Iwanicki. It was 25 acres of wetland that needed to be 
mitigated, and we proposed giving them 2.5 square miles of 
land. The wetland being protected was about 25-to-1, I believe, 
in that 2.5 square miles, and that was next to a National 
Forest. And again, so it was very frustrating that they 
wouldn't----
    Dr. Benishek. Now, as I understand it, not only did you 
have to give--was it 2.5 square miles for the 25 acres?
    Mr. Iwanicki. Correct.
    Dr. Benishek. But you also had to have an environmental 
steward of that land in perpetuity. Is that correct?
    Mr. Iwanicki. That is correct. And again, none of the local 
agencies were considered a viable steward for that land.
    Dr. Benishek. This is the Michigan Department of 
Environmental Quality, is that correct?
    Mr. Iwanicki. Well, again, we worked with the Michigan 
Department of Environmental Quality and the State DNR. And the 
State DNR in December agreed that they would be the stewards of 
the land. And when we said that to the EPA, the EPA was not 
sure that the State DNR was an acceptable agency to be the 
steward of this land, and the State DNR addresses all the 
public lands and takes care of all the public lands the State 
owns in the State.
    Dr. Benishek. They are the stewards of all the public lands 
within the State.
    Mr. Iwanicki. Right.
    Dr. Benishek. The State-owned public lands, is that 
correct?
    Mr. Iwanicki. Correct.
    Dr. Benishek. And they have been doing that for hundreds of 
years, is that right?
    Let me ask you another question about this road, because 
this is dear to me. In other words, now I know that this road 
is a 22-mile road which will take the place of a 66-mile road 
going through downtown Marquette that the ore trucks will now 
have to drive through. Can you explain to me, how is that 
better for our local environment, going through the 66 miles?
    Mr. Iwanicki. Again, it isn't. And again, the EPA put the 
animals and the environment in front of all the concerns of 
public safety and safety of our community, in front of all 
those. So, again, it was very frustrating. And you can see from 
all of our public support that we had on the political end of 
things that it was something that the people wanted and 
something that we wanted, as a community.
    Dr. Benishek. Do you think there has ever been the kind of 
requirements of any other county road in the country that you 
are aware of to deal with the requirements this road needed?
    Mr. Iwanicki. I am unaware of any. And again, if these 
requirements are out there for all new road projects, it is a 
good thing our grandfathers and great-grandfathers built a lot 
of the infrastructure here in the United States.
    Dr. Benishek. I think my time has expired. Thank you very 
much, sir.
    Dr. Gosar. I thank the gentleman. Now I would like to go to 
Mr. Lowenthal from California.
    Dr. Lowenthal. Pass.
    Dr. Gosar. You are going to pass? That would be, then, Ms. 
Hanabusa from Hawaii.
    Ms. Hanabusa. Thank you very much, Mr. Chair. My questions 
are directed to Ms. Krill. Ms. Krill, I am talking here about 
H.R. 687. And I just want to know if you are reading the bill 
very similarly to the way I am.
    My first question is really beginning on page 12, and that 
is the environmental compliance section, which if you just read 
it sort of quickly, it seems like NEPA applies. However, if you 
read it, I think carefully, it doesn't kick in until after the 
transfer is made to Resolution Copper. And it is prior to the 
commencing of any production in commercial quantities of any 
valuable minerals. And then it gives 3 years for the Secretary 
to then actually complete a review under Section 102 of NEPA. 
Am I reading that correctly?
    Ms. Krill. I believe you are reading that correctly.
    Ms. Hanabusa. So, as opposed to a situation where before 
the Secretary would even consider doing this transfer, which 
clearly has a lot of environmental implications, and what I am 
concerned about are the cultural aspects of it, as well, the 
EIS is not, and there is no requirement for any review. That is 
correct.
    Ms. Krill. That is my understanding, yes.
    Ms. Hanabusa. OK. Now, the other part of this that I am 
concerned about in reading is the references, of course, to the 
Oak Flat withdrawal area, and Apache Leap. Apache Leap, as I 
understand it, is not directly covered by this potential 
transfer.
    Notwithstanding, the Secretary is told in this bill that 
they can give special use permits to Resolution Copper to 
actually tunnel under the surface of Apache Leap. It says you 
are not supposed to mine under Apache Leap, but you have the 
right to tunnel under Apache Leap. But Apache Leap is outside 
of the area of the transfer. Is that correct?
    Ms. Krill. I believe so, although I would defer to the 
gentleman who will be testifying later from the San Carlos 
Apache Tribe.
    Ms. Hanabusa. I understand that. I just want to know if you 
are reading this bill very similarly to how I am.
    I am also curious about--and the same thing applies, by the 
way, to the Oak Flat area, which is supposed to be withdrawn, 
but you can still tunnel under it, or you can give a permit for 
tunneling under that.
    You do reference in here in your testimony the fact that 
there is a way of the extraction. And I think it is some kind 
of a--let's see, block cave mine.
    Ms. Krill. Yes.
    Ms. Hanabusa. Are you familiar with this methodology enough 
to explain it to me? What does it mean to be a block cave 
mining whatever? Massive block cave mine is what you are saying 
they are intending to do. Can you explain to me what you mean 
by block cave mine, and how you developed that understanding 
that Resolution Copper is going to do this?
    Ms. Krill. I will do my best to explain it in layman's 
terms. I am not a mining engineer, and I have never performed 
block cave mining. What block cave mining is, in my 
understanding, is creating a very large, open space, a cave, to 
extract the ore body with some supports, and then letting the 
supports go, so you have significant surface subsidence into 
the area. It is essentially creating an open pit, and turning 
the surface area into rubble above it.
    Ms. Hanabusa. So it is like extracting whatever minerals or 
whatever that they want underneath, and then, after that, 
letting nature take its course. In other words, you don't fill 
it back up. Is that what you are saying?
    Ms. Krill. Yes.
    Ms. Hanabusa. And evidence of this used in other areas have 
resulted with the ground settling and leaving pits in various 
locations?
    Ms. Krill. Yes. The technique causes severe impacts on the 
surface. It also causes severe impacts to the water table below 
the mine. And this is a area where we are very concerned about 
water, as well.
    Ms. Hanabusa. So though they do not permit this block cave 
mining, it appears, under Apache Leap, which has very major 
cultural significance, as well as Oak Flat, what they are 
permitting, however, is for Resolution Copper to get a permit 
to tunnel under that. We have no idea what it means to tunnel 
under those specific areas.
    Ms. Krill. That is correct. And we are very concerned for 
that reason about the impacts on those areas.
    Ms. Hanabusa. Thank you. I yield back, Mr. Chair.
    Mr. Lamborn [presiding]. OK, thank you. We will now have 
questions from Representative Daines.
    Mr. Daines. Thank you, Mr. Chairman. I am going to yield my 
time to the gentleman from Arizona.
    Dr. Gosar. Thank you very, very much. First of all, I would 
like to address Ms. Hanabusa, just to make sure we understand 
this. In this language, that is why my bill will protect Apache 
Leap beyond the current land management situation. It places 
nearly 100 acres of Apache Leap currently owned by the mining 
company into Federal stewardship. Additionally, as a condition 
of the land exchange, Resolution Copper will surrender its 
right to commercially extract any minerals under Apache Leap.
    Finally, I would like to point out that the company will 
have over a billion dollars of infrastructure located between 
the underground mine and Apache Leap. And, in other words, the 
company would have to destroy a billion--with a B--dollars 
before Apache Leap's structural integrity could be jeopardized. 
Without a doubt, Apache Leap would be protected, more so than 
the current situation, if this legislation is signed into law. 
So, I wanted to make sure we are clear on that.
    Ms. Krill, what size of parcel of land would be too small 
to have a NEPA done? What kind of acreage would we have to do a 
NEPA on?
    Ms. Krill. I am not sure of the answer to that question, 
but I can get back to you.
    Dr. Gosar. Let me ask you a question, then. Let me ask you 
a question. So you are a homeowner, and what you do is you go 
buy a piece of property. Would that homeowner have to have a 
pre-NEPA?
    Ms. Krill. No.
    Dr. Gosar. Why not?
    Ms. Krill. Because I know that is too small.
    Dr. Gosar. Oh. Interesting. So, I mean, it is part of a 
plan.
    Let me ask you the next question. In regards to the mining 
operation, is anything--let me rephrase that--is anything in 
the NEPA process short-cutted with this process?
    Ms. Krill. I am sorry, which process?
    Dr. Gosar. In the process I outline in this bill. They 
cannot go forward, they cannot do anything, without a full NEPA 
going through. Is that true?
    Ms. Krill. My understanding is that is after the land 
transfers.
    Dr. Gosar. Well, I am making a correlation here, yes. But 
the NEPA, I mean, they can't do anything to the land. They are 
just getting a transfer. So they can't do anything on the land 
until the NEPA process goes through. Is that true? There are no 
shortcuts?
    Ms. Krill. [No response.]
    Dr. Gosar. Let me answer it for you. There are no 
shortcuts. There are absolutely no shortcuts. And our next 
witness will validate that, as well.
    This comes back to the facts. We have to deal in facts, 
because the facts set you free. Not scaring people, not fear-
mongering. We have to deal in the facts.
    Let me ask you another question. You know how Arizona was 
founded? Do you know the five areas in which Arizona was 
founded? Its principle--what made Arizona special? It is called 
the five C's: cattle, citrus, climate, cotton, and what would 
be the fifth one?
    Ms. Krill. I believe that would be copper.
    Dr. Gosar. I thank you very, very much. It is called gold-
leaf copper, or leaf copper here. It forms naturally.
    You also made another comment in regards to that mining has 
been the source of the largest pollution in this country. I 
would like to see your facts on that. Because I would like to 
show you a case in point of Rio Tinto and stewardship. This is 
in Wisconsin, very close to Congressman Obey's congressional 
district. This is an open pit mine. I just want to make sure we 
get this straight, too. This is an open pit mine, where we 
actually open a big, large top--OK? It is much more 
conventional in copper. And this is exactly how it was 
mitigated, OK?
    In block mining, what we do is we have a small opening 
where we go down. OK? So you are going deep in the ground. And 
that is where robotics come in, where we hear this problem with 
robotics. Because we want miners' safe, do we not? I would 
really be concerned about mining safety. And so, the robots 
actually go down into the ground and mines this ore and brings 
it back up. Right? Am I right so far?
    Ms. Krill. I am not familiar with that particular mine.
    Dr. Gosar. Well, cave mining, you made a comment here, cave 
mining and open pit mining, very different. And once again, you 
need to make sure you are solidly on the facts, OK? But this 
shows mitigation. And it is wonderful. I mean this is an 
extraction. I think Congressman Obey would tell you this is 
incredible. This is a great company, OK?
    And are you familiar with all their investments and good 
stewardship in Superior?
    Ms. Krill. Am I familiar with Rio Tinto's investments?
    Dr. Gosar. Yes.
    Ms. Krill. No, but I would like to answer your earlier----
    Dr. Gosar. No? Would you also like to know that what they 
did is they actually came in and helped mitigate problems from 
previous mining claims? Now they have been a very good steward 
with us, the City of Superior. They have helped out all over.
    And so, I think, and this is getting back to what the 
Ranking Member and I were talking about back there, that is why 
I asked you the question, ``Have you ever supported a mine 
claim,'' because it is not good enough just to say we take no 
action, it is that you have to start rewarding good behavior 
and proper behavior that you illicitly want to see done.
    Ms. Krill. The source for the statistic about the toxic 
releases of the mining industry is the Toxic Release Inventory, 
which is released annually. The mining industry tops the list 
of industries, as far as toxic releases in the United States.
    Dr. Gosar. I would challenge that, in regards to the waste 
that comes out of urban areas. And so I think what we ought to 
do is go back to the facts and look carefully at what that is 
in mitigation. So I would like to see that answer.
    So, without further ado, I am out of time.
    Mr. Lamborn. OK, thank you. Representative Lowenthal.
    Dr. Lowenthal. Thank you, Mr. Chair. I would like to yield 
my time to Mr. Grijalva.
    Mr. Grijalva. Thank you. Mr. Chairman. One of the things 
that Rio Tinto touts, Ms. Krill, part of the panel was about 
employment, so I won't go back and ask any questions there, 
they tout the fact that they are an automated mine. They are 
the mine of the future. And you get mixed messages.
    You get the message where we did our job and we are going 
to have 1,500 people, and they are going to get paid from 
$40,000 to $100,000, and it will be the greatest boon that ever 
happened to Arizona. But in other statements that the 
executives and CEOs of Rio Tinto make talking about Resolution 
Copper, that it is the mine of the future, and that they will 
be able to reduce employment because of automation, and there 
will be a central place where there will be a minimum amount of 
maintenance work required there. So it kind of runs counter to 
the proposal that this is all about jobs.
    I preface that because I think there is an important point. 
I understand that we have to deal in facts, and I wouldn't like 
anything better than for us to be able to factually deal with 
this question of Resolution Copper. But since all we have is 
the legislation to go by as fact, while I am a trusting person, 
I also like to verify. And part of the verification process has 
to be some independent look at what this mine is going to be.
    Let me ask you one question. Ms. Krill, the Forest Service 
in its testimony said that, ``An environmental review document 
after the exchange would'' and this is talking about Resolution 
``would preclude the U.S. Forest Service from developing a 
reasonable range of alternatives to the proposal and providing 
the public and local and tribal governments with opportunities 
to comment on the proposal.'' As a result, wouldn't the bill, 
as drafted, prevent the Forest Service from properly 
identifying or considering any mitigation measures that may be 
necessary, including the tunnels under Apache Leap and Oak 
Flat?
    Ms. Krill. Yes, it would. Once the land is in private 
hands, then the Forest Service would not have the ability to 
develop alternatives, as they would if it continued to be on 
public lands.
    Mr. Grijalva. Thank you. And as my State that I love very 
much evolves, I try to add an additional C to the five C's, 
conscientious compassion. I hope we get compassion as one of 
the C's down the road.
    Anyway, I yield back, Mr. Chair.
    Mr. Lamborn. OK, thank you. That concludes our questions 
for this panel. I know that those of you from Michigan and 
Minnesota didn't know as much about Arizona issues, but I 
appreciate the testimony that you gave today, all four of you, 
so thank you for your testimony.
    Mr. Melander. Thank you.
    Mr. Iwanicki. Thank you.
    Ms. Batulis. Thank you.
    Ms. Krill. Thank you.
    Mr. Lamborn. We will now go to our third panel, and I would 
like to invite forward Ms. Jamie Connell, BLM Acting Deputy 
Director in the U.S. Department of the Interior, accompanied by 
Larry Meinert, Mineral Resources Program Coordinator for the 
U.S. Geological Survey; and Ms. Mary Wagner, Associate Chief of 
the U.S. Forest Service within the Department of Agriculture.
    Like all of our witnesses, your written testimony will 
appear in full in the hearing record, so I ask that you keep 
your oral statements to 5 minutes, as outlined in our 
invitation letter.
    You have to press the button on the microphone to be heard 
in this room. The timing lights, as I said earlier, start at 5 
minutes, runs down to turn yellow at one minute, and then runs 
out and turns red at 5 minutes.
    Thank you all for being here. And Deputy Director Connell, 
you may begin.

 STATEMENT OF JAMIE E. CONNELL, ACTING DEPUTY DIRECTOR, BUREAU 
      OF LAND MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Connell. Mr. Chairman, Members of the Subcommittee----
    Mr. Lamborn. Pull it a little closer, please. Thank you.
    Ms. Connell. Is that better?
    Mr. Lamborn. Yes.
    Ms. Connell. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity to present testimony today on a 
number of bills on behalf of the Bureau of Land Management. My 
permanent job is as the BLM's Montana-Dakota State Director, 
but I am currently acting in the position of Deputy Director 
for the BLM here in Washington.
    I am accompanied today by Larry Meinert with the USGS. He 
is a Mineral Resource Program Coordinator. He is available to 
answer questions on H.R. 981, the Resource Assessment of Rare 
Earths Act, and USGS-related questions on H.R. 1063, the 
National Strategic and Critical Minerals Policy Act.
    I have submitted testimony for the record on each of the 
bills being presented. I will briefly summarize the 
Administration's position on each of these, and ask that my 
entire statements be made a part of the official record.
    The Administration has several concerns with the complex 
land exchange proposed in H.R. 687, the Southeastern Arizona 
Land Exchange and Conservation Act. Two of the Administration's 
principal concerns with the legislation pertain to the timing 
of NEPA analysis and tribal consultation. In general, the 
Department of the Interior defers to the Forest Service on H.R. 
687, as it relates primarily to Forest Service-managed lands 
and associated valuation issues.
    H.R. 697, the Three Kids Mine Remediation and Reclamation 
Act, provides legislative solutions to the issues surrounding 
the abandoned Three Kids Mine in Henderson, Nevada, and clears 
the way for the area's development. The BLM supports innovative 
proposals to address the clean-up of the Three Kids Mine, and 
we support this proposal to transfer 948 acres of public land 
to the Henderson Redevelopment Agency at fair market value, 
subject to valid existing rights.
    The Department shares the Committee's interest in 
developing rare earth elements and other critical mineral 
resources on our Nation's public lands, consistent with 
environmental protection and public involvement in agency 
decisionmaking. H.R. 761 expedites critical mineral exploration 
and mine permitting on public lands managed by the Departments 
of the Interior and Agriculture. The bill would limit public 
involvement in review of mining proposals and the formulation 
of alternatives, which are vital components of the BLM's 
multiple-use management of the Nation's public lands. As such, 
the Department opposes H.R. 761.
    H.R. 767 expands the scope of the Federal permit 
streamlining project to include all of the field offices within 
the jurisdiction of BLM's Montana-Dakota State office. The BLM 
supports the goal of the bill to better conform the pilot 
office authority to current permitting demands. This 
flexibility would be especially useful for the BLM's North 
Dakota field office in Dickinson, North Dakota, where 
permitting demand has increased substantially in recent years.
    In addition, the BLM would like to work with the sponsor 
and the Committee in clarifying amendments as well as language 
that would provide additional flexibilities nationwide. There 
are many BLM field offices that are not part of the Pilot 
Project, but are receiving hundreds of drilling applications 
per year.
    H.R. 957, the American Soda Ash Competitiveness Act, would 
reinstate for 5 years the royalty rate reduction provided under 
the Soda Ash Royalty Rate Reduction Act of 2006, which expired 
in October of 2011. Because the bill would waive the fair 
market value requirements of the Federal Land Policy and 
Management Act, and the terms of any applicable leases, and for 
the reasons outlined in the Department's 2011 report to 
Congress, the BLM cannot support H.R. 957.
    H.R. 1063 requires the Secretary of the Interior, through 
the BLM and the USGS, to assess the capability of the United 
States to meet the demands for minerals essential to 
manufacturing and competitiveness and economic and national 
security. The Department supports the goals of H.R. 1063. We 
would like to work with the Committee and other affected 
departments to further these goals, while taking into account 
time and resource considerations.
    Finally, H.R. 981 directs the Secretary of the Interior, 
acting through the Director of the USGS, to conduct a global 
assessment of rare earth elements. The Department supports the 
goals of this bill, although we note that the activities called 
for in H.R. 981 are within the scope of the existing Department 
of the Interior authorities.
    Mr. Chairman, thank you for the opportunity to testify 
today, and I would be happy to take any questions.
    [The prepared statement of Ms. Connell follows:]
Prepared Statement of Jamie E. Connell, Acting Deputy Director, Bureau 
          of Land Management, U.S. Department of the Interior
 h.r. 761--national strategic and critical minerals production act and 
     h.r. 1063--national strategic and critical minerals policy act
Introduction
    Thank you for the opportunity to testify for the Department of the 
Interior on two bills pertaining to the development of strategic and 
critical mineral resources on our Nation's public lands: H.R. 761, the 
National Strategic and Critical Minerals Production Act, and H.R. 1063, 
National Strategic and Critical Minerals Policy Act. These bills seek 
to expedite the development of strategic, critical and rare earth 
minerals on public lands managed by the Departments of the Interior and 
of Agriculture. This statement addresses the provisions relevant to the 
Department of the Interior.
    The Department shares the Committee's interest in identifying 
opportunities for increasing efficiencies in the development of rare 
earth elements and other critical mineral resources on our Nation's 
public lands consistent with environmental protection and public 
involvement in agency decision-making. We also encourage finding ways 
to make permitting less complex, costly, and time-consuming. The Bureau 
of Land Management (BLM) would like to work with the Committee to 
further these shared goals.
    The Department has concerns with these two bills. Public 
involvement in review of mining proposals and the formulation of 
alternatives--critical components of BLM's multiple-use management of 
public lands--would be constrained under H.R. 761, and therefore, the 
Department opposes H.R. 761. While the Department supports the goals of 
H.R. 1063, we have concerns and would like to work with the Committee 
to address them. The Department looks forward to continuing a dialogue 
with the Congress on these important matters.
Background
    The BLM administers over 245 million surface acres of public land 
located in the 12 Western States, including Alaska, as well as 700 
million acres of sub-surface mineral estate throughout the Nation. The 
public lands not only produce commodities, but also offer hunting, 
angling, and other recreational opportunities that help provide 
economic stability and growth for local and regional communities. Under 
its multiple-use mandate, BLM is working with local communities, 
tribes, State regulators, industry, and other Federal agencies to 
promote environmentally responsible development of mineral resources on 
Federal and Indian lands with a fair return to the American people.
    The BLM manages mineral development under a number of different 
authorities, including the Federal Land Policy and Management Act, the 
Mineral Leasing Act of 1920, the Materials Act of 1947, and the Mining 
Law of 1872. Each of these authorities, along with BLM regulations and 
guidance, provides a legal framework for the development of minerals.
    Global manufacturing demand for critical mineral commodities, 
including rare earth elements (REE), is on the rise, with increasing 
applications in consumer products such as renewable energy technology, 
computers, automobiles, aircraft, and other advanced technology 
products. While no REE are being mined on public lands at this time, 
some portions of the Federal mineral estate hold potential for REE 
development and deposits are being evaluated in three areas: the Bear 
Lodge Project in northeast Wyoming; the Bokan Mountain/Dotson Zone in 
southeastern Alaska; and potential expansion onto public lands of 
Molycorp's Mountain Pass exploration operations in California.
H.R. 761--National Strategic and Critical Minerals Production Act
    The stated purpose of H.R. 761, the National Strategic and Critical 
Minerals Production Act of 2013, is to increase the flow of critical 
and strategic minerals to the U.S. manufacturing sector by expediting 
the critical mineral exploration and mine permitting process on public 
lands managed by the Departments of the Interior and Agriculture. 
However, H.R. 761 is drafted in such a manner as to cover virtually all 
hard rock mining on Federal lands. H.R. 761 includes numerous 
provisions that circumvent sound Federal decision-making and existing 
law calling for the multiple uses of public lands, including public 
involvement, the application of the National Environmental Policy Act 
(NEPA), the management of permit applications, the review of Federal 
Register notices for such projects, and the handling by the courts of 
civil actions arising from disputes over mine proposals. The bill's 
provisions also could apply retroactively to an application for a 
mineral exploration or mine permit that is pending at the time of the 
bill's enactment, upon the request of the applicant to the lead agency. 
The legislation defines critical and strategic mineral mines as 
``infrastructure projects'' so that they will fall under the March 22, 
2012, Executive order ``Improving Performance of Federal Permitting and 
Review of Infrastructure Projects.''
    While the Department strongly supports the development of rare 
earth elements and other critical minerals, it strongly opposes H.R. 
761. This legislation would remove many of the environmental safeguards 
for almost all types of hardrock mines on public lands, bypass 
evaluation of potential impacts under NEPA, and limit public 
involvement in agency decision-making.
    Additionally, H.R. 761 lacks clarity on a number of issues, 
including how the rights of surface owners in split estate situations 
might be affected in an expedited review process. It is also unclear 
how Section 103, which requires maximizing recoverable resources while 
mitigating environmental impacts, would affect the Department's 
authority under the Federal Land Policy and Management Act to prevent 
``undue and unnecessary degradation of the public lands.'' H.R. 761 
also does not discuss the consequences of missing the 30-month deadline 
on permitting decisions and how State permitting authorities relate to 
this timeline. The provision allowing for retroactive application of 
the bill to permit applications could have the effect of requiring the 
BLM or another agency to abandon in-progress environmental reviews of 
proposed actions.
    Some of the bill's provisions also duplicate actions the BLM has 
already implemented, including the formulation of memoranda of 
understanding among agencies and proponents, the concurrent gathering 
and review of data, and the appointment of project leads who are 
assigned to a project through completion.
    Finally, the Department of the Interior defers to the Department of 
Justice regarding the provisions of H.R. 761 (Title II) pertaining to 
judicial review procedures.
H.R. 1063--National Strategic and Critical Minerals Policy Act
    H.R. 1063 requires the Secretary of the Interior--through the BLM 
and the U.S. Geological Survey--to assess the capability of the United 
States to meet the demands for minerals essential to manufacturing 
competitiveness and economic and national security. It requires the 
Secretary, in consultation with the Secretary of Agriculture, to 
produce a report to Congress within 180 days of enactment that includes 
an inventory of the non-fossil-fuel mineral potential of lands under 
the jurisdiction of the BLM and the U.S. Forest Service. The report 
must identify anticipated mineral requirements for the U.S. 
manufacturing sector, current sources of these minerals, implications 
of shortages, timelines for mineral development projects on public 
lands, and the cost of litigation. In addition, the report must include 
an assessment of the Federal workforce and its ability to meet the 
challenges of the critical minerals issue. The report must also include 
an inventory of rare earth element potential on Federal lands, 
impediments and restrictions to exploration or development, and 
recommendations to reduce such impediments. Finally, the bill directs 
the USGS to conduct national and global assessments of critical mineral 
resources.
    H.R. 1063 requires far-reaching analysis of vast amounts of data 
spanning the jurisdictions of the Departments of the Interior, 
Agriculture, Defense, Commerce, and Justice, as well as the Office of 
Personnel Management. While we share the goals of H.R. 1063, it would 
entail much more than producing a report, likely requiring the 
development and implementation of data tracking systems and an ongoing 
commitment of staff resources to gather, input, analyze, and update the 
data. The administrative time and cost of this work would exceed the 
180 days and $1 million authorized by the legislation. Regarding the 
national and global assessments of critical minerals, we note that 
these activities are already authorized by existing USGS authorities. 
These studies would require substantial resources and, absent 
authorized appropriations, would significantly impact other program 
mission activities.
    We would like to work with the Committee and the other affected 
Departments to further the goals of the bill taking into account time 
and resource considerations. We would also like to work with the 
Committee to provide clarification on some provisions of the bills, 
such as the minerals under consideration and the designation of 
impediments and restrictions.
    Thank you for the opportunity to testify on H.R. 761 and H.R. 1063. 
I will be glad to respond to questions.
     h.r. 687--southeast arizona land exchange and conservation act
    Thank you for the opportunity to present testimony on H.R. 687, the 
Southeast Arizona Land Exchange and Conservation Act. The legislation 
provides for the exchange of a 2,422-acre parcel of U.S. Forest 
Service-managed land to a private company in exchange for a number of 
parcels within the State of Arizona for management by the U.S. Forest 
Service (FS) and the Bureau of Land Management (BLM). Three of the 
private parcels are identified for transfer to the Secretary of the 
Interior.
    In general, the Department of the Interior (DOI) defers to the FS 
on the issues directly related to FS-managed lands and associated 
valuation issues. We believe that the intent of the legislation is to 
facilitate an exchange of land with Resolution Copper Mining, LLC. 
Resolution Copper has indicated its intention to develop a copper mine 
near Superior, Arizona, and wishes to acquire the 2,422-acre FS parcel 
overlying the copper deposit as well as the Federal subsurface rights.
Conveyance of Parcels to the Bureau of Land Management
    H.R. 687 provides for the conveyance of three parcels to the 
Secretary of the Interior to be managed by the BLM. The parcels 
identified are located in Gila, Pinal, and Santa Cruz Counties and 
include:

    <bullet>  3,050 acres along the lower San Pedro River near Mammoth, 
Arizona;
    <bullet>  160 acres within the Dripping Springs area near Kearny, 
Arizona; and
    <bullet>  the 940-acre Appleton Ranch parcel adjacent to the Las 
Cienegas National Conservation Area near Sonoita, Arizona.

    We would note that the maps for these three parcels are 
inaccurately described in the legislation and we would like to work 
with the sponsor and the Committee to correct those descriptions.
    The lower San Pedro parcel is east of the town of Mammoth, Arizona, 
and straddles the San Pedro River. The acquisition of these lands would 
enhance key migratory bird habitat along the San Pedro River. H.R. 687 
provides for the lower San Pedro parcel to be managed as part of the 
BLM's existing San Pedro Riparian National Conservation Area (NCA) 
designated by Public Law 100-696. The lower San Pedro parcel lies along 
the same riparian corridor as the NCA, but it is at least 60 miles 
downstream (north) of the existing NCA and has substantially different 
resource issues and needs. If this parcel is conveyed to the Secretary 
of the Interior and incorporated into the NCA, the Department 
recommends that the existing 80 acres of adjacent BLM-managed public 
land likewise be included within the NCA to facilitate the efficient 
and effective management of this important riparian corridor.
    The legislation also proposes to transfer 160 acres in the Dripping 
Springs area near Kearny, Arizona, to the Secretary of the Interior. 
This private parcel is an inholding within a larger block of public 
lands and has important resource values, including sensitive Desert 
Tortoise habitat.
    Finally, the bill provides for the transfer of the 940-acre 
Appleton Ranch parcel to the Secretary of the Interior. This parcel is 
located on the southern end of the BLM's Las Cienegas NCA. These lands 
lie within the ``Sonoita Valley Acquisition Planning District'' 
established by Public Law 106-538, which designated the Las Cienegas 
NCA. That law directs the Department to acquire lands from willing 
sellers within the planning district for inclusion in the NCA to 
further protect the important resource values for which the Las 
Cienegas NCA was designated. These lands are part of a significant 
wildlife corridor. The acquisition of these lands advances important 
conservation goals associated with this unique and special natural 
resource.
General Concerns
    The Administration has several concerns with the Southeast Arizona 
Land Exchange and Conservation Act and cannot support H.R. 687 as 
written. Two of the Administration's principal concerns with the 
legislation pertain to the timing of NEPA analysis and tribal 
consultation.
    H.R. 687 requires the Forest Service to prepare an environmental 
review document under the National Environmental Policy Act (NEPA) 
after the land exchange is completed rather than in advance of the 
exchange. It is this Administration's policy that NEPA be fully 
complied with to address all Federal agency actions and decisions, 
including those necessary to implement congressional direction.
    In addition, increasing and improving tribal consultation with 
Indian tribes by all Federal agencies is a key accomplishment of this 
Administration, and concerns have been raised by Indian tribes 
nationwide that the legislation is contrary to laws and policies and 
Executive orders that direct Federal land management agencies to engage 
in meaningful government-to-government consultation with interested 
Indian tribes, and to protect and preserve sites sacred to Native 
Americans. This consultation framework includes, including the recent 
Memorandum of Understanding among the Departments of Defense, Interior, 
Agriculture, Energy and the Advisory Council of Historic Preservation 
Regarding Interagency Coordination and Collaboration for the Protection 
of Indian Sacred Sites, which was signed on December 4, 2012.
    Many of the lands to be exchanged in this legislation hold 
significant cultural value to Indian tribes. In particular, the Apache 
Leap area, the Oak Flat Campground, and Devil's Canyon are culturally 
significant to the San Carlos Apache Tribe and the Fort McDowell 
Yavapai Nation. For the San Carlos Apaches, and the Yavapai, this area 
is a place of ancient settlements and burial sites. Tribal members 
still go to these areas to pray, conduct ceremonies, and gather 
medicines and ceremonial items.
    The Administration is concerned that any consultations under H.R. 
687 would not be meaningful under Executive Order 13175, ``Consultation 
and Coordination with Indian Tribal Governments,'' because the 
legislation limits the Secretary of Agriculture's discretion regarding 
the land exchange. Engaging in government-to-government consultation 
prior to the Secretary of Agriculture's public interest determination 
would better allow for meaningful consultation and coordination with 
interested tribes.
    Section 4(i) of H.R. 687 expresses the intent of Congress that the 
exchange be completed within 1 year. Based on our experience with 
exchanges, we believe the amount of time provided in H.R. 687 is 
insufficient to review and finalize the necessary environmental 
documents, mineral report, and appraisals, as well as to conduct the 
final verification and prepare title documents. We are also concerned 
that 1 year may not be sufficient to complete analysis of any historic 
and sacred sites in the exchange area as required by the Native 
American Graves Protection Act and the National Historic Preservation 
Act.
    Preparation of a mineral report is a crucial first step toward an 
appraisal of the Federal parcel because the report provides important 
information about the Federal mineral deposit. The bill does not 
address access to confidential exploration and development data and 
company analyses on the mineral deposits underlying the Federal land in 
order to ensure a timely and accurate appraisal. Such information is 
essential for the mineral report, particularly in the context of this 
exchange, because of the size of the proposed mining operation and the 
proposed mining technique.
    Section 6 of H.R. 687 provides for an annual value adjustment 
payment to the United States if the cumulative production of locatable 
minerals exceeds the projected production used in the appraisal 
required by section 4. This provision recognizes that an accurate 
projection of future production as part of the appraisal process will 
be difficult to develop, and provides a mechanism for additional 
payments to the United States if the actual production exceeds the 
projected production. The Department generally defers to the FS on the 
specific provisions of section 6 of the bill. However, we note that 
this section creates a new fund in the U.S. Treasury for the deposit of 
these value adjustment payments. The Department believes that these 
funds should be dedicated to Federal land acquisition in the same 
manner as the initial land equalization payments provided for in 
section 4(e)(2)(C) of the bill. Because these funds are to compensate 
for a possible initial inadvertent under-appraisal of land values, it 
is appropriate that the value when captured be used in the same manner 
as if it had been included in the initial appraisal.
    Finally, there are a number of issues of a more technical nature, 
including appropriate map references, which we would welcome the 
opportunity to discuss as this legislation moves forward.
Conclusion
    Thank you for the opportunity to testify. The exchange proposed in 
H.R. 687 is complex. The Departments of Agriculture and of the Interior 
seek to assure that the Federal Government's interest is appropriately 
protected in any final legislation and tribal interests are considered.
       h.r. 697--three kids mine remediation and reclamation act
Introduction
    Thank you for the opportunity to testify on H.R. 697, the Three 
Kids Mine Remediation and Reclamation Act. During the past 5 years, the 
Bureau of Land Management (BLM) has worked with Nevada governmental 
entities in search of administrative remedies to the problems posed by 
the abandoned Three Kids Mine, in Henderson, Nevada. The BLM supports 
H.R. 697, which provides legislative solutions to the issues 
surrounding the Three Kids Mine area and clears the way for its 
eventual development.
Background
    The Three Kids Mine is an abandoned manganese mine and mill site 
located along the south side of Lake Mead Drive, across the highway 
from Lake Las Vegas, in Henderson, Nevada. The mine and mill operated 
from 1917 through 1961 on 314 acres of private land, in part providing 
steel-strengthening manganese to the defense industry and contributing 
to the United States' efforts in World War I and II. Federal manganese 
reserves were stored in the area from the late 1950s through 2003.
    H.R. 697 would direct that 948 acres of the public lands adjacent 
to the private site be conveyed to the Henderson Redevelopment Agency, 
bringing the total size of the project area to 1,262 acres. Of the 948 
acres of public lands, 146 acres are contaminated and will require mine 
reclamation and environmental remediation. The most severe 
contamination appears to be on the 314 private acres where the mine and 
mill were located. No viable former operator or responsible party has 
been identified to remediate and reclaim the abandoned mine and mill 
site. Today, the site's deep open pits, large volumes of mine 
overburden and tailings, mill facility ruins, and solid waste disposal 
areas pose significant risks to public health, safety and the 
environment. The Nevada Division of Environmental Protection (NDEP) 
identified the Three Kids Mine site as a high priority for the 
implementation of a comprehensive environmental investigation, 
remediation, and reclamation program.
    Representatives of the BLM, the Bureau of Reclamation, and the 
Department of the Interior Solicitor's Office have worked with the City 
of Henderson and representatives of developer Lakemoor Canyon, LLC, to 
find solutions to the complex challenges this site presents. 
Discussions have focused on overlapping Federal agency jurisdictions, 
land management designations and other resource issues, Resource 
Management Plan amendments, future liability, and an important utility 
corridor that traverses the site.
H.R. 697
    H.R. 697 would designate the combined 314 acres of private land and 
948 acres of public land as the 1,262-acre ``Three Kids Mine Project 
Site'' and provide for the conveyance of the public lands to the 
Henderson Redevelopment Agency. The legislation also provides that fair 
market value for the Federal lands to be conveyed should be determined 
through standard appraisal practices, and that, subsequent to that 
determination, the Secretary should determine the ``reasonable 
approximate estimation of the costs to assess, remediate, and reclaim 
the Three Kids Mine Project Site.'' That cost would then be deducted 
from the fair market value of the public land to be conveyed. The 
Henderson Redevelopment Agency would pay the adjusted fair market value 
of the conveyed land, if any, and the Federal Government would be 
released from ``any and all liabilities or claims of any kind arising 
from the presence, release, or threat of release of any hazardous 
substance, pollutant, contaminant, petroleum product (or derivative of 
a petroleum product of any kind), solid waste, mine materials or mining 
related features'' at the site in existence on or before the date of 
the conveyance.
    While the BLM has not established a range for the cost of cleanup, 
a proponent of the transaction, Lakemoor Canyon, LLC, estimates the 
cost of remediating the public and private lands at between $300 
million and $1.3 billion. While it is possible that the cost of 
remediating and reclaiming the entire project area might exceed the 
fair market value of the Federal land to be conveyed, the cost of the 
transaction will only be known after the Secretary completes the 
appraisal and remediation cost estimate process as outlined in the 
legislation.
    The BLM supports innovative proposals to address the cleanup of the 
Three Kids Mine, and we support this proposal to transfer the entire 
948 acres of public land to the Henderson Redevelopment Agency at fair 
market value, subject to valid existing rights. However, the BLM 
recognizes that the transfer would include a small portion of the River 
Mountains ACEC, and we would like to discuss with the committee 
opportunities to mitigate that loss.
Conclusion
    Thank you for inviting the Administration to testify on H.R. 697. 
The Three Kids Mine problem needs to be resolved, and we look forward 
to working toward a solution that protects the environment and serves 
the public interest. I would be happy to answer your questions.
              h.r. 767--oil and gas pilot project offices
Introduction
    Thank you for the opportunity to testify on H.R. 767, which would 
amend the Energy Policy Act of 2005 to modify the Federal Permit 
Streamlining Pilot Project. The bill would expand the Federal Permit 
Streamlining Pilot Project to include all of the field offices within 
the jurisdiction of the BLM's Montana/Dakotas State Office. The BLM 
supports the goal of H.R. 767 to better conform the pilot office 
authority to current permitting demands. However, the BLM would like to 
work with the sponsor and the Committee on clarifying amendments as 
well as language that would provide additional flexibilities nationwide 
to utilize the pilot office authority to respond as permitting demands 
shift over time.
Background
    Section 365 of the Energy Policy Act of 2005 established the 
Federal Permit Streamlining Pilot Project with the intent to improve 
the efficiency of processing oil and gas use authorizations and 
environmental stewardship on Federal lands. It designated seven pilot 
project offices: Miles City, Montana; Buffalo and Rawlins, Wyoming; 
Vernal, Utah; Grand Junction/Glenwood Springs, Colorado; and Farmington 
and Carlsbad, New Mexico.
    Section 365 also established the Permit Processing Improvement 
Fund, an account of approximately $18 million annually, to support the 
pilot project for 10 years. Specifically, it directed 50 percent of the 
income derived from Federal onshore oil and gas lease rental payments 
outside of Alaska to the Fund. For FY 2006 through FY 2015, the section 
made the Fund available to the Secretary of the Interior for 
expenditure without further appropriation to enhance coordination and 
processing of oil and gas use authorizations on Federal land under the 
jurisdiction of the designated pilot project offices.
    In addition to the BLM, Section 365 authorized the Secretary to 
transfer monies from the Permit Processing Improvement Fund as 
necessary to the Fish and Wildlife Service, the Bureau of Indian 
Affairs, the Forest Service, the Environmental Protection Agency, the 
Army Corps of Engineers, and the States of Wyoming, Montana, Colorado, 
Utah, and New Mexico. It also prohibited the BLM from establishing cost 
recovery fees for processing applications for oil and gas permits to 
drill. The President's 2013 budget proposed to repeal this fee 
prohibition. In lieu of the budget proposal, we note that the Congress 
has implemented permit fees through appropriations language for the 
last several years.
    The agencies involved in the pilot project have made significant 
progress in a number of areas. Additional resources, such as personnel 
devoted to processing oil and gas use authorizations, have enabled the 
various bureaus and agencies to increase the pace of permitting and 
completing environmental reviews, particularly given the complex 
resource issues we face. The time taken for interagency consultations 
has been reduced due to improved communication and through programmatic 
streamlining efforts, which have been used in multiple projects and 
permits.
    Also, the BLM has increased inspection and enforcement capability 
as a result of the hiring of additional skilled specialists in the 
pilot project offices. The increase in inspections has led to better 
compliance by the industry and a reduction in major violations due to 
the increased number of inspectors in the field. Increasing the number 
of inspectors has allowed the BLM to identify issues early; intervene 
in nascent violation situations; and improve interim reclamation work 
on lands disturbed by oil and gas operations. The pilot project offices 
are also better staffed to help new industry permitting specialists 
understand the BLM's requirements for obtaining an oil and gas use 
authorization.
H.R. 767
    H.R. 767 would substitute the BLM's Montana/Dakotas State Office 
for the current pilot project office in Miles City, Montana, with the 
goal of broadening the geographic scope of the pilot project authority. 
This broadened geographic scope would allow BLM to better allocate some 
resources based on current permitting demands and new exploration and 
development of oil and gas fields and plays. For example, this 
flexibility would be especially useful for processing permits received 
in the North Dakota Field Office in Dickinson, North Dakota, which 
received 701 applications for permits to drill (APDs) in FY 2012, 
compared to 147 APDs received in FY 2009.
    In addition, the BLM would like to work with the sponsor and the 
Committee on language that would allow greater flexibilities nationwide 
to adjust permitting resources based on demand. There are many BLM 
field offices that are not part of the pilot project, but are receiving 
hundreds of APDs per year. Of the 10 field offices that received the 
most APDs during FY 2012, only 5 are currently designated as pilot 
project offices. For example, in FY 2012, the Pinedale Field Office in 
Pinedale, Wyoming, received 325 APDs; the Bakersfield Field Office in 
Bakersfield, California, received 286 APDs; and the Oklahoma Field 
Office in Tulsa, Oklahoma, received 157 APDs. Although these offices 
have received high volumes of APDs, none are currently designated as 
pilot project offices, and none would be designated as such under the 
bill. At the same time, some of the currently designated pilot project 
offices have received relatively few APDs in recent years; for example, 
the Grand Junction Field Office received only 47 APDs in FY 2012.
Conclusion
    Thank you for the opportunity to provide testimony on H.R. 767. I 
would be happy to answer any questions you may have.
            h.r. 957--american soda ash competitiveness act
Introduction
    Thank you for the opportunity to testify on H.R. 957, the American 
Soda Ash Competitiveness Act. This bill would reinstate for five years 
the royalty rate reduction provided for under the Soda Ash Royalty Rate 
Reduction Act of 2006, which expired in October 2011. The BLM cannot 
support H.R. 957.
Background
    Soda ash is one of several products derived from sodium minerals 
mined on public lands and is used in many common products, including 
glass, pulp, detergents, and baking soda. The mineral trona is a 
naturally occurring mixture of sodium carbonate, sodium bicarbonate, 
and water. Soda ash may be either natural or synthetic. It can be 
extracted from mined natural trona deposits, or it can be manufactured 
synthetically. Synthetic soda ash production began in this country in 
the 1880s and increased as the demand for soda ash increased. In the 
early 1950s, the modern natural soda ash industry began in the Green 
River Basin of Wyoming, home of the world's largest known natural 
deposit of trona, where soda ash, or ``sodium carbonate,'' is refined 
from trona mined at depths of between 800 and 1,600 feet below the 
surface.
    In 2012, the U.S. soda ash industry consisted of five companies 
that mine and mill soda ash, four of which operate five plants in 
Wyoming. One company in California produces soda ash from sodium-
carbonate rich brines. At the end of FY 2012, there were 86 Federal 
sodium leases covering 111,185 acres in Wyoming, California, Colorado, 
Arizona, and New Mexico. Sixty-three of these Federal sodium leases 
were located in Wyoming. The soda ash industry is a substantial 
contributor to the gross domestic product of the United States, with 
the total value of domestic soda ash produced in 2012 being about $1.6 
billion and the industry supplying over 2,200 direct jobs. Soda ash is 
also a key ingredient in many diversified products, including flat 
glass used by the automobile and construction industries.
Soda Ash Royalty Rate Reduction Act
    In 2006, Congress passed the Soda Ash Royalty Rate Reduction Act 
(2006 Act), which reduced the Federal royalty rate for soda ash to 2 
percent. Before the 2006 Act went into effect, the BLM was charging 
royalty rates of 6 and 8 percent. The BLM established these rates based 
on a 1996 study to examine the fair market value in the sodium industry 
in Wyoming. The study reviewed many comparable State and private leases 
and found that fair market value in Wyoming appeared to be somewhat 
higher than the 5 percent being charged by the BLM previously. As a 
result of the study, the BLM determined that the royalty rate for all 
then-existing leases would be increased from 5 to 6 percent at the 
lease renewal date. The BLM, based on the study, also determined that 
the royalty rate on all new leases would be 8 percent. In the Green 
River Basin at that time, the royalty rate on most private land was 8 
percent and 5 percent on State lands.
Report to Congress
    As mandated by the 2006 Act, the BLM reported to Congress in the 
fall of 2011 on the impact of the reduction over the previous 5 years, 
in the ``U.S. Department of the Interior Report to Congress: The Soda 
Ash Royalty Reduction Act of 2006.'' The report found that the 2006 Act 
resulted in a substantial loss of royalty revenues to the Federal 
Government and the States which exceeded congressional estimates at the 
time of enactment. It also stated that the royalty rate reduction did 
not appear to have contributed in a significant way to the creation of 
new jobs within the industry, to increased exports, or to a notable 
increase in capital expenditures to enhance production. Furthermore, 
the report found that the royalty rate reduction appeared to have 
influenced a shift of production away from State leases and private 
lands and onto Federal leases, and that, with regard to global 
competitiveness, U.S. production remained stable.
H.R. 957
    H.R. 957 would reinstate for 5 years the 2 percent royalty rate for 
soda ash which expired in October 2011. Specifically, the bill would 
apply an across-the-board reduction in the royalty rate on soda ash 
leases from an average of 5.6 percent to 2 percent. In FY 2012, the 
soda ash industry paid over $47 million in royalty for production from 
Federal lands. If the royalty rate had been reduced to 2 percent during 
FY 2012, the royalty revenue for that year would have been 
approximately $17 million, a reduction of about $30 million. 
Furthermore, the bill could be subject to the Statutory Pay-As-You-Go 
Act of 2010.
    H.R. 957 would waive the requirements of section 102(a)(9) of the 
Federal Land Policy Management Act of 1976 (FLPMA) and the terms of any 
applicable leases. Section 102(a)(9) of FLPMA states that it is the 
policy of the United States to receive fair market value for the use of 
public lands and their resources unless otherwise provided by statute. 
For these reasons and for the reasons outlined in the Department's 2011 
report, the BLM cannot support H.R. 957.
Conclusion
    Thank you for the opportunity to provide testimony on H.R. 957. I 
would be happy to answer any questions you may have.
        h.r. 981--resource assessment of rare earths act of 2013
    Thank you for the opportunity to present the Department of the 
Interior's views on H.R. 981, directing the Secretary of the Interior, 
acting through the Director of the U.S. Geological Survey (USGS), to 
conduct a global assessment of rare earth element resources. The 
Department supports the goals of this bill, although we note that the 
activities called for in H.R. 981 are within the scope of existing 
Department of the Interior authorities.
    The USGS is responsible for conducting research and collecting data 
on a wide variety of fuel and nonfuel mineral resources, including rare 
earth elements (REE). For nonfuel minerals, research is conducted to 
understand the geologic processes of concentrated known mineral 
resources at specific localities in the Earth's crust and to estimate 
(or assess) quantities, qualities, and areas of undiscovered mineral 
resources, or potential future supply. USGS scientists also conduct 
research on the interactions of mineral resources with the environment, 
both natural and as a result of resource extraction, to better predict 
the degree of impact that resource development may have on human and 
ecosystem health. USGS mineral commodity specialists collect, analyze, 
and disseminate data and information that document current production 
and consumption for about 100 mineral commodities, both domestically 
and internationally for 180 countries. This full spectrum of mineral 
resource science allows for a comprehensive understanding of the 
complete life cycle of mineral resources and materials--resource 
formation, discovery, production, consumption, use, recycling, and 
reuse--and allows for an understanding of environmental issues of 
concern throughout the life cycle.
    Global demand for critical mineral commodities is on the rise with 
increasing applications in consumer products, computers, automobiles, 
aircraft, and other advanced technology products. Much of this demand 
growth is driven by new technologies that increase energy efficiency 
and decrease reliance on fossil fuels. In 2010, the USGS completed an 
inventory of known domestic rare-earth reserves and resources (Long and 
others, 2010). The report documents 28 deposits and includes 
information on the location, exploration status, past production, and 
estimated resources. The report also includes an overview of known 
global rare-earth resources and discusses the reliability of 
alternative foreign sources of rare earths. Known U.S. deposits of REE 
comprise about 13 percent of the global reserve of REE and are located 
on a mix of public (BLM and USFS) and private lands in 14 States. The 
primary U.S. source for REE is the Mountain Pass mine in California, 
operated by Molycorp Minerals, a Colorado-based company. Advanced 
exploration projects for new REE deposits are underway at Bokan 
Mountain, AK and Bear Lodge, WY. In 2011, USGS released two additional 
REE reports, ``China's Rare-Earth Industry'' (Tse, 2011) and ``Rare 
Earth Elements--End Use and Recyclability'' (Goonan, 2011).
    The logical next steps are to (1) update a global inventory of rare 
earth resources published by the USGS in 2002 (Orris and Grauch, 2002), 
(2) review principal REE deposits outside of China and evaluate their 
geologic, economic, and development potential, and (3) conduct a 
comprehensive assessment of undiscovered REE resources. H.R. 981, the 
RARE Act of 2013, outlines a reasonable approach to properly assess the 
global endowment of REE resources, to identify potential future 
supplies of REE resources, and to better understand future potential 
sources of REE needed for United States industry.
    The USGS maintains a workforce of geoscientists (geologists, 
geochemist, geophysicists, and resource specialists) with expertise in 
critical minerals and materials, including REE. The USGS continuously 
collects, analyzes, and disseminates data and information on domestic 
and global REE reserves and resources, production, consumption, and 
use. This information is published annually in the USGS Mineral 
Commodity Summaries (USGS, 2013) and includes a description of current 
events, trends, and issues related to REE supply and demand.
    The USGS stands ready to fulfill its role as the sole Federal 
provider of unbiased mineral resource research on known REE resources, 
assessment of undiscovered REE resources, and information on domestic 
and global production and consumption of REE resources for use in 
global REE supply chain analysis. We note, however, that the activities 
called for in H.R. 981 are already authorized by existing authorities. 
Any study conducted to fulfill the objectives of the bill will require 
substantial resources that, without additional support, would 
significantly impact other program mission activities.
    Thank you for the opportunity to present the views of the 
Department on H.R. 981.

References Cited

    Goonan, T.G., 2011, Rare earth elements--End use and recyclability: 
U.S. Geological Survey Scientific Investigations Report 2011-5094, 15 
p., available only at 
http://pubs.usgs.gov/sir/2011/5094/.
    Long, K.R., Van Gosen, B.S., Foley, N.K., and Cordier, Daniel, 
2010, The principal rare earth elements deposits of the United States--
A summary of domestic deposits and a global perspective: U.S. 
Geological Survey Scientific Investigations Report 2010-5220, 96 p. 
Available at http://pubs.usgs.gov/sir/2010/5220/.
    Orris, G.J., and Rauch, R.I., 2002, Rare earth element mines, 
deposits, and occurrences: U.S. Geological Survey Open-File Report 
2002-0189, 174 p. Available at http://pubs.usgs.gov/of/2002/of02-189/.
    Tse, Pui-Kwan. (2011) China's Rare-Earth Industry. U.S. Geological 
Survey Open-File Report 2011-2042.
    USGS, 2013, Mineral Commodity Summaries 2013, p. 128-129
                                 ______
                                 
         Questions Submitted for the Record to Jamie E. Connell
Questions Submitted for the Record by The Honorable Grace F. Napolitano
    Question. Can you clarify how many acre-feet of water will be 
utilized in the mining process to cool the drill? It is my 
understanding it would be about 40,000 acre-feet. of water. My concern 
is the current drought condition of the City of Superior and 
surrounding area.
    Answer. The Department of the Interior does not have this 
information.
    Question. Are there current environmental studies in process or 
have any been completed on the examination of the land prior to the 
exchange into private ownership?
    Answer. The Department of the Interior defers to the Forest Service 
on issues directly related to the transfer of Forest Service-managed 
lands and associated valuation issues.
    Question. Wouldn't the normal process of requesting an 
environmental study be the first step? H.R. 687 waives compliance with 
NEPA prior to the exchange, meaning that the Forest Service or the 
public will never have access to information documenting the potential 
environmental impacts of a large copper mining operation in the area.
    Answer. It is the Administration's policy that NEPA be fully 
complied with to address all Federal actions and decisions prior to the 
exchange.
                                 ______
                                 
  Question Submitted for the Record by The Honorable Kevin Cramer, a 
        Representative in Congress for the State of North Dakota
    Question. Ms. Connell, on page 2, 2nd paragraph of your March 21, 
2013, pre-filed testimony, you stated:

        ``The agencies involved in the pilot project have made 
        significant progress in a number of areas. Additional 
        resources, such as personnel devoted to processing oil and gas 
        use authorizations, have enabled the various bureaus and 
        agencies to increase the pace of permitting and completing 
        environmental reviews, particularly given the complex resource 
        issues we face. The time taken for interagency consultations 
        has been reduced due to improved communication and through 
        programmatic streamlining efforts, which have been used in 
        multiple projects and permits.''

    Do you have specific results to show that this Pilot Project has 
improved the Federal permit process? (i.e. A backlog of X amount of 
Applications for Permit to Drill (APDs) has been reduced to X amount, 
reduced average time to process an APD from X to X, X amount of 
inspections before compared to X amount of inspections now.)
    Answer. The pilot office authority has allowed the BLM and other 
pilot office agencies to better coordinate permitting and related 
environmental reviews, which along with additional funding has allowed 
us to increase the pace of permitting. The pilot project offices 
approved approximately 54 percent of all APDs received from FY 2006 to 
FY 2012. From FY 2006 to FY 2012, the amount of time it took for all 
BLM field offices to process and approve complete APDs fell from 127 to 
77 days. The number of complete APDs pending more than 90 days (the 
``backlog'') at all BLM offices declined from 1,486 to 551 from FY 2006 
to FY 2012. (Note: only after an applicant has submitted all the 
required components of an APD package is the BLM able to complete its 
review and make a decision on an APD.) The number of inspections 
completed by all BLM offices rose 73 percent from FY 2006 to FY 2012, 
from 19,974 to 34,571.
                                 ______
                                 
    Mr. Lamborn. OK, thank you for being here and for your 
testimony.
    We will now hear from Ms. Wagner.

STATEMENT OF MARY WAGNER, ASSOCIATE CHIEF, U.S. FOREST SERVICE, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Ms. Wagner. Good morning, Mr. Chairman and members of the 
Committee. Thanks for the opportunity to provide the Department 
of Agriculture's views on H.R. 687, the Southeast Arizona Land 
Exchange and Conservation Act of 2013.
    We have had the opportunity to share our perspective on 
previous versions of this bill, and we have not changed our 
position since our last testimony. I know you have had an 
opportunity to review the detailed written testimony. I am 
going to focus on a few key points in my oral remarks.
    We support environmentally sound mineral development. We 
also recognize the benefit of copper mine development to 
economic and employment conditions in the State of Arizona and 
the Nation. We acknowledge the environmental benefits and 
qualities of the non-Federal land parcels considered in this 
exchange, and we appreciate the efforts to resolve land use 
issues for the Town of Superior. Last, we appreciate the 
recognition and protection of important values of Apache Leap.
    While the Department understands and appreciates the 
potential economic benefits and value of the lands to be 
acquired by the American public, the Department cannot support 
the bill as written, but is looking forward to working with 
sponsors and the Committee to resolve concerns. The two 
principal concerns with the bill are that it would require the 
Agency to prepare an environmental review document under NEPA 
after the land exchange is completed, and the land exchange and 
subsequent mining activities have the potential to impact a 
landscape considered sacred to a number of federally recognized 
Tribes, without environmental review or consultation with the 
Tribes.
    The Department believes that adhering to the Federal Land 
Policy Management Act and other laws that guide administrative 
land exchanges ensures a sound process for determining the 
public interest and disclosing environmental impacts. It 
requires that before making a discretionary decision, the 
Federal agency considers the environmental impacts of a 
proposed major Federal action, and alternatives of such an 
action.
    It is this Administration's policy that NEPA be fully 
complied with to address all Federal actions and decisions, 
including those necessary to implement congressional direction. 
NEPA conducted in advance of the exchange would create an 
opportunity for meaningful tribal consultation, as envisioned 
by numerous laws that acknowledge that consultation with tribal 
governments is legally mandated and integral to the Federal 
Government's trust responsibility to Tribes. Consultation 
becomes the vehicle where tribal concerns and interests are 
identified, addressed, and potentially mitigated.
    We have a number of technical concerns with the bill, 
including the timeframe to complete the land exchange, 
appraisal provisions, value adjustment provisions, and the 
purpose of funds from value adjustment payments. And we would 
like to work with the Committee to resolve those issues.
    This concludes my statement. I am happy to answer any 
questions you might have.
    [The prepared statement of Ms. Wagner follows:]
    Prepared Statement of Mary Wagner, Associate Chief, U.S. Forest 
          Service, U.S. Department of Agriculture, on H.R. 687
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to appear before you today to provide the Department of 
Agriculture's views on H.R. 687, the ``Southeast Arizona Land Exchange 
and Conservation Act of 2013''. I am Mary Wagner, Associate Chief of 
the U.S. Forest Service. H.R. 687 would direct the Secretary of 
Agriculture to convey Federal land for use as an underground copper 
mine in exchange for environmentally sensitive non-Federal land in 
Arizona. We defer to the Department of the Interior on provisions 
relating to lands to be managed by the Bureau of Land Management (BLM).
    H.R. 687 would direct the Secretary of Agriculture to convey to 
Resolution Copper Mining, LLC (Resolution Copper), a 2,422 acre parcel 
of land on the Tonto National Forest. The Federal land to be conveyed, 
known as Oak Flat, contains a potentially sizeable copper ore body and 
adjoins an existing copper mine on private land owned by Resolution 
Copper. In exchange, Resolution Copper would convey five parcels of 
land to the Forest Service and three parcels of land to BLM. The total 
non-Federal acreage that would be conveyed by Resolution Copper is 
5,344 acres, all of which are in Arizona.
    The Bill calls for an equal value exchange in section 4(e). If the 
value of the Federal land (including the ore body) to be conveyed 
exceeds the value of the parcels to be acquired, the Bill would allow 
for a cash equalization payment by Resolution Copper in excess of 25 
percent. Under current law, cash equalization payments may not exceed 
25 percent (section 206(b) of Federal Land Policy and Management Act of 
1976 (43 U.S.C. 1716(b)). A cash equalization payment resulting from 
the exchange would be deposited in the Sisk Act account to be used, 
upon appropriation by Congress, for acquisition of land for addition to 
the National Forest System within the State of Arizona.
    Section 6(b) of the Bill would require Resolution Copper to make 
value adjustment payments if, as the mine is developed, production of 
the mine exceeds expectations documented in the appraisal. Those funds 
would be deposited in a special account in the Treasury to be used, 
upon appropriation by Congress, for maintenance, repair, and 
rehabilitation projects on BLM and National Forest System lands. The 
Department's position is that any value adjustment payments should be 
used for land acquisition.
    The Bill also would provide for the sale of: a 30 acre parcel of 
land currently being used as a cemetery; a reversionary interest and 
reserved mineral rights in a 265 acre parcel; and 250 acres near the 
Superior Airport at market value to the Town of Superior. Sale proceeds 
would be deposited in the Sisk Act account to be used, upon 
appropriation by Congress, for acquisition of land to the National 
Forest System in Arizona.
    H.R. 687 would require Resolution Copper to pay all costs 
associated with the exchange, including any environmental review 
document. The Bill provides that it is the intent of Congress that the 
exchange be completed not later than 1 year after the date of 
enactment.
    At the request of Resolution Copper, the Bill would require the 
Secretary, within 30 days of such request, to issue a special use 
permit to Resolution Cooper to carry out mineral exploration activities 
under the Oak Flat Withdrawal Area, from existing drill pads located 
outside the area, if such activities would not disturb the surface of 
the Area. At the request of Resolution Copper, within 90 days, the Bill 
would require the Secretary to issue a special use permit to Resolution 
Copper to carry out mineral exploration activities under the Oak Flat 
Withdrawal Area (but not within the Oak Flat Campground), if the 
activities are conducted from a single exploratory drill pad which is 
located to reasonably minimize visual and noise impacts to the 
Campground.
    H.R. 687 would require the Secretary of Agriculture to complete an 
environmental review document after the exchange, and after the above-
noted activities were permitted to take place, but before Resolution 
Copper's commencement of commercial mineral production on the land it 
would acquire in the exchange. Specifically, once the land exchange is 
consummated, and these lands are in the private ownership of Resolution 
Copper, Resolution Copper is authorized to submit a mine plan of 
operation to the Secretary. Thereafter, the Secretary must complete an 
environmental review document within 3 years that is limited to section 
102(2) of the National Environmental Policy Act of 1969 (NEPA). The 
environmental document would be used as the basis for any Federal 
action or authorization related to the proposed mine and mine plan of 
operations of Resolution Copper, including the construction of 
associated power, water, transportation, processing, tailings, waste 
dump, and other ancillary facilities. After the exchange, Resolution 
Copper may need to use the adjoining National Forest System land for 
ancillary activities related to the mining development, such as rights-
of-way for electric lines, pipelines, or roads.
    The Bill would add five parcels of land totaling almost 1,200 acres 
to the National Forest System. Most of these parcels include riparian 
areas which are somewhat rare in Arizona. One of the parcels that would 
be acquired adjoins the Apache Leap area on the Tonto National Forest. 
Additionally, as a condition of the land exchange, Resolution Copper 
would surrender its rights to commercially extract minerals under 
Apache Leap.
    While the Department understands and appreciates the potential 
economic benefits and the value of the lands to be acquired by the 
American public, the Department cannot support the Bill as written but 
is looking forward to working with the Sponsor and the Committee. The 
principal concern is that the Bill would require the agency to prepare 
an environmental review document under NEPA after the land exchange is 
completed. Also of concern is the fact the Bill would immediately 
authorize mining exploration activities under an area that is 
considered sacred to a number of federally recognized Indian tribes 
(the Western Apache, including the San Carlos Tribe and of the Fort 
McDowell Yavapai Nation, and certain other tribes in Arizona and New 
Mexico) without a review or study or consultation with Tribes.
    NEPA is a forward looking statute setting out procedural 
obligations to be carried out before a Federal action is taken. It 
requires that, before taking a discretionary decision, the Federal 
agency consider the environmental impacts of a proposed major Federal 
action and alternatives of such action. It is this Administration's 
policy that NEPA be fully complied with to address all Federal agency 
actions and decisions, including those necessary to implement 
congressional direction.
    The purpose of the requirement in the bill that the agency prepare 
a limited NEPA review after the exchange, when the land is in private 
ownership, is unclear because the bill provides the agency limited 
discretion to exercise. An environmental review document after the 
exchange would preclude the U.S. Forest Service from developing a 
reasonable range of alternatives to the proposal and providing the 
public and local and tribal governments with opportunities to comment 
on the proposal. In addition, the U.S. Forest Service does not have an 
understanding of the impacts the proposed mine will have on local or 
regional water supplies, water quality, or possible dewatering of the 
area. No studies or assessments of the water supplies have been 
conducted. That is information which could and should be obtained by 
the Forest Service with NEPA analysis before the exchange. A NEPA 
analysis after the exchange would not allow the Forest Service to 
recommend alternatives since the exchanged parcel would already be in 
private ownership.
    The Bill should be amended to require the preparation of an 
environmental analysis before the land exchange is completed. The 
purpose of preparing an environmental analysis before consummating the 
land exchange would be to analyze the effects of the transfer of the 
Federal land to Resolution Copper, any activities that are reasonably 
foreseeable to occur on the transferred land (including mineral 
development), and the acquisition of the non-Federal land resulting 
from the exchange. The agency would use the environmental analysis to 
make a decision on whether and how to proceed with the exchange and 
what mitigation conditions would be required to mitigate the identified 
impacts.
    The legislation states that it is Congressional intent that the 
exchange be completed within 1 year. Based on our experience with 
complex land exchanges, this is clearly an insufficient amount of time 
to complete the exchange. Given the requirement of mineral reports, 
appraisals, title documents, environmental analysis and government to 
government consultation with local Indian Tribes, a 2 to 3-year 
timeframe is much more realistic.
    The agency also understands that a number of federally recognized 
Indian tribes and regional and national tribal organizations are 
concerned that the H.R. 687 circumvents various laws, policies, and 
Executive order that directs the Federal land managing agencies to 
engage in formal consultation with the interested Indian tribes. Indian 
tribes have also raised important concerns that the Bill is contrary to 
various policies and Executive Orders that Federal land managing 
agencies protect and preserve sites that are sacred to Native 
Americans. The Forest Service understands that the land is considered 
sacred by the tribe and holds significant traditional and historic 
value. Because of these expressed concerns and because this specific 
site has been the focus of historic Government protection it is 
important that this Bill provide for the process of formal tribal 
consultation to ensure both tribal participation in cultural impact 
analysis and protection of this site.
    We hold in public trust a great diversity landscapes and sites held 
sacred by Indian tribes. Last year, the Department and the Forest 
Service issued the ``Indian Sacred Sites Policy Review and 
Recommendations''. The Report acknowledges that consultation ``with 
Tribal governments is legally mandated and integral to the agency's 
trust responsibility to tribes. Among the laws that specifically 
require consultation are the Archeological Resources Protection Act 
(ARPA), Native American Graves Protection and Repatriation Act 
(NAGPRA), and the National Historic Preservation Act (NHPA).'' On 
December 5, 2012, the Departments of Defense, Interior, Agriculture, 
and Energy, and the Advisory Council on Historic Preservation entered 
into a Memorandum of Understanding (MOU) Regarding Interagency 
Coordination and Collaboration for the Protection of Indian Sacred 
Sites to improve the protection of and tribal access to Indian sacred 
sites through enhanced and improved interdepartmental coordination and 
collaboration. The MOU is based on the requirements of Executive Order 
13007, Indian Sacred Sites, and provisions of the National Historic 
Preservation Act.
    The Bill would require the Secretary to prepare a management plan 
for Apache Leap. Further, the Federal lands to be exchanged (Oak Flat) 
hold significant cultural values to Indian Tribes. Although the Bill 
would require government-to-government consultation, any consultation 
would not be considered meaningful under Executive Order 13175, 
``Consultation and Coordination with Indian Tribal Governments'', 
because the bill as introduced, limits the Secretary's discretion 
regarding the land exchange. The focus of the consultations would 
likely be the management of those areas over which the agency would 
have discretion, namely, the Federal land adjacent to the mine and 
Apache Leap.
    For example, the Secretary would not have discretion over the 
conveyance or on-site management of the Oak Flat site, which under the 
legislation would be conveyed to Resolution Copper. The San Carlos 
Apache Tribe considers the Oak Flat area to be a sacred site. They have 
expressed concerns that block cave mining would cause subsidence that 
would impact the fundamental religious nature of the site. They have 
also expressed concerns regarding potential impacts on water quality. 
They have detailed in correspondence to Secretary Vilsack, the 
importance of traditional acorn gathering and religious ceremonies 
which still occur on this site. The Department has a responsibility to 
consider the Tribes' concerns and these can only be adequately 
addressed if a pre-exchange environmental analysis is the first step.
    There is no doubt that the lands that would be acquired and managed 
by the U.S. Forest Service under H.R. 687 have important resource 
values that should be protected. It is also clear that the economic 
benefits from the production of copper could be significant in creating 
family wage jobs in tough economic times. However, it is important to 
more fully understand the scope of the project before proceeding and 
address potentially significant environmental concerns and sites of 
high importance to local Tribes. In addition to the concerns expressed 
in testimony, the Department would like to work with the Committee on a 
number of significant technical concerns.
    This concludes my statement and I would be happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Lamborn. OK, thank you for your testimony and all three 
of you for being here. We will now have questions from the 
Committee. And I will start, and I will ask the first one to 
Ms. Connell.
    Can you tell me how many acres are currently being 
explored, developed, or mined on BLM lands under a notice of 
intent or plan of operation?
    Ms. Connell. We have plans of operations on more than 
260,000 acres of public lands in the United States.
    Mr. Lamborn. OK. Thank you. That is exactly what I have. In 
fact, I have, when you combine those two categories together, 
approximately 260,000 acres. So our numbers correlate exactly.
    Now, out of the 247 million acres of land that BLM manages, 
260,000 is about \1/10\ of 1 percent, when you do the math. So, 
\1/10\ of 1 percent of the lands you actually manage are 
authorized for disturbance and it is not all disturbed today, 
it is just theoretically could go up to that amount for mineral 
exploration, development, or mining. I don't see a problem, 
when the mission of BLM is to allow for multiple uses of public 
lands, recreation, hunting, fishing, hiking, et cetera, et 
cetera, why \1/10\ of 1 percent for mining is overdoing it in 
any way, and is a cause for huge concern. Could you respond to 
that?
    Ms. Connell. Certainly the Department of the Interior, the 
Bureau of Land Management has a multiple-use mission that 
includes mining. And we very much support mining development on 
public lands in the United States, subject to the public 
involvement requirements, the environmental protection 
requirements. It is definitely a part of our mission, and we 
look forward to working with the Committee on any issues 
related to that.
    Mr. Lamborn. So, what objection is there, for instance, in 
working more with other agencies, State and Federal agencies, 
as some of these bills call for?
    Ms. Connell. We work very----
    Mr. Lamborn. And is your microphone on?
    Ms. Connell. It is. You want me to--I will try and speak 
up.
    Mr. Lamborn. Sure, thank you.
    Ms. Connell. We do not have a concern with working closely 
with other agencies. In fact, I have been a field manager in 
the BLM for more than 20 years before I became a State 
director. And some of our most successful efforts have occurred 
in working at the local level with local managers from other 
agencies. And I have seen that at the regional level, as well.
    And so, the concerns that we have are not with the 
requirements for our organizations to work closely together.
    Mr. Lamborn. OK, thank you. I have a question now for Ms. 
Wagner. And Mr. Meinert, if you want to chime in at any point, 
feel free to do so.
    Do you believe that understanding the mineral resource 
needs of the Nation and knowing where they are located should 
have an equal priority to things that are already in the budget 
for BLM for things like figuring out what surface changes might 
occur if climate gets warmer or colder?
    Ms. Wagner. I will defer to the Department of the Interior 
for that.
    Mr. Lamborn. Excuse me?
    Ms. Wagner. I would like to defer to the--excuse me. I 
would like to defer to the Department of the Interior for that 
question.
    Mr. Lamborn. Oh, I am sorry. I should have redirected that. 
Thank you for the clarification. Yes.
    Ms. Connell. The question is regarding whether or not we 
should place priority on identifying where our particular 
minerals are. And certainly the Department of the Interior is 
interested very much in understanding the resources that we 
hold in trust for the American public. And I think that any way 
that we can gain better information to make better decisions is 
a good thing.
    I would ask if my colleague from the USGS has comments on 
the ability to collect that information and the cost that might 
be associated.
    Mr. Meinert. The gist of your question is really a policy 
question about relative priorities, which, for the United 
States Geological Survey, I can't really get into, because we 
are a science agency.
    But for the part of the question concerning the knowledge 
about mineral resources, that is a central part of our mission. 
It goes all the way back to the founding Organic Act that says 
that it is part of our job description to understand about the 
mineral resources of the United States. And we have a very high 
level of scientific expertise to bring to bear on those 
subjects, and that is something that we do on a continuing 
basis.
    Mr. Lamborn. Well, thank you. I like that answer, because 
this does get back to the original mission. And unfortunately, 
my figures show that zero dollars are being spent now in 
locating rare earth and critical mineral and strategic mineral 
resources, and what the obstacles are to using those, that is 
getting zero dollars. And yet there is $25 million going to 
climate change centers.
    So, even though you say there is the mission to know where 
our resources are located, as two of these bills call for, you 
are allocating zero dollars to do that. Yet there is $25 
million going for climate change centers. So I think that that 
first category, knowing where our resources are, is just as 
important. So I think----
    Mr. Meinert. I couldn't agree more.
    Mr. Lamborn [continuing]. We shouldn't have--excuse me?
    Mr. Meinert. About the importance of mineral resources. And 
we have many ongoing programs looking exactly at that question. 
So I don't think it would be true to say that there are zero 
resources being allocated to this. We, in fact, have many 
ongoing programs looking at mineral resources.
    Mr. Lamborn. Well, I am glad to hear that. But I am 
perplexed by the opposition to the legislation.
    OK. I am at this point going to recognize Representative 
Holt for questions.
    Dr. Holt. Thank you, Mr. Chairman. I thank the witnesses. 
It is good to see you here. I appreciate your good work.
    Ms. Connell, you indicated that public involvement in the 
review of mining proposals would be constrained under H.R. 761. 
You also testified that ``public lands not only produce 
commodities, but also offer hunting, angling, and other 
recreational opportunities.''
    I am trying to understand. Do you think that H.R. 761 would 
adversely affect other uses of public lands, such as hunting, 
fishing, recreational shooting, and so forth?
    Ms. Connell. Based on our review of the language of this 
bill, our concerns lie more with the language in the bill. Our 
concerns lie with our ability to conduct a timely version of 
the environmental review and public involvement. And so, we 
certainly support the development of rare earth elements and 
any critical minerals that exist on the public lands in the 
United States----
    Dr. Holt. Yes, we are talking--I am sorry, we are talking 
about H.R. 761.
    Ms. Connell. H.R. 761, which is the Critical Minerals 
Production Act.
    Dr. Holt. Yes.
    Ms. Connell. Right.
    Dr. Holt. OK, OK, I am sorry.
    Ms. Connell. So that is what I was answering.
    Dr. Holt. I beg your pardon. OK.
    Ms. Connell. OK.
    Dr. Holt. Please go ahead, then. Thank you.
    Ms. Connell. But that is a concern that we have with this 
bill, is the way that the language isn't clear to us that it 
provides as much of an opportunity for public involvement as we 
would have liked to have seen.
    Dr. Holt. OK. Now, further on H.R. 761, do you agree that 
this bill has little to do with critical and strategic 
minerals, and would cover lots of other things? Perhaps even 
coal mining?
    Ms. Connell. The language, when we reviewed it, it was 
unclear as to the definition of what ``strategic'' or 
``critical minerals'' might be, and it could actually 
incorporate a large number of the mineral activities.
    Dr. Holt. OK.
    Ms. Connell. And it was uncertain to us as to whether that 
was the intent of the bill or not.
    Dr. Holt. And probably would include gold and silver, as 
written?
    Ms. Connell. All of the basic----
    Dr. Holt. OK.
    Ms. Connell [continuing]. Basic minerals that were mined 
under the 1872 Mining Law, as amended.
    Dr. Holt. Let me turn to H.R. 957, Ms. Connell. The 2011 
report by the Department said that royalty reduction for soda 
ash mining meant a loss of some hundreds of millions of dollars 
of revenue to the Government, which is five times the amount 
anticipated by Congress. The industry, those who use the soda 
ash, disputes these findings and the conclusion of the report.
    So, I wanted to ask if you have met with the industry on 
this, if the Bureau or the Department has met with the 
industry, and if you can help me understand what the 
disagreement is, and how that would be resolved.
    Ms. Connell. Well, certainly----
    Dr. Holt. Do you still stand by the report, for example?
    Ms. Connell. The report that you are speaking of is the 
2011 Report to Congress----
    Dr. Holt. Yes.
    Ms. Connell [continuing]. That BLM was required to submit. 
Correct?
    Dr. Holt. Yes.
    Ms. Connell. And that is accurate, that the numbers that 
were concluded in that report by the Department of the Interior 
and its partners were basically the data, when we compared that 
data with the information that came out from the industry's 
report, the data was very, very similar. It was the conclusions 
or the interpretations of that data where we found differences.
    And, I apologize, I am not familiar with any meetings that 
have occurred between the BLM and industry, but we could 
certainly get that information to you on the record, if you 
would like us to do that.
    Dr. Holt. I would appreciate it if you would provide that 
to us.
    And, well, in the three-quarters of a minute remaining, let 
me ask what might be a quick question, Ms. Wagner, on H.R. 687. 
What can you say in general terms about the impact on water for 
local communities in the area from these activities that would 
take place there?
    Ms. Wagner. For the mining operation, the question is still 
a bit outstanding. The company has not submitted a mine plan of 
operations, and with this proposed bill would not be required 
to do so until 3 years after the land exchange was codified. 
The lands would be in private ownership at that point in time, 
and be governed by the State of Arizona's provisions for 
private land----
    Dr. Holt. So we would not know in advance of voting on this 
bill, and maybe we should, do you think?
    Ms. Wagner. The absence of a provision for NEPA to explore 
the issues surrounding the land exchange, some of which might 
be impacts to the highest and best use of that land, in this 
case, perhaps mineral development, would not be known prior to 
the land exchange.
    Dr. Holt. Thank you.
    Mr. Lamborn. OK, thank you. Representative Gosar?
    Dr. Gosar. Thank you. Thank you, Ms. Wagner, and thank you 
for being so quick with your comments. That is a long day. I 
have a quick question for you, not just on the Administration, 
but a question came up in testimony last year that I want you 
to clarify.
    When the United States Forest Service does an appraisal, 
they use what they call the DOJ Yellow Book, or the DOJ's 
guidelines for appraisals, is that not correct?
    Ms. Wagner. We use the uniform appraisals standard 
guidebook.
    Dr. Gosar. So more specifically, the appraisal must comply 
with Section 254.9 of Title 36, Code of Federal Regulations and 
Nationally Recognized Appraisal Standards, which include the 
uniform appraisal standards for the Federal land acquisitions 
and the uniform standards of professional appraisal practice. 
Right?
    Ms. Wagner. Correct.
    Dr. Gosar. OK. Now, the Department of Justice guidelines 
for appraisals has been very carefully drafted, revised, and 
updated over many decades. It requires the appraiser to look at 
the actual facts that apply to a particular property, including 
associated mineral values.
    Last year, some in the minority tried to make the case that 
my legislation requires some unusual appraisal process. I would 
like to point out that Section 4 of H.R. 687 specifically 
requires the same appraisal standards that the agencies are 
required to use to determine fair market value. There is 
nothing unusual about it; it is a standard procedure.
    When Resolution files its Mine Plan of Operation, then it 
will go through the NEPA process, and the public will have 
ample opportunity to provide comments, as guaranteed under the 
law. Is that not true?
    Ms. Wagner. The Mine Plan of Operations, as I understand 
the bill, Mr. Gosar, would be looking at the ancillary 
activities to the plan of operations outside of the private 
land. So, if the mine needed utility corridors, power 
corridors, roads, tailing, waste dump, ancillary facilities, 
that would be what the question on the Federal lands would be 
about.
    Dr. Gosar. I think that what you have is a full NEPA 
disclosure. There would be no shortcuts for the NEPA process in 
regards to the way this language is written.
    Ms. Wagner. On the private land, would they not be governed 
by the laws of Arizona for private land mineral development?
    Dr. Gosar. I mean, in fact, in some cases, Arizona is more 
stringent than the U.S. Code. Is it not?
    Ms. Wagner. So, to your point, what would govern the 
private land, should the land exchange go forward, would be the 
laws governing private lands in the State of Arizona.
    Dr. Gosar. And the full NEPA process is not subjugated or 
shortchanged.
    Ms. Wagner. If that is what is required in the State of 
Arizona.
    Dr. Gosar. That is exactly what is required here. So I 
wanted to make sure, because we had a witness prior that could 
not answer that question appropriately.
    Ms. Connell, in your testimony you mention my bill doesn't 
touch on the disclosure of mineral reports. In Section 4(d)1 on 
page 6, language was inserted to ensure that the appraisal must 
comply with the requirements of Section 254.9 of Title 36, Code 
of Federal Regulations. Section 254.9 of Title 36, Code of 
Federal Regulations states, ``Appraisals prepared for exchange 
purposes must contain the following minimum information: 11, 
copies of relevant written reports, studies, or summaries, 
conclusions prepared by others in association with the 
appraisal assignment, which were relied upon by the appraisal 
to estimate value, which may include, but is not limited to, 
current title reports, mineral reports, or timber crews, as 
prepared for qualified specialists.''
    Can you clarify why you don't believe we don't touch on 
mineral reports? Because our intention is full disclosure, and 
I believe the code we cite in the bill requires our full 
disclosure.
    Ms. Wagner. I am not an expert appraiser, obviously, but my 
understanding of the concern was that some of the information 
that might be needed to develop an appraisal would be not 
accessible to the Federal Government unless it were made 
available by a private entity.
    Dr. Gosar. And what part would that be?
    Ms. Wagner. The mineral quantities from the samples----
    Dr. Gosar. Now let me ask you a question. Isn't that part 
of the State jurisdiction and oversight? You don't trust the 
State?
    Ms. Wagner. I can't answer that question for you.
    Dr. Gosar. I mean we have kind of a funny thing about facts 
here, is that the State is very, very articulate about this. 
And once again, some of the State laws are much more onerous 
than the Federal laws.
    What about Section 6 that specifies the Resolution Copper 
must report annually to the Federal Government and the State of 
Arizona if the total mine production ever exceeds appraisal 
production, estimates Resolution Copper must make an annual 
royalty-like adjustment payment to the United States on all 
excess productions? Would that also require mineral reports? 
Correct?
    Ms. Wagner. That is correct.
    Dr. Gosar. Yes. That is what I thought. So I have further 
questions, but we will start that under somebody else. Thank 
you.
    Mr. Lamborn. OK, thank you. We will now hear questions from 
Representative Grijalva.
    Is your microphone on?
    Mr. Grijalva. Sorry. The public interest requires a 
complete and full informed appraisal, equalization of values be 
performed prior to a congressional passage of this bill, not 
after. Do you see that as a public interest requirement or a 
requirement in the appraisal process as you see it, that the 
appraisal process be done prior to, rather than after the 
passage of the bill?
    Ms. Wagner. Is that question to me, Mr. Grijalva?
    Mr. Grijalva. Yes.
    Ms. Wagner. The public interest determination that is 
usually done when a land exchange is considered is actually 
pre-NEPA. It actually looks at the qualities of the non-Federal 
parcels, the issues of the Federal parcels. It is not 
predicated on a appraisal of the lands, a complete appraisal of 
the lands. An estimate of values is done to determine a public 
interest.
    Mr. Grijalva. And that is for both witnesses. Throughout 
his Administration, President Obama has been committed to 
enhancing the partnership with Native Nations and the Federal 
Government, very vocal about his support for a real 
consultation process, and a government-to-government 
relationship that has formality and process.
    If this bill were to become law, will the Federal 
Government be able to meet its commitment, whether it is a 
memorandum of understanding your agency might have, or the 
initiative of the President, would you be able to meet that 
commitment to a meaningful consultation with Native Nations 
affected by this legislation?
    Ms. Wagner. The Department of Agriculture doesn't believe 
that meaningful consultation can occur without the NEPA process 
preceding the land exchange decision.
    Mr. Grijalva. Resolution Copper's mining operation is going 
to require 20,000 acre-feet per year. That is their number. 
Apparently, the company says that it has been banking water, 
and has indicated it will use excess CAP water to support its 
mine operations.
    Just so that I am clear, has Resolution Copper provided any 
analysis about any potential impact or any mitigation plan in 
place to protect the resource? The resource being ground water 
in the area, the resource being acid mine drainage into the 
ground water. And an analysis, is this 20,000 feet per year 
enough to support the mining activities for the life of the 
mine? Have any of those been provided to you, the agency, or 
any that you know of?
    Ms. Wagner. The NEPA that has been conducted with the 
Forest Service and Resolution Copper has been on pre-
feasibility exploration by the company on parcels adjacent----
    Mr. Grijalva. NEPA question. And correct me. I just want to 
be clear, we keep going over this. NEPA is triggered if a 
Federal action is likely to have significant impact on human 
development. While numerical values of proposed action are 
relevant, the number of acres or megawatts, or whatever, there 
is no numerical cap or limit on NEPA application. The point is 
to determine environmental impacts and things like the number 
of acres involved cannot always answer the question.
    This bill, I think, plainly waives NEPA with regard to the 
land exchange. The decision to trade Federal land, forest land, 
particularly land that was set aside during the Eisenhower 
Administration, and withdraw it from mining--to a mining 
company, a foreign-owned mining company, is likely to impact 
the human environment. NEPA would be required prior to the 
exchange, if this bill did not specifically waive that 
application. Right or wrong?
    Ms. Wagner. That is correct.
    Mr. Grijalva. And just, I think, for the record, because we 
were talking about \1/10\ of 1 percent, Mr. Chairman, I am 
happy to announce that the Federal judge in Arizona threw out 
the case, the withdrawal of the 1 million acres around the 
Grand Canyon. And we can rest assured for a little while that 
beautiful icon will continue to be a beautiful icon. I yield 
back.
    Mr. Lamborn. We will now hear from Representative Cramer.
    Mr. Cramer. Thank you, Mr. Chairman and Ranking Member, and 
thank you to the witnesses. My, of course, interest is on my 
bill, H.R. 767, and all my questions will be for answering by 
Ms. Connell.
    And, first of all, let me say, publicly thank you for your 
service and for being here. Having been an energy and 
environmental regulator for nearly 10 years in North Dakota, I 
always found the relationship between the State and your agency 
to be very professional and productive, and I appreciate that, 
which is why I think this makes so much sense, what we are 
talking about today.
    You know, H.R. 676 simply just adds the word ``Dakota,'' 
basically, to the Montana-Dakota State office, since that is 
our State office, and it wasn't originally part of the original 
bill in 2005, the Act in 2005. But this Pilot Project probably, 
in 2005, wasn't even envisioned to be as active as it is today. 
And so we want to include North Dakota as part of the 
streamlining Pilot Project.
    Could you in the first few seconds or minute, describe what 
that Pilot Project is, exactly? What specifically helps 
streamline the permitting process? And is there any 
environmental compromising as a result of it?
    Ms. Connell. The Energy Policy Act of 2005 identified 7 
offices managed by the Bureau of Land Management that would 
receive funding which is acquired from rentals for public land 
leases across the Nation. And, as a result of that additional 
source of income, we were able to establish some teams that 
would be set aside in each of those various offices to focus on 
developing the oil and gas resources in that area. At the time, 
the price of natural gas was very high, and so many of those 
offices are areas where we have natural gas activity.
    North Dakota has boomed, the Bakken play there is a world-
class, amazing oil resource for this country. And the Dickenson 
field office for the BLM has very much been trying to keep up 
with the activity. Should the Dickenson office be made a part 
of this pilot effort, we would be able to take advantage of 
utilizing extra resources from across the county in our ability 
to bring the oil reserves from the Bakken from the Federal 
lands and from Indian Trust estate to the surface and make it 
part of the oil resources available to the American public.
    Mr. Cramer. Exactly how does that happen? In other words, 
how is the streamlining--how does that happen? What do you do 
to streamline, if you----
    Ms. Connell. Well, we streamline in some ways by bringing 
everyone close together: representatives who work for the 
Bureau of Indian Affairs, for the BLM, for the Fish and 
Wildlife Service. We are located very close together, and we 
have streamlined some of the processes at the local level, 
depending on what the issues are. We have actually been able to 
streamline some of the work that is done out in the field.
    The number of environmental inspections has more than 
doubled, as well as the drilling and production inspections. 
And we also in the pilot office have been able to process more 
drilling permits with an equal amount of environmental 
oversight that we were before the implementation of the law.
    Mr. Cramer. Thank you. Now I want to get to your testimony 
where you have some suggestions for us. And I have been sort of 
thinking about it all morning. Realizing that this pilot 
project is due to expire at the end of 2015, so we are about 
7.5 years into it, as I understand, and your suggestion is that 
perhaps we could, by giving BLM more flexibility, utilize the 
resources in places other than those original 7-plus North 
Dakota offices.
    Do you have any concern that would dilute the intent of the 
pilot, or would we be better off, and I am really asking, I 
really don't know, or would we be better off sticking sort of 
to this mission, seeing how it goes, realizing you now have a 
world-class play right in the middle, surrounded by public and 
State activity, that we could do a real experiment, if you 
will, and gather real information, and then perhaps look at 
doing something larger down the road? And I am just honestly 
asking.
    Ms. Connell. I think that broadening the effort across the 
Nation would help in a few other places that are having similar 
struggles to the Bakken area. I think you would still continue 
to see the focus of the pilot efforts in the highest density of 
drilling areas, North Dakota would and Eastern Montana would 
likely remain in the eye of that development activity for the 
foreseeable future.
    Mr. Cramer. All right. Thanks for the clarity. And again, 
thanks for the great job you do in protecting our resources. 
And I just look forward to continuing that same level of 
protection, while also providing opportunity for economic 
growth.
    Thank you, Mr. Chairman.
    Mr. Lamborn. You are welcome. We will now hear questions 
from Representative DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman. Mr. Chairman, I do 
have questions about H.R. 687 that I hope to get to. But I do, 
given the opportunity of having Deputy Chief Wagner here, there 
is something of immediate concern, which is I disagree strongly 
with the Office of Management and Budget that the safe and 
secure county rural schools funds are subject to sequestration, 
particularly since these were funds for Fiscal Year 2012, when 
sequestration did not exist.
    We seem somehow to have lost that battle. We have been 
sequestered on the BLM funds. And now we are being told you are 
going to sequester the funds from the Forest Service. So my 
question is, since the money has been dispersed to the States 
and spent or programmed for education and public works roads 
purposes, where are you going to get that money? How are we 
going to do it? The only thing I can see that you might be able 
to do is to cut out Title 2 funds. And Title 2, of course, 
actually benefits the Forest Service, in terms of projects on 
Forest Lands, and employs people.
    So, is that where we are headed? We are about to do this 
sequestration to the detriment of activities on the Forest 
Service lands and loss of jobs? Is that where we are headed?
    Ms. Wagner. We had the secure rural schools funding 
distributed as quickly as we could because it works for 
schools, for roads----
    Mr. DeFazio. Right, right.
    Ms. Wagner [continuing]. For emergency protection and 
services. And last, Title 2 funds are investments in 
conservation projects.
    It is unfortunate, but we find ourselves in a situation of 
having to have notified the States of the impacts of sequester, 
and that we are going to have to ask for a return of 5.5 
percent of those funds back to Treasury. We have done that, and 
the only option as we see right now, because, as you said, 
those funds have been programmed to important investments at 
the county level, would be to consider using the Title 2 as 
offsets to return the 5.5 percent to treasury.
    Mr. DeFazio. But what happens, not everybody gets a Title 
2.
    Ms. Wagner. Exactly.
    Mr. DeFazio. So you are going to take sort of doubly out of 
the States where they get Title 2 money, will be penalized 
more?
    Ms. Wagner. It is unfortunate we have to ask for that money 
back, but that is where we find ourselves.
    Mr. DeFazio. This is extraordinary, and I just find this 
very, very hard to believe.
    Back to a more general question about H.R. 687, for many 
years I have been involved in the fight over mining reform, and 
I did the royalty amendment back in 1994, when we passed a bill 
on mining reform. This seems to me a very unusual process by 
which we would, the taxpayers would, realize value from this 
unbelievably valuable asset. And I don't understand why we 
wouldn't just want to assess a straight-up royalty, which would 
be predictable both to the producer, and it would be 
predictable to or more predictable, to the government and 
benefit the taxpayers.
    Have you reviewed this proposal on how we would get future 
revenues from the production of this asset, either--yes, OK.
    Ms. Wagner. Yes, Mr. DeFazio. The company would be, should 
the estimate of mineral value or quantity differ from what was 
assumed in the appraisal process, if the company actually 
produced more than what was estimated, there is a provision in 
this bill for an income capitalization approach to the 
taxpayers receiving some----
    Mr. DeFazio. Is this something routinely used, income 
capitalization for this sort of an asset?
    Ms. Wagner. I am not aware of other----
    Mr. DeFazio. So this would be a first impression. They get 
to deduct----
    Ms. Wagner. I am not aware of other----
    Mr. DeFazio [continuing]. All of their estimated 
construction, operating, maintenance costs on an annual basis, 
from their production, and then that would come up with this 
theoretical appraised or annual value.
    Ms. Wagner. The appraisal actually would be done by 
somebody who has expertise in appraising properties that have 
mineral value. And they would use a cost sale comparison 
methodology. They might use the income capitalization approach. 
It is a multi-faceted approach to get----
    Mr. DeFazio. Right. But why would we create a new and novel 
process for such an incredibly valuable asset? Why wouldn't we 
just say we want a royalty?
    Ms. Wagner. My understanding is that it is the vehicle to 
protect the interests of the public if the appraisal estimate 
of material removed from the mine didn't match up with the 
actual production of the mine.
    Mr. DeFazio. Yes, but if we are doing a royalty on growth, 
that is very predictable, and there is no way to harm the 
public there.
    Ms. Wagner. We would be happy to work with the Committee on 
language that would work to achieve the public interest that I 
think that provision was intended to achieve.
    Mr. DeFazio. I am not following that at all. Thank you, Mr. 
Chairman.
    Mr. Lamborn. OK, thank you. Representative Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. I am going to 
concentrate my time on the soda ash bill. I appreciate Ms. 
Connell's remarks about how the data was very similar between 
the BLM and the industry, and the fact that it is how you 
interpret it that makes the difference.
    And there is a reason that the interpretations that were 
drawn by the employer and employee groups that support this 
bill convinced both the gentleman from New Jersey and the 
gentleman from Oregon here present to support this bill in the 
last Congress. And the reason is that both the employer and 
employee organizations, industry and labor unions, are 
supporting this bill because they recognize what China is 
doing.
    Soda ash is a natural product. And it is produced in the 
United States and shipped overseas, a large part of it. It is 
used to make glass and soda, baking soda, and laundry 
detergent, and things like that. It is a hard rock. China 
produces synthetic soda ash in great quantities, and subsidizes 
it to the tune of $30 million annually. So, if we increase the 
royalty, which we have now allowed to occur on naturally 
occurring soda ash in the United States, we are charging $25 
million more annually for soda ash, while the Chinese are 
subsidizing theirs to the tune of $30 million. And that just 
creates a lopsided competitive disadvantage for U.S. soda ash 
that costs jobs and costs production, costs our competitive 
edge around the globe. So, that is why this bill enjoys the 
support of both labor unions and industry.
    Congress set a 2 percent royalty rate back in 2006. And 
during those following 5 years of the 2-percent royalty rate, 
U.S. soda ash manufacturers increased employment, increased 
production and exports, and increased the royalties paid to the 
Federal and State coffers, as compared to the previous 5 years. 
Now, that royalty rate of 2 percent was allowed to expire. It 
has gone up to 6 percent. And that is why labor unions and 
industry have joined forces on this bill to allow for more 
royalty dollars to be paid to the U.S. Government and the 
taxpayers of this country, by allowing our product to remain 
competitive globally against this Chinese synthetic product 
that is subsidized.
    So, Mr. Chairman, I want to point that out and maybe 
conclude with this question for Ms. Connell. Isn't it true that 
during the years 2006 to 2011 the United States suffered a 
recession and unemployment levels were at double digits? But at 
the same time, when we had a lower royalty rate on soda ash, 
its employment base increased, the production increased, 
exports increased, and we actually collected more than the 
previous 5 years under a 6 percent royalty?
    Ms. Connell. During the year that you are asking about 
would have been during the 5 years while the royalty rate was 
lower. Correct?
    Mrs. Lummis. While the royalty rate was at 2 percent we 
enjoyed an increase in production and an increase in employment 
in the soda ash industry because our product was more 
competitive overseas, as compared to the Chinese synthetic 
product.
    Ms. Connell. Certainly the soda ash industry in the United 
States has remained very competitive, worldwide. And from the 
information that I have been provided, it has remained 
competitive through 2012, despite the fact that we have had 
economic difficulties, as well as the increase in the royalty 
rate.
    Mrs. Lummis. Well, it is not easy, once employment and 
contracts have been established globally under a 2-percent 
royalty rate, to immediately change those contracts. And isn't 
that the case? I mean some contracts to provide soda ash would 
run beyond the expiration of the 2-percent royalty rate, simply 
because the contract term runs beyond the expiration of the 2-
percent royalty rate. Isn't that possible?
    Ms. Connell. That could definitely be true.
    Mrs. Lummis. Thank you, Mr. Chairman. My time is up and I 
yield back.
    Mr. Lamborn. Thank you. I want to thank the panel for being 
here today. Let me ask a couple of clarifications.
    Mr. Meinert, you referred earlier to the fact that USGS was 
working on some projects to both search for and list critical 
and strategic minerals today. Could you supply me with that 
list?
    Mr. Meinert. To clarify, I stated that we have many 
projects researching mineral resources, including strategic 
minerals. And we would be happy, for the record, to provide you 
with further information about those projects.
    Mr. Lamborn. Please do so. Thank you for that offer. And to 
clarify something you said, Ms. Wagner, during your testimony, 
is it your position that NEPA should be complied with before 
land exchanges and conveyances take place?
    Ms. Wagner. That is the position of the Administration, 
yes.
    Mr. Lamborn. OK. I thought you would be interested to know 
that we passed a bill yesterday in this Committee, Full 
Committee, and it also passed the last Congress by unanimous 
consent. It is a bill by Representative Grijalva, H.R. 507, to 
convey land into a trust involving a golf course without NEPA 
being complied with.
    Ms. Wagner. It is certainly true that Congress has the 
authority to waive provisions of NEPA.
    Mr. Lamborn. OK. Thank you for that clarification, and 
thank you for being here. Members of the Committee may have 
questions for you to follow up, and we would ask that you 
respond to those questions, if they are submitted to you in 
writing. Thank you.
    We will now go to our fourth and final panel. And I would 
like to invite forward the witnesses for this panel: Mr. 
Stephen Miller, Chairman of the Board of Supervisors of Pinal 
County District 3; Mr. Hal Quinn, President and CEO of the 
National Mining Association; Mr. Dan McGroarty, Principal and 
Director of American Resources Policy Network; Mr. Mike Hohn, 
General Manager of the Soda Ash Business of OCI Chemical 
Corporation; Mr. Terry Rambler, Chairman of San Carlos Apache 
Tribe; Mr. Pierre Neatby, Vice President of Sales and Marketing 
for Avalon Rare Metals; and Ms. Soyla Peralta, Council Member 
of the Superior Town Council.
    Like all of our witnesses, your written testimony will 
appear in full in the hearing record, so I would ask that you 
keep your oral statements to 5 minutes. You have to turn on the 
microphone to be heard. The countdown begins at 5 minutes with 
a green light, turns to yellow after 4 minutes, and then turns 
red after 5 minutes.
    Thank you all for being here. We look forward to your 
testimony, and we will start with Mr. Miller. Thank you for 
being here.

   STATEMENT OF STEPHEN Q. MILLER, CHAIRMAN OF THE BOARD OF 
              SUPERVISORS, PINAL COUNTY DISTRICT 3

    Mr. Miller. Mr. Chairman and members of the Subcommittee, 
my name is Steve Miller, I serve as Chairman of the Pinal 
County Board of Supervisors. I appreciate the opportunity to 
testify before you----
    Mr. Lamborn. Are you speaking into the microphone?
    Mr. Miller. I believe I am. Is that better?
    Mr. Lamborn. OK. Make it a little closer. Yes, thank you.
    Mr. Miller. OK. I appreciate the opportunity to testify 
before you today and would like to personally thank Congressman 
Paul Gosar and Congresswoman Ann Kirkpatrick for working 
together in a bipartisan manner to advance legislation which is 
important to the people of Arizona.
    I must acknowledge my colleagues in the Pinal County Board 
of Supervisors, and especially Supervisor Pete Rios, who hoped 
to testify here today, but was not able to make it. I know that 
my complete testimony will appear in the record, so let me be 
brief and summarize my remarks. Then I will be pleased to 
answer any questions.
    First, support for this bill is bipartisan and very strong. 
Support for this bill from a bipartisan Board of Supervisors is 
unanimous, and the vast majority of residents of Pinal County 
and all Arizona supports this land exchange and this mine.
    Nowhere is the support stronger than the citizens of 
Superior. Fourth generation resident Mila Besich Lira spoke at 
the Board of Supervisors meeting and said, ``Resolution Copper 
has been very generous and transparent with the people of 
Superior and the entire mining triangle.'' She credited 
Resolution for the exponential rise in the elementary school 
math scores and the success of the local schools in the 
competition with the schools throughout the Southwest.
    Second, the bill and the proposed mine will be a net 
positive environment. The mine's operation being proposed by 
the Resolution Copper looks very different than the standard 
open pit mine. Based upon the county's long-standing working 
relationship with Resolution Copper, we believe this project is 
going to be one of the most environmentally-sensitive mines in 
the Nation, even the world. They have taken it upon themselves 
to reclaim an old mine in Superior decades before they were 
required to do so at the cost of $50 million.
    One parcel in Pinal County that the Federal Government will 
receive is the 7B Ranch, 3,050 acres of ranch land, covers 7 
miles of both sides of the San Pedro River. Resolution Copper 
has already put it under the management of Nature Conservancy. 
And in addition, stepped up to the plate, and at their own 
expense, have addressed the huge problem of illegal dumping on 
an otherwise pristine piece of property. Actions speak louder 
than words.
    Third, this mine is just the kind of economic stimulus our 
county, our State and our Nation needs. The citizens of Pinal 
County need more high-quality paying jobs. Our unemployment 
rate is about 8 percent. The unemployment rate on the Indian 
Reservation is more than triple that number. The Resolution 
Copper project will put over 1,400 people in excellent jobs, 
direct jobs, as a result of passage of this legislation. It 
will create thousands more indirect jobs, combine these jobs, 
have the potential of creating more than $60 billion of 
economic benefit over the life of the mine.
    This project also benefits the public sector beyond the 
lands the U.S. Government will receive. The mine will yield 
more than $16 billion in new revenues to the Federal 
Government. Last I checked, you could use a few billion here.
    Back in Arizona, in the State, county, and local 
governments, they will receive another $2 billion in revenue. 
Every day that passes without this legislation, we lose out on 
all these economic benefits. As an elected official, my 
responsibility is to improve the quality of life for the 
constituents. I came here today to urge you to join me and the 
citizens of Pinal County to support the land exchange. I ask 
that you pass H.R. 687 immediately. The residents of Pinal 
County and the State of Arizona are looking to you for action.
    Mr. Chairman, thank you for the honor of appearing here 
today, and I look forward to answering any questions.
    [The prepared statement of Mr. Miller follows:]
    Prepared Statement of Chairman Stephen Q. Miller, Pinal County 
             Board of Supervisors, District 3, on H.R. 687
    Mr. Chairman and Members of the Subcommittee:

    My name is Steve Miller. I serve as the Chairman of the Pinal 
County Board of Supervisors. I appreciate the opportunity to testify 
before you today, and would like to personally thank Congressman Paul 
Gosar for inviting me to testify. I would also like to thank 
Congresswoman Ann Kirkpatrick for her leadership on the issue before us 
today.
    I was born in Arizona and have lived in Pinal County for almost 42 
years. During that time, I've been through a lot of ups and downs in 
our community. As a husband, father, and grandfather, economic and 
community issues drove me to get involved in public and community 
service. Sure, I had my livelihood as a builder and truss manufacturer 
to consider, but I have always known people are what matter and few 
issues today are as important to the people of this County as this 
legislation and the jobs that will be created by the development of the 
Resolution Copper Mine.
    I am fortunate to serve with some great leaders and I must 
acknowledge my colleagues on the Pinal County Board of Supervisors, 
especially Supervisor Pete Rios. Pete also hoped to testify here today, 
but could not be here. He has been an ardent supporter of the 
Resolution Copper Mining project from the days when he served in the 
Arizona State Senate to now.
    The Pinal County Board of Supervisors, made up of Republicans and 
Democrats, just unanimously passed a resolution supporting H.R. 687. 
The vast majority of residents of Pinal County support this land 
exchange and this mine. Nowhere is support stronger than with the 
citizens of Superior, Arizona where polling shows support of the mine 
exceeds 80 percent. Strong words of support were spoken at our Board 
meeting by Superiorites like fourth generation resident Mila Besich 
Lira who stated that Resolution Copper has been very generous and 
transparent with people in Superior and the entire mining triangle. She 
credited Resolution's support of local schools for the exponential rise 
in elementary school math scores and the success local Superior schools 
have had in competitions with schools throughout the Southwest.
    Let me tell you a little about Pinal County. We are right in the 
middle of the State between Arizona's two largest counties--Maricopa to 
the north and Pima to the south. Like many of the counties in Arizona, 
we have a large geographic footprint--just a little larger than 
Connecticut. Our population has exploded from 60,000 in 1965 to more 
than 375,000. We need high quality, good paying jobs for our citizens 
today and into the future. Passage of this bill will help create those 
jobs.
    Pinal County is not only large, but also diverse. The western part 
of the County, which I represent, is mostly low desert where irrigated 
farming has dominated over the years. The eastern part of the County is 
mountainous with elevations as high as 6,000 feet. It is home to what 
we've called the ``copper triangle''--an area known for its long 
history as a copper mining region.
    While I may be new to the Board of Supervisors, I'm not new to 
Pinal County and I'm very familiar with this legislation and the 
proposed mine. Mr. Chairman and Members, you need to understand the 
mining operation being proposed by Resolution Copper looks very 
different than the standard open pit mine. Based upon the County's 
long-standing working relationship with Resolution Copper, we believe 
this project is going to be one of the most environmentally-sensitive 
mines in the Nation . . . even the world. On behalf of our citizens, 
the Board will hold Resolution to the highest standard of environmental 
stewardship; and based on their actions so far, it is clear to me they 
intend to hold themselves to the same standard.
    Let me explain what I see as evidence of Resolution Copper's 
commitment to the environment. First, the legislation being considered 
today is the result of extensive consultation between Resolution 
Copper, Federal agencies, and various non-governmental organizations 
like The Nature Conservancy and the Audubon Society to find the best 
lands to exchange for the Oak Flat Campground. The Federal Government 
is the overwhelming beneficiary of this lands package. For example, one 
parcel in Pinal County the Federal Government would receive through 
passage of this bill is known as the 7B Ranch--3,050 acres of ranch 
land that covers 7 miles on both sides of the San Pedro River. 
Resolution Copper has already put it under the management of the Nature 
Conservancy, and has additionally stepped up to the plate and, at its 
own expense, addressed the huge problem of illegal dumping on this 
otherwise pristine piece of property. Actions speak louder than words. 
Resolution Copper set a high standard for others to follow.
    Resolution Copper's actions also speak loudly in Superior, Arizona. 
It took over the nearly century-old Magma Mine site in Superior, which 
required an extensive environmental cleanup. Resolution Copper was not 
obligated to complete cleanup for decades, but decided to begin the $50 
million reclamation. Today, that cleanup is over 70 percent complete. 
These actions will ensure a safer, cleaner and healthier environment 
for the residents of Superior. Resolution Copper knows what it takes to 
be a good corporate citizen and a good community partner. They are 
helping improve Superior schools, send high school graduates to 
college, make it possible for younger kids to play little league on a 
field with grass, provide funding for community programs such as 
Superior's signature event, Apache Leap Mining Festival, and provide 
much needed support for the fire and police departments. They 
understand that Superior is their home and the home to many of their 
current and future employees.
    Let me say something more about economic growth. The citizens of 
Pinal County need more high-quality, good paying jobs. Our unemployment 
rate is about 8 percent. The unemployment rate on our Indian 
reservations is more than triple that number. The Resolution Copper 
project will put over 1,400 people into excellent jobs--direct jobs as 
a result of the passage of this legislation. It will create thousands 
more indirect jobs. Combined, these jobs have the potential to create 
more than $60 billion in economic benefit over the life of the mine.
    This project also benefits the public sector beyond the lands the 
U.S. Government will receive. The mine will yield more than $16 billion 
in new revenue to the Federal Government. Last I checked, you could use 
a few billion dollars. Back in Arizona, the State, county and local 
governments stand to receive another $2 billion in revenues. It has 
been said by many others, far better than I can say it, but this bill 
is a true stimulus bill that doesn't cost taxpayers one dime. By the 
way, dimes are currently made with 91 percent copper.
    As an elected official, my responsibility is to improve the quality 
of life for my constituents. I came here today to urge you to join me, 
and the citizens of Pinal County, in support of this land exchange. I 
ask you to pass H.R. 687 immediately. The residents of Pinal County and 
the State of Arizona are looking to you for action.
    Mr. Chairman, thank you for the honor of appearing before your 
subcommittee. I look forward to answering any questions the 
Subcommittee may have.
                                 ______
                                 
         Question Submitted for the Record to Stephen Q. Miller
Question Submitted for the Record by The Honorable. Grace F. Napolitano
    Question. Is it the normal process for the county to give the 
mining business to companies outside the United States, in this case to 
the UK and Australia? Why not seek U.S. owned companies to build U.S. 
investments in our companies?
    Answer. Pinal County is a firm believer in the free-enterprise 
system, a system that today thrives within a global economy. As such, 
the county does not dictate company ownership or where a mining company 
may choose to stake claims and invest its capital to develop a mine. 
The practice of isolationism in this country in the past was not found 
to be practical or profitable for the nation.
    Pinal County did not choose the mining company and direct them to 
make an investment here. Resolution Copper, a subsidiary of Rio Tinto, 
explored this site and has determined that the ore body in Superior, 
Arizona is one of the 10 largest ore bodies in the world. The company 
has made multimillion dollar investments in exploring high-tech ways to 
extract the ore that sends the fewest number of miners underground. The 
company will be able to mine this ore through the extensive use of 
robotics and skilled workers.
    The jobs created at the mine will be American jobs, pulling a 
global commodity from American soil to make the sorts of products that 
power this Nation--from motors to cell phones, to the piping that runs 
through our homes.
    Pinal County seeks to provide opportunity for any company that 
wants to make investments in our county which will generate wealth and 
provide economic growth and opportunity for our citizens. Pinal County 
enjoys the presence of a number of foreign companies which have created 
a tremendous number of jobs.
    Some of those companies are:

Hexcel Composites       Abbott Nutrition       Phoenix Mart
ACO Polymers            ASARCO Groupo          Bright International


    It strikes me that this project presents the single biggest 
opportunity for Congress to show America that it is serious about 
creating jobs, spurring a healthy economy, producing a commodity that 
is in global demand and reducing our dependence on foreign sources of 
raw materials.
                                 ______
                                 
    Dr. Gosar [presiding]. Thank you, Mr. Miller.
    Now I would like to have Mr. Quinn for 5 minutes.

  STATEMENT OF HAL QUINN, PRESIDENT AND CEO, NATIONAL MINING 
                          ASSOCIATION

    Mr. Quinn. Thank you, Mr. Chairman, members of the 
Committee. I appreciate the invitation to testify today on H.R. 
761. And I also want to thank you all for your continued 
efforts in trying to find and advance enabling public policies 
that will positively affect our mineral supply chain here in 
the United States.
    Let me begin maybe with a little global context to frame 
out not only H.R. 761, but also a number of the other pieces of 
legislation on minerals that you are considering today. Today 
about three-quarters of all the economic growth globally comes 
from emerging economies. And some estimate at this rate, by 
2050, 80 percent of the entire global GDP will be allocated to 
what is today the emerging nations and economies.
    Now, these trends are often compared to the Industrial 
Revolution, but their pace and scope today are simply 
unprecedented. Consider that in the space of 25 years the GDP 
of China grew by a factor of 10, took the better part of 70 
years for Britain's GDP to grow by a factor of 4 after 1830. 
And while the Industrial Revolution was a story of about 
perhaps 100 million people, the story unfolding before us today 
that we are witnessing really involves billions of people and 
for the foreseeable future.
    And I say the foreseeable future, because the developing 
nations have per capita consumption rates of energy and 
commodities that are still just a fraction of the developed 
world.
    So resource competition will be fierce over the next 20 
years. Demand for minerals will soar, and stable and reliable 
supplies will become increasingly difficult to sustain. Here in 
the United States, our share of global exploration investments 
is less than half the levels attracted 20 years ago. At the 
same time, our dependence upon foreign sources of key minerals 
has doubled. Today domestic minerals supply less than half the 
needs of all U.S. manufacturing.
    Now, these trends are not due to the lack of mineral 
resources. In fact, in the United States we are blessed with a 
world-class mineral resource base. Unfortunately, we are cursed 
with a third-world permitting system, one that is cumbersome, 
duplicative, and unpredictable. Now, finding minerals in 
developing mines requires substantial investments, hundreds of 
millions and even billions of dollars. As a consequence, 
regulatory certainty is a highly valued commodity. Lengthy 
delays and permit reviews compromise the commercial viability 
of projects by increasing costs, reducing the net present value 
of those projects, and impairing financing arrangements.
    So, the efficiency and predictability of the permitting 
process matters in decisions where to invest. The choice can be 
very stark. Invest in countries that provide a predictable 
pathway for receiving permits within 2 to 3 years, or here in 
the United States, where it may take three to five times 
longer.
    Now, let me be clear. Valid concerns about environmental 
protection should be fully considered and addressed. At the 
same time, they should not serve as an excuse to trap mining 
projects in a limbo of duplicative, unpredictable, and endless 
review without a decision point. We should not confuse the 
length of the process with the rigor of the review. Countries 
like Canada and Australia, which share our same core principles 
of responsible resource development, have demonstrated that 
permit views and decisions can be both thorough and timely. 
They understand that we are in a global competition for mining 
investment, and that an effective and efficient permitting 
process provides a competitive advantage.
    H.R. 761 provides a big step for the United States to catch 
up in this race for investments in minerals. The bill reflects 
best practices for coordination among State and Federal 
agencies, clarifies responsibilities, minimizes duplication, 
sets goals and timeframes, and, frankly, brings just more 
accountability to the process.
    H.R. 761 provides the opportunity to establish a permitting 
system that prepares us for the challenges of the new global 
reality, one that will allow our manufacturing, technology, and 
other industries to compete with the world's fastest-growing 
economies.
    Thank you very much for the opportunity to testify today.
    [The prepared statement of Mr. Quinn follows:]
  Prepared Statement of Hal Quinn, President and CEO, National Mining 
                        Association, on H.R. 761
    Good morning. I am Hal Quinn, President and Chief Executive Officer 
of the National Mining Association (NMA). NMA is the national trade 
association representing the producers of most of the Nation's coal, 
metals, industrial and agricultural minerals; manufacturers of mining 
and mineral processing machinery, equipment and supplies; and 
engineering and consulting firms, financial institutions and other 
firms serving U.S. mining.
    Today I am testifying in support of H.R. 761, the National 
Strategic and Critical Minerals Production Act of 2013. I want to thank 
Representative Amodei for reintroducing this very important 
legislation. It enjoys bi-partisan support and addresses a key issue 
for the country's future economic growth and manufacturing revival: the 
painfully slow permitting process for the mines that supply metals and 
minerals essential for our basic industries, our national defense and 
the consumer products we use. I also want to thank the subcommittee, 
especially Congressman Lamborn, for the leadership and persistence in 
raising the visibility of a growing problem--the availability and 
security of mineral supplies critical to innovation, manufacturing, 
national security and our economic growth.
U.S. Mining's Contribution to Society
    Mining's contributions to our economy and society are significant. 
The value added by major industries that consume the $77 billion of 
minerals produced in the United States was an estimated $2.4 trillion 
in 2012, or 15 percent of our GDP. Mining's direct and indirect 
economic contribution includes nearly 2 million jobs with wage and 
benefits well above the State average for the industrial sector. In 
addition, domestic mining generated $50 billion in tax payments to 
Federal, State and local governments.
    In addition to these economic contributions, U.S. metals mining's 
commitment to employee safety and health has led to continuing 
improvements in our performance and includes the introduction of our 
CORESafety initiative last year, which relies on a systems approach to 
eliminate fatalities and reduce the injury rate at U.S. mines by 50 
percent within 5 years. We also developed last year a systems approach 
to environmental management at hardrock mines with a special emphasis 
on practices to assist smaller operations with improvements in 
environmental outcomes.
U.S. Mining's Potential
    Mining's potential is even greater than its current performance. 
The United States has an immense and enviable mineral endowment waiting 
to be tapped. For example, Resolution Copper's world class copper 
deposit represents one of the largest undeveloped copper resources in 
the world and is anticipated to have a 50 year mine life that will 
support over 3,700 jobs annually.
    Overall, when viewed through the lens of resource potential, the 
United States is underperforming, a fact that will have increasing 
consequences as global demand for minerals becomes more competitive due 
to the demands of developing economies, where millions are being 
propelled into a rising global middle class. Last week, the United 
Nations Development Program released a report that examines the 
profound shift in global dynamics driven by the fast-rising new powers 
of the developing world.
    The report, The Rise of the South: Human Progress in a Diverse 
World, includes in its classification of ``the South'' nations in the 
Southern Hemisphere as well as China and India. The report emphasizes 
the shift is occurring not just in large middle-income developing 
nations such as Brazil, Argentina, India and China, but also in more 
than 40 other up-and-coming countries that in recent decades have made 
astonishing gains in what's called human development. As one of the 
report's authors noted, ``The Industrial Revolution was a story of 
perhaps a hundred million people, but this is a story about billions of 
people.''
    Clearly demand for minerals will continue to grow, fueled by these 
fast growing economies. Growing demand presents opportunities and 
challenges for both U.S. mining and the Nation. These trends point to 
enormous growth and job-creation opportunities if U.S. mining is 
allowed to perform to its potential. If we do not and become 
increasingly marginalized, the consequences are severe for our Nation's 
global competitiveness, forcing us to become more reliant upon extended 
and unstable supply chains for what we can produce here.
Permitting Poses a Major Obstacle
    So while the United States has one of the world's greatest mineral 
repositories, our ability to get these minerals into the supply chain 
to help meet more of America's needs is threatened. A major obstacle to 
the U.S.' reaching its potential is the length of time consumed in 
obtaining permits to mine in the United States. Authorities ranging 
from the National Academy of Sciences to the Departments of Energy and 
Defense to international mining consulting firms have identified 
permitting delays as among the most significant risks and impediments 
to mining projects in the United States.\1\
---------------------------------------------------------------------------
    \1\ See National Resources Council, Hardrock Mining on Federal 
Lands, National Academy Press (1999); U.S. Department of Energy, 
Critical Materials Strategy (Dec. 2010); U.S. Geological Survey USGS, 
the Principal Rare Earth Elements Deposits of the United States--A 
Summary of Domestic Deposits and a Global Perspective, (2010); Behre 
Dolbear, Where Not to Invest (2012).
---------------------------------------------------------------------------
    The United States has one of the longest permitting processes in 
the world for mining projects. In fact, the length, complexity and 
uncertainty of the permitting process are the primary reasons investors 
give for not investing is U.S. minerals mining. In the United States, 
necessary government authorizations now take approximately 7 to 10 
years to secure, placing the United States at a competitive 
disadvantage and forcing our economy to become increasingly reliant on 
foreign producers for minerals we can produce domestically. Our 
dependence on foreign minerals has doubled in the past 20 years.
    Despite the Nation's rich mineral endowment, our flawed permitting 
system significantly impedes the ability to attract investment to our 
shores. In 1993, the United States attracted 20 percent of worldwide 
exploration investment dollars. Today, our share has eroded to just 8 
percent. The percentage of global exploration spending the United 
States attracts is critically important since exploration spending is a 
leading indicator of where future development capital will be deployed.
The Permitting Scheme Harms U.S. Manufacturing
    More than the future of domestic mining is at risk from our 
cumbersome and inefficient permitting scheme. Today, less than half of 
the mineral needs of U.S. manufacturing are met from domestically mined 
minerals, a trend that has been building for nearly 30 years and will 
only worsen unless we reform the permitting process responsible for it. 
Our broken permitting process also slows creation of high-wage jobs 
supported by mineral mining.
    As the recent Rand Corporation study, Critical Materials: Present 
Danger to U.S. Manufacturing, warns:

        While the United States has extensive mineral resources and is 
        a leading materials producer, a high percentage of many 
        materials critical to U.S. manufacturing are imported, 
        sometimes from a country that has the dominant share of a 
        material's global production and export. In this situation, 
        U.S. manufacturers are vulnerable to export restrictions that 
        limit their access to these materials and that can result in 
        two-tier pricing, under which domestic manufacturers in the 
        producing country have access to materials at lower prices than 
        those charged for exports, thereby hindering the international 
        competitiveness of U.S. manufacturers and creating pressure to 
        move manufacturing away from the United States and into the 
        producing country. (p. ix)

    The Rand Study also notes a potential ripple effect on U.S. 
innovation:

        The U.S. science and technology base that support manufactured 
        products was built on and depends upon the presence of U.S. 
        manufacturers producing these products from raw and semi-
        finished materials. Prolonged disruption in the supply of raw 
        and semi-finished materials required by these manufacturers 
        could put the science and technology base in jeopardy, which 
        would further reduce U.S. innovation capability and 
        competiveness in the development of new, higher-performance 
        products. (p.1)

    To ease mineral supply constraints on U.S. manufacturers, the study 
indicates the most effective action that can be taken would be to 
encourage diversified production, i.e., the operation of mines in 
several different countries. This diversification should include the 
United States and would be accomplished by encouraging domestic 
production of the resources needed for the manufacturing supply chain 
through modernization of our permitting structure.
The Solution is a Modern Permitting Process
    Similar to the bill passed overwhelmingly by the U.S. House of 
Representatives in the 112th Congress, H.R. 761 carefully addresses the 
deficiencies of our outdated and underperforming permitting system. 
Without changing environmental and other protections afforded by 
current laws and regulations, it provides for efficient, timely and 
thorough permit reviews and incorporates best practices for 
coordination between State and Federal agencies.
    As an example, Canada is a global mining leader that continues to 
take advantage of its efficient permitting system, large pool of junior 
explorers and exploration-focused tax incentives to attract 16 percent 
of all global exploration dollars in 2012. Canada maintains an 
expedient, approximately 2-year, permitting timeline by implementing a 
flexible system that seeks to minimize duplication, uncertainty and 
delays. Canada recognizes mining is a key economic driver. A recent 
Conference Board of Canada report, The Future of Mining in Canada's 
North, anticipates the country's overall metal and non-metallic mineral 
production will grow by 91 percent from 2011 to 2020. Canada recognizes 
long-term global demand for commodities is increasing and is 
positioning itself to take advantage of this opportunity and provide 
minerals for both domestic and global use.
    Further, many of the approaches contained in H.R. 761 are 
comparable to those recently praised by the Government Accountability 
Office as significantly improving the permitting process for wind and 
solar renewable energy projects on Federal lands. The GAO report, 
Renewable Energy: Agencies Have Taken Steps Aimed at Improving the 
Permitting Process for Development on Federal Lands, found that wind 
and solar permitting times at the Bureau of Land Management were 
reduced from 4 years for applications filed in 2006 to 1.5 years for 
applications filed in 2009. Ironically, the same agency that permits 
these alternative energy projects cannot streamline the permitting 
process for mining projects that supply minerals essential for building 
renewable energy infrastructure and technology.
Conclusion
    Using our country's minerals responsibly and efficiently must be a 
bi-partisan priority for strengthening our manufacturing base and the 
jobs it provides. NMA urges Congress to pass H.R. 761 to provide a more 
predictable regulatory environment, one that will attract additional 
investments and allow U.S. mining to build on our positive contribution 
to the U.S. economy and host communities. The legislation will bring 
the United States in line with our competitors for minerals exploration 
and development investments--countries such as Australia and Canada 
that have already modernized their permitting regime. The permitting 
efficiencies set forth in H.R. 761 will allow the United States to 
unlock its full potential. Thank you for the opportunity to testify 
today.
                                 ______
                                 
    Dr. Gosar. Thank you, Mr. Quinn. Mr. McGroarty--hopefully I 
said that right.
    Mr. McGroarty. You did, thank you. Am I being heard? All 
right.

 STATEMENT OF DAN MCGROARTY, PRINCIPAL AND DIRECTOR, AMERICAN 
                    RESOURCES POLICY NETWORK

    Mr. McGroarty. Thanks to the Committee for the opportunity 
to testify today. I am Dan McGroarty, President of American 
Resources Policy Network, a nonprofit think tank and experts 
organization dedicated to informing the public and the ongoing 
policy debate on the importance of developing U.S. minerals and 
metals resources, and reducing America's dangerous dependency 
on foreign sources of supply. I am also an officer and director 
of U.S. Rare Earths, developing rare earths properties in three 
States, with the aim of adding to domestic supply of these 
metals that are so critical to our high-tech and green-tech 
sectors, as well as our advanced military weapons systems.
    The subject before the Subcommittee this morning is key to 
so many of the pressing policy issues before the Congress 
today, whether it is restoring America's manufacturing prowess 
or supporting our high-tech sector and our green-tech 
transition. And, of course, as the last portion of the title 
today suggests, securing America.
    As a significant first step toward aligning our public 
policy with the goals of strengthening our resource sector, I 
want to focus on one of the bills before this Committee and 
this Congress, H.R. 1063, the National Strategic and Critical 
Minerals Policy Act of 2013, introduced by Chairman Lamborn. As 
the bill notes--and I quote--``The United States has vast 
mineral resources, but is becoming increasingly dependent on 
foreign sources.'' The bill buttresses this statement. With 
data on the degree to which the United States is 100 percent 
foreign-dependent on certain metals and minerals, 18 at 
present, triple the number 25 years ago.
    Last year, when my organization did a risk screen for 
metals used in defense applications, we derived a risk pyramid 
with 46 metals on it, China being the single largest provider. 
But when we looked at known resources in the United States, we 
found that the U.S. is home to 40 of the 46 metals and minerals 
on our risk pyramid. In other words, if we are foreign-
dependent for a wide range of hard rock resources, it is a 
dependency that is largely self-inflicted.
    The Lamborn bill takes three steps that would help the 
United States formulate a targeted policy to reduce and, in the 
case of many metals, eventually eliminate our foreign 
dependence.
    First, via Section 4, the bill strengthens our assessment 
capability. We can't begin to reduce our resource dependence if 
we lack current and comprehensive data on the depth of that 
dependence. Because in a world of resource nationalism, foreign 
dependence for critical metals can be used as leverage, 
commercial, but also strategic, that can induce economic shock 
to the American system.
    The second key section in the Lamborn legislation is 
eliminating needless duplication in the mine permitting 
process, a process that today, in the leading independent 
study, earns the United States the worst in the world ranking, 
tied for last with Papua New Guinea, with an average mine 
permitting process in the United States taking 7 to 10 years. 
And this metric is getting worse, not better.
    Just 4 years ago in 2009, the same study found the U.S. 
process took an average of 5 to 7 years. Little wonder why. One 
day the DOD releases a study showing 23 metals and minerals in 
potential shortfall, and the DOE declares a dozen minerals 
critical to green-tech and clean energy transition, but at the 
very same time the U.S. EPA moves to stop a proposed American 
copper mine, a metal whose short supply DOD tells us has 
already caused a significant weapons system delay, before the 
permitting process has even begun.
    With so many mixed signals coming from the Federal 
Government, let's ask ourselves if you were an American 
manufacturer, dependent on metals and minerals engineered into 
your products, could you risk waiting for a reliable source of 
American supply? Or would you build your new facility where the 
metals are? In China perhaps, exporting jobs and intellectual 
property, sacrificing GDP, and feeding a negative balance of 
trade as we buy back products that could have been, that should 
have been, made here in America? We need to recognize that Made 
in America often begins with Mined in America. And the Lamborn 
bill puts us back on that track.
    The final feature in H.R. 1063 that I would like to focus 
on today is the call for a national mineral assessment updated 
at 2-year intervals. Critical metals are technology-dependent. 
As technology evolves over time, so too will our tool kit of 
critical metals. In Roman times sodium chloride, salt, was a 
critical mineral essential to preserving food for armies on the 
march. In our Moore's Law world, as technology cycles are 
measured in months, not years, we must constantly update our 
understanding of what metals and minerals deserve to be called 
critical.
    The Lamborn bill is a solid test of our seriousness on this 
issue. If enacted, it would provide the fact base for a data-
driven assessment of the obstacles that stand between us and a 
greater degree of resource independence. Thank you.
    [The prepared statement of Mr. McGroarty follows:]
 Prepared Statement of Daniel McGroarty, President, American Resources 
                      Policy Network, on H.R. 1063
    Chairman Lamborn, my thanks to you and your colleagues on the House 
Subcommittee on Energy and Mineral Resources for the opportunity to 
testify today. I am Daniel McGroarty, President of the American 
Resource Policy Network, a non-profit think tank and experts 
organization dedicated to informing the public--and the ongoing policy 
debate--on the importance of developing U.S. mineral and metals 
resources--and reducing America's dangerous dependency on foreign 
sources of supply.
    I am also an officer and director of U.S. Rare Earths, a publicly-
held company currently developing Rare Earths properties in three 
States, with the aim of adding to the domestic supply of metals 
critical to our high-tech and green-tech sectors, as well as the U.S. 
military's advanced defense systems. The subject before this sub-
committee this morning--America's Mineral Resources: Creating Mining & 
Manufacturing Jobs and Securing America--is critical to so many of the 
pressing policy issues before the Congress today, whether it's the 
restoration of American manufacturing prowess, or restoring our economy 
to sustainable growth, or supporting our high-tech sector and our 
green-tech transition--and of course, as the last portion of our title 
today suggests: ``Securing America.''
    As a significant first step toward aligning our public policy with 
the goal of strengthening our resource sector, I want to focus on one 
of the bills before this Committee and this Congress: H.R. 1063, the 
``National Strategic and Critical Minerals Policy Act of 2013,'' 
introduced by Chairman Lamborn.
    As the bill notes--and I quote--``the United States has vast 
mineral resources but is becoming increasingly dependent on foreign 
sources.'' The bill buttresses this statement with data on the degree 
to which the United States is 100 percent foreign-dependent on certain 
metals and minerals--18 at present--up from 6--25 years ago. Last year, 
when my organization, American Resources, did a risk screen for metals 
and minerals used in defense applications, we derived a ``risk 
pyramid,'' with 46 metals on it--with China being the single largest 
supplier. But as we looked further at known resources located in the 
United States, we found that the United States is home to resources for 
40 of the 46 metals and minerals on our risk pyramid.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    .epsIn other words, if we are foreign-dependent for a wide range of 
hard rock resources, it is a dependency that is largely self-inflicted.
    As I see it, the Lamborn bill takes three steps that would help the 
United States formulate a targeted policy to reduce--and in the case of 
many metals, eventually eliminate--our foreign dependence.
    First--via Section 4--the bill strengthens our assessment 
capability. We can't begin to systematically address our resource 
dependence if we lack current, comprehensive data on the depth of that 
dependence. And that assessment, in turn, requires solid data on the 
extent to which potential resources might be found on Federal lands--
including lands withdrawn from mineral exploration and development--as 
well as the uses to which various metals are put across our economy and 
in our defense sector--and finally, a review of our current foreign 
suppliers, with an assessment of the likelihood of shortfalls or supply 
disruptions. Because in a world of resource nationalism, foreign 
dependence for critical metals can be used as leverage--commercial, but 
also military--that can induce economic shock to the American system.
    And yet even before the U.S. Government begins collecting data, the 
agencies involved must begin by sorting through a half-dozen 
conflicting definitions of critical and strategic metals--one so tight 
that it produced a single strategic metal to the exclusion of all 
others--and some so vague that the entire Periodic Table might be 
eligible for inclusion.
    The second key section in the Lamborn legislation concerns 
eliminating needless duplication in the mine permitting process--a 
process that today, in the leading independent study, earns the United 
States worst-in-the-world ranking, tied for last with Papua New Guinea, 
with the average mine permitting process in the United States taking 7-
10 years. And this metric is getting worse, not better: Just 4 years 
ago, in 2009, the same study found the U.S. process took an average of 
5 to 7 years.
    And little wonder why. One day, the DOD releases a study showing 23 
metals and minerals in potential shortfall, while the DOE declares a 
dozen minerals critical to the green-tech and clean-energy transition. 
But at the very same time the U.S. EPA moves to stop a proposed 
American copper mine--a metal whose short supply, DOD tells us, has 
already caused ``a significant weapon system production delay''--before 
the permitting process has even begun.
    So with so many mixed signals coming from the Federal Government, 
let's ask ourselves: If you were an American manufacturer, dependent on 
metals and minerals engineered into your products, could you risk 
waiting for a reliable source of American supply? Or would you build 
your new facility where the metals are--in China, perhaps--exporting 
jobs and Intellectual Property, sacrificing GDP and feeding a negative 
balance of trade as we buy back products that could have been, should 
have been, made here in America?
    Mr. Chairman, we need to recognize that Made in America often 
begins with Mined in America. The Lamborn bill puts us back on that 
track.
    The third feature in H.R. 1063 that I want to mention today is the 
requirement for a National Mineral Assessment, updated at 2-year 
intervals. Critical metals are technology-dependent; and as technology 
evolves over time, so too will our tool-kit of critical metals. In 
Roman times, sodium chloride--salt--was a critical mineral, essential 
to preserving food for armies on the move. In Adam Smith's time, he 
classed gunpowder and sailcloth as critical materials, and the father 
of free-market theory warned Britain against being dependent on foreign 
sources of supply. In our Moore's Law world, as technology cycles are 
measured in months, not years, we will need to constantly update our 
understanding of what metals and minerals deserve to be called 
critical.
    The Lamborn bill is a solid test of our seriousness on this issue. 
If enacted, it would provide the fact-base for a data-driven assessment 
of our domestic resource potential, our vulnerability to foreign 
supply, and the obstacles that stand between us and a greater degree of 
resource independence.
    I commend the Chairman for his leadership on the critical issue of 
critical metals, and for the Committee's focus today on the various 
bills that are the focus of this hearing. America has the good fortune 
to be a resource-rich nation. Sound policy can help ensure that our 
resources will be used to support our economic strength and our 
national security--and reduce the dangers of resource dependence in our 
uncertain world.
    Thank you.
                                 ______
                                 
    Mr. Lamborn [presiding]. Well, thank you for your 
excellent, excellent testimony.
    [Laughter.]
    Mr. Lamborn. I would like to now hear from Mr. Hohn, 
please.

STATEMENT OF MIKE HOHN, GENERAL MANAGER, SODA ASH BUSINESS OCI 
                      CHEMICAL CORPORATION

    Mr. Hohn. Chairman Lamborn and members of the Committee, my 
name is Mike Hohn, and I am the General Manager of Soda Ash 
Business for OCI Chemical Corporation. I am here today on 
behalf of the U.S. Soda Ash industry, and I thank you for the 
opportunity to testify on this vital legislation for our 
industry.
    The U.S. soda ash industry contributes some $1 billion net 
positive to the U.S. balance of trade annually, and is the 
single largest inorganic chemical export from the United 
States. Soda ash is produced by one of two methods: the natural 
method used in the United States; and through synthetic 
processes elsewhere in the world, and primarily in China.
    The cleaner, natural method only accounts for 25 percent of 
the global soda ash production. The American Soda Ash 
Competitiveness Act will lead to the growth of jobs at U.S. 
soda ash facilities, the growth of jobs in the transportation 
sector that supports the U.S. industry, and the growth of jobs 
at the ports that support growing exports, including the ports 
in Portland, Oregon; Long Beach, California; and Port Arthur, 
Texas.
    During the recent economic downturn, when a similar royalty 
reduction was in place, the U.S. soda ash facilities 
experienced the addition of about 100 jobs in the United 
States. Now, while that may not seems significant, it certainly 
beats the 1,000-plus jobs that the industry lost in the period 
from 1996 to 2006, when the royalty rate was 6 percent, which 
is the current Federal royalty rate.
    It should be noted that these are high-paying jobs in a 
very rural community, with an average wage roughly six times 
higher than the U.S. minimum wage. We have already witnessed 
significant market downturn over the last year that is similar 
to what the industry was facing in the late 1990s, and we do 
not want to risk a full-blown return to those conditions.
    OCI is one of 4 companies that produce about 90 percent of 
the world's natural soda ash in Sweetwater County, Wyoming. The 
remainder is produced in Trona, California. U.S. soda ash 
producers, on average, emit about three times less greenhouse 
gas emissions and three times less energy consumed than the 
synthetic soda ash plants in the rest of the world. Export 
growth is essential to job growth in the U.S. soda ash 
industry. One of every two jobs in the U.S. soda ash is 
directly attributable to exports.
    Therefore, policies which help to grow exports will mean a 
growth in U.S. jobs. We believe the Soda Ash Competitiveness 
Act will accelerate this job growth. Exports increased by some 
11.7 percent in the period during which the 2 percent royalty 
was in effect, 2006 to 2011. U.S. soda ash exports also rose by 
more than 1 million tons in the same period. Thus, the 2 
percent rate resulted in the sort of jobs and export growth 
consistent with the President's national export initiative.
    Now, during that period, the U.S. soda ash industry 
increased investment in the local community and U.S. soda ash 
facilities through increased capital investments, which led to 
increased economic activity in the communities in which we 
operate.
    In our current environment, we believe that U.S. soda ash 
jobs are at risk to Chinese expansion, export, and pricing 
practices. Chinese soda ash production is now the largest in 
the world, and they are currently engaged in a price war for 
valuable export business in Asia, Africa, and South America. In 
the decade of the 1990s, China went from importing over 1 
million tons of soda ash per year to becoming a 1 million-ton 
net exporter. By 2000, China had become the world's largest 
producer of soda ash, though not the most efficient. 
Maintaining our competitiveness is important, as we compete 
with state-owned Chinese producers.
    Mr. Chairman, we hear a lot of discussion about how 
Congress can help U.S. manufacturing to restore jobs and 
economic growth, i.e. to recapture our economic swagger. As an 
industry, we were encouraged by the President's State of the 
Union Address when he referenced climate change and the need to 
do something. He also indicated he wants to increase job growth 
through exports. The U.S. soda ash industry provides a unique 
opportunity to accomplish both of these goals. Our industry has 
proven that it will increase jobs by increasing exports.
    And by increasing the U.S. industry's market share, we will 
also be reducing greenhouse gases. Because the U.S. soda ash 
industry uses a natural method of producing soda ash, the U.S. 
industry uses roughly, again, three times less energy and emits 
three times less greenhouse gases than our Chinese competitors 
relying the synthetic method for production.
    Make no mistake. Throughout history, soda ash is required 
to produce glass, for autos, homes, and bottles, containers, as 
well as detergents and chemicals that are demanded by an 
emerging middle class. The demand for soda ash will be met in 
some way. This Committee has the opportunity to reduce global 
greenhouse gases and increase jobs by investing in the U.S. 
soda ash industry.
    We would suggest the bill before you has already proved 
successful in doing so for one important sector of our economy. 
We believe the 2 percent rate should be reinstated.
    Thank you for your consideration of our views. I would be 
pleased to take any questions from the Committee.
    [The prepared statement of Mr. Hohn follows:]
Prepared Statement of Mike Hohn, General Manager, Soda Ash Business OCI 
                   Chemical Corporation, on H.R. 957
    Chairman Lamborn and Ranking Member Holt, I would like to thank you 
for the opportunity to testify on H.R. 957, the ``American Soda Ash 
Competitiveness Act.'' I am the General Manager, Soda Ash Business for 
OCI Chemical Corporation, and I am here today on behalf of the U.S. 
Soda Ash industry. I am pleased to report that the soda ash mined and 
processed on Federal lands contributes nearly $1 billion annually to 
our balance of trade, $20 million in Federal royalties, and some 3,000 
direct jobs.
    Up until October of 2011 when the BLM raised our royalty from 2 
percent to 6 percent, our industry was experiencing job growth, and 
there were plans for expansion, despite the economy still suffering 
from the worst recession in decades. Enactment of H.R. 957 is important 
to insuring that we remain a strong American employer and exporter in 
the years ahead. It means the industry will continue to pay our fair 
share for the privilege of mining on Federal lands, while creating the 
conditions for positive economic growth that are in all of our best 
interests.
    From the recent experience of the 2006 Soda Ash Royalty Reduction 
Act, we know that a 2 percent, as opposed to 6 percent Federal royalty 
rate, can have positive impacts:

    <bullet>  First, it will lead to robust export growth consistent 
with the President's National Export Initiative (NEI).
    <bullet>  Second, it will lead to expanded domestic manufacturing 
capacity and jobs growth; and
    <bullet>  Third, it will result in an increase, rather than a 
decrease, in Federal royalty revenues by spurring development of the 
resource.

    Mr. Chairman, the 2006 act was enacted by Congress out of a 
recognition that global economic conditions, specifically the emergence 
of stiff Chinese competition, was eroding America's natural soda ash 
advantage. We need to continue the positive trajectory that Act created 
for this important domestic manufacturing sector by enacting H.R. 957.
    Indeed, our continued competitiveness in world markets is far from 
certain, in fact over the last year since the royalty increase has been 
in effect, the industry has seen a steady decline in our total exports. 
This reality was well recognized by Congress in 2006, when it enacted 
the Soda Ash Royalty Relief Act, which reestablished a 2 percent 
royalty on every ton of soda ash produced. In October 2011, the BLM saw 
fit to raise the rate to 6 percent. We believe this rate increase is 
not only counterproductive to increasing Federal revenues from soda ash 
production, but threatens our industry's exports and jobs growth.
    Let me briefly revisit the global conditions that caused Congress 
to set the rate at 2 percent in 2006. In the 15 years between 1982 and 
1997, our domestic soda ash industry enjoyed a steady and significant 
growth in exports. But after 1997, our export growth slowed 
dramatically. By 2003, our U.S. exports were only 4 percent above their 
1997 levels. This rapid decline in export growth resulted from a sudden 
and dramatic change in global competition. In the brief span of the 
decade of the 1990s, China went from importing over 1 million tons of 
soda ash per year to becoming a 2 million ton net exporter. By 2000, 
China had become the world's largest producer of soda ash, though 
hardly the most efficient. A growing number of state owned Chinese 
producers making soda ash from a more energy intensive and more 
greenhouse gas generating synthetic process flooded international 
markets with lower priced material aided by an export VAT rebate 
incentive. Not only were these exports responsible for a greater carbon 
footprint, they were also hurting our cleaner, more efficient American 
natural soda ash producers in growing markets, particularly those in 
Asia and South America.
    Faced with this state owned competition, we identified innovative 
ways to reduce spiraling structural costs, and the increasing prices we 
paid for energy and transportation. However, as our export growth 
slowed in the early part of the last decade we also had to reduce 
employment. To remain globally competitive, we regrettably shed almost 
1,000 jobs as an industry. Mr. Chairman, this was not a preferred 
option. It was in this context that we decided to ask the Congress to 
consider that the royalty we pay on each ton of soda ash be assessed at 
2 percent as called for originally in the underlying Minerals Leasing 
Act.
    Mr. Chairman, in 2006, just as today, our low cost natural soda ash 
production process when allowed to compete fairly on a level playing 
field can beat any other producer in the world. In sum, then as now, if 
conditions are equal, we know we can compete with any other global 
producer. We can mine the vast underground trona ore reserves in 
Wyoming or in lakebeds in California, and bring this raw material to be 
processed into soda ash. We can then ship it by rail to Long Beach, 
California, Portland Oregon, or Port Arthur, Texas, and deliver it to 
any Asian or South American port and effectively compete for our fair 
share of global business against the Chinese.
    Mr. Chairman, as a result of the action Congress took in 2006, our 
industry came out of its downward spiral and experienced sustained 
growth driven by our ability to again grow exports. Despite a global 
recession and a continuing slow recovery, the American Natural Soda Ash 
industry did not lose jobs during the recent recession, and in fact 
added almost 100 new jobs in 2010. To put this in perspective, one out 
of every two jobs in our U.S. soda ash industry is now the direct 
result of exports. U.S. soda ash exports had risen by more than 1 
million tons since enactment of the soda ash royalty legislation. As 
Mr. Robert Abbey, former Director Bureau of Land Management, stated in 
his Senate testimony on August 3, 2011, exports increased by some 11.7 
percent in the 5-year period during which the 2006 Act was in place. It 
thus puzzled us as to why the BLM saw fit to immediately reinstate the 
6 percent rate when the 2006 Act expired in October.
    Very simply, the 2006 Act allowed us to grow exports in large part 
because we could reinvest in our business at higher rates. During the 5 
years this Act was in effect, we reinvested in our businesses at rates 
well above those before its passage. In 2005, the year before the 
royalty was enacted; the U.S. soda ash industry spent some $88 million 
in capital improvements. In 2006, the year after passage, and with the 
predictability of a stable 2 percent royalty, the U.S. soda ash 
industry nearly doubled its rate of investment in our future, spending 
over $158 million dollars to expand capacity and make needed 
improvements.
    However, Mr. Chairman since the BLM reinstated the 6 percent 
royalty, the industry is headed towards a bleaker future similar to the 
circumstances in place in the early 2000s. Across the industry, jobs 
are going unfilled, planned expansions are being put on hold, and our 
exports have fallen off significantly. While the BLM had indicated that 
they would entertain individual lease-by-lease application for waivers 
of their 6 percent royalty, nothing in their 100-page guidance document 
addresses export growth. When we attempted as an industry last year to 
submit a streamlined application for relief that was based upon 
maximization of production on Federal lands, we were denied. We would 
be pleased to make our application available to the Committee for its 
review.
    Thus, Mr. Chairman, we again turn to Congress to restore the 2 
percent royalty rate by enacting H.R. 957. In sum, soda ash production 
represents hardcore U.S. manufacturing at its best. We hear every day 
how American manufacturing jobs are disappearing and we have a 
shrinking middle class. The production of soda ash from U.S. natural 
resources in Wyoming and California is done by skilled workers with an 
average salary of about $85,000 per year in very small, rural 
communities. Growing U.S. soda ash exports will increase the number of 
those jobs. Moreover, it will help grow revenues at Treasury. When the 
Congressional Budget Office (CBO) produced cost estimates for 
legislation implementing the 2006 royalty reduction, it concluded that 
the Government would lose $15 million in direct spending and $15 
million in payments to States in which the royalties were generated. In 
actuality, over the 5-year period, royalties tallied over $85 million 
because of the increased production the royalty reduction helped to 
generate.
    Mr. Chairman, we hear a lot of discussion about how Congress can 
help U.S. manufacturing to restore jobs and economic growth; i.e., to 
recapture our economic swagger. As an industry, we were encouraged by 
the President's State of the Union address when he referenced climate 
change and the need to do something. He also indicated he wants to 
increase job growth through exports. The U.S. Soda Ash industry 
provides a unique opportunity to accomplish both of these goals. Our 
industry has proven that it will increase jobs by increasing exports, 
and by increasing the U.S. industry's market share we will also be 
reducing greenhouse gases. Because the U.S. soda ash industry uses a 
natural method of producing soda ash, the U.S. industry uses roughly 
three times less energy and emits three times less greenhouse gases 
than our Chinese competitors relying on the synthetic method for 
production. Make no mistake, throughout history; soda ash has been 
produced to supply the glass (glass for autos, homes and bottles) as 
well as detergents and chemicals that are required by emerging markets 
to grow. The demand for soda ash will be met in some way. This 
Committee has the opportunity to reduce global greenhouse gases and 
increase jobs by supporting the U.S. Soda Ash industry. We would 
suggest the bill before you has already proved successful in doing so 
for one important sector of our economy. We believe the 2 percent rate 
should be reinstated. Thank you for your consideration of our views. I 
would be pleased to take any questions from the Committee.
                                 ______
                                 
    Dr. Gosar [presiding]. Thank you very, very much.
    Now, Mr. Neatby.

     STATEMENT OF PIERRE NEATBY, VICE PRESIDENT, SALES AND 
                 MARKETING, AVALON RARE METALS

    Mr. Neatby. Thank you very much, Mr. Chairman. My name is 
Pierre Neatby, and I am Vice President of Sales and Marketing 
for Avalon Rare Metals, Inc. I will briefly describe Avalon and 
then provide some comments in support of bill H.R. 981.
    Avalon Rare Metals is a Canadian-headquartered mineral 
development company publicly traded in New York and Toronto. 
Our flagship project is the Nechalacho Rare Earth Deposit at 
Thor Lake, Northwest Territories, Canada, that contains 25 
percent heavy rare earths, which are the truly rare rare 
earths, and our project plan is to mine and do initial 
processing in the Northwest Territories and further refine the 
rare earths in Geismar, Louisiana, in the United States.
    H.R. 981 proposes to fund a study of current and future 
rare earth deposits and an analysis of the rare earth supply 
chain. I believe the focus of the bill should be on the 
analysis of the supply chain. There are hundreds of deposits 
that have been identified around the world. But the biggest 
issue facing our industry is the processing of rare earths and 
the production of downstream products that can be used as 
inputs into final products.
    Why are rare earths important? They are important for jobs 
and economic growth. They play a vital role in a multitude of 
applications, many in the clean energy sector. These includes 
motors for electric and hybrid vehicles, generators for wind 
turbines, solar panel systems, and phosphors for energy-
efficient lighting. We believe the next few years will be 
critical for the development of the clean energy sector.
    I have highlighted clean energy applications of rare earth, 
but other very significant end-use applications include smart 
phones, oil refining catalysts, MRI machines, and various 
military uses that are also growing.
    Rare earth demand is expected to grow at a rate of 7 to 12 
percent per year to the year 2020. This demand needs a secure 
supply chain outside China, if the demand is going to grow 
outside China, and specifically to determine if the new jobs 
stemming from this growth are going to be here in the United 
States and other western countries, or in China.
    So, China produces over 95 percent of the world's rare 
earth elements, and China has recently been implementing a 
range of policies to control its domestic rare earth industry: 
consolidation of ownership, restriction of foreign ownership, 
export taxes, export quotas, environmental regulations, 
limiting illegal mining, and price controls. The outcome of 
these policies has been the ability to restrict exports and 
increase prices outside China. China limited exports in 2010, 
and this caused prices to increase dramatically in 2011. China 
is in a better position today to restrict exports and 
manipulate prices outside China than it was in 2010.
    The supply chain includes mining, processing, separation, 
metal and alloy production, and manufacturing of products sold 
to end users. We would like to add recycling and the human 
resource aspect to the supply chain. Recycling makes the supply 
chain more efficient and less costly to the end user. This is 
important for competitiveness. Human resources are the people 
that bring know-how to the supply chain: geologists, engineers, 
technicians, operators, and researchers.
    Growth can't take place if there is no expertise in the 
processing and use of rare earths. This is where universities, 
colleges, and government can take a key role in our industry, 
possibly in conjunction with an industry association, such as 
the new Rare Earth Technology Alliance, right here in 
Washington. China has hundreds and hundreds of scientists 
dedicated to rare earths, and have rare earth courses in 
universities. If North America is going to develop its rare 
earth infrastructure, it needs educated people specializing in 
rare earths.
    In conclusion, many growth industries depend on rare 
earths, and China will continue to be the dominant supplier, 
not only in mining, but also in processing and manufacturing of 
final products. China wants the downstream for manufacturing, 
because that is where the jobs are. We need action now to stem 
the flow of jobs going to China. Thank you very much.
    [The prepared statement of Mr. Neatby follows:]
   Prepared Statement of Pierre Neatby, Vice President for Sales and 
 Marketing, Avalon Rare Metals Inc., on H.R. 1063, H.R. 761, and H.R. 
                                  981
    Avalon Rare Metals Inc. is Canadian headquartered mineral 
development company, publicly traded in Toronto and New York, with a 
primary focus on the rare metals and minerals in North America. 
Americans comprise a high proportion of our current shareholders.
    Our flagship project, the 100-percent-owned Nechalacho Rare Earth 
Element Deposit, Thor Lake, Northwest Territories, Canada is one of the 
largest undeveloped rare earth elements resources in the world. Its 
exceptional enrichment in the more valuable Heavy Rare Earth Elements 
(HREEs) is key to enabling advances in clean energy technologies, 
national defense and other growing high-tech applications. Nechalacho 
is one of the few potential sources of these critical elements outside 
of China, currently the source of over 95 percent of the world supply.
    Avalon is well funded to complete its Feasibility Study (expected 
in Q2 2013) and has no debt. Our project includes a mine and processing 
facility in the Northwest Territories of Canada and plans for a 
refinery in Geismar, Louisiana. This project will cost over $1.2 
billion to build. It is one of very few projects outside China to be at 
the final Feasibility stage, the last stage before full project 
financing is secured and construction begins.
    Avalon also explores for and owns other rare metals and minerals 
project in Canada and the United States, of which two are at advanced 
stages of development: Separation Rapids (lithium) in Ontario, and East 
Kemptville, Nova Scotia, a tin-indium-gallium-germanium project where 
large inferred resources have been identified requiring further 
drilling to bring the project to the pre-feasibility stage.
    Avalon is proud to be a charter member of the Rare Earths 
Technology Alliance (RETA), a Washington, DC-based international 
industry association (non-lobbyist) whose membership includes producers 
and users of rare earths and also includes academic institutions 
engaged in rare earths research and development. RETA's primary goal is 
to promote the development of the rare earth industry through 
education, market development and dealing with common issues facing the 
industry. It is in that spirit of education and insight into this 
emerging industry, in recognition of the U.S.-Canada trade 
relationship, and in support of clean technologies and their 
contribution to future growth economies that we appear before the 
committee today to support the RARE Act of 2013.
Rare Earths--Jobs and Economic Growth
    According to the Industrial Minerals Corporation of Australia 
(IMCOA), an Australian-based authority on the rare earth market, rare 
earth demand is expected to grow at a rate of 7-12 percent per year to 
2020. Rare earths are used in a multitude of applications, many in the 
clean energy sector. These include electric and hybrid vehicles, wind 
turbines, solar panels, and energy-efficient lighting. The next few 
years will be crucial to the clean energy sector as it develops. Rare 
earth magnets and phosphors are key building blocks for companies 
developing these technologies and they need access to a competitive and 
secure rare earth supply chain to prosper.
    Other end use applications include smart phones, oil refining 
catalysts, MRI machines, other medical diagnostics and treatments, and 
various military applications. Demand outside China is expected to grow 
from 35,000 tonnes in 2012 to 55,000 tonnes in 2016. This increase in 
demand assumes that export quotas from China will remain around 30,000 
tonnes and that no new export restrictions on rare earths are imposed 
so that rare earth consuming industries outside China will be allowed 
to grow.
China's Dominance--Threat to Jobs in the U.S. and North America.
    Today, China produces over 95 percent of the world's rare earth 
elements, even as new sources are being developed in other countries, 
including the United States, Canada, and Australia. However, China has 
been implementing a range of policies to control its domestic rare 
earth industry: reducing the number of companies involved in the 
extraction and processing of rare earths, imposing limits on foreign 
ownership in the rare earth sector, imposing export taxes, export 
quotas, curbing illegal mining, implementing and enforcing strict 
environmental regulations, and attempting to set prices. The outcome of 
these policies is reduced availability of rare earths outside China, 
higher prices and potentially greater price volatility outside China 
and the threat of further export restrictions, which ultimately create 
the potential for severe supply shortages. While we currently see 
relatively low rare earth prices, our interest is that when they spike 
again, the United States and North America should not be impacted as 
much as we have been. Industry experts believe export restrictions, 
specifically on the scarce heavy rare earths, are likely in the coming 
years. Western companies are essentially being forced to set up 
manufacturing inside China, which puts at risk their intellectual 
property and eliminates jobs in countries like the United States. This 
is troublesome not only for Avalon, but other companies along the 
supply chain and should remain a major security concern for western 
governments.
The Importance of the Secure Supply Chain
    Avalon is pleased to see the introduction of the RARE Act of 2013 
with its focus on conducting global census of the identity and 
availability of rare earths elements and an analysis of the supply 
chain. We believe that the results of this proposed undertaking will 
better inform industry participants and end-users on how all parties 
can work collaboratively to offset actions by a single monopolistic 
supplier (i.e., China) that can disrupt pricing, availability, and 
security of supply. Given the wide variety of applications of rare 
earths in many critical sectors such as clean energy, defense and 
national security, we believe this type of assessment and analysis is 
more important than ever before.
    I believe that the U.S. Geological Service (USGS) and U.S.-based 
experts like Technology Metal Research (TMR), have endeavored to 
identify the hundreds of potential rare earth deposits outside China. 
(For example TMR currently tracks the development of over 440 projects 
in 37 countries and closely follows some 46 projects it defines as 
`advanced' in 14 countries). These projects will generally only produce 
mixed concentrates or possibly separated rare earth oxides, with very 
few projects pursuing the further value-added processing of such into 
phosphors, metals, alloys, magnets or motors which are essentially the 
products that consumers need. China's strategy has been to fulfill the 
needs of the full downstream processing supply chain and end products, 
generating more profits and, more importantly, creating more high 
skilled labor and greater job opportunities in China.
    One suggested addition to H.R. 981 is to include recycling and 
human resources to the discussion about fulfilling the rare earth 
supply chain. Recycling is the key to an efficient use of resources in 
the rare earth supply chain to achieve low cost manufacturing. A 
diverse range of people (e.g. geologists; metallurgical, chemical, 
process engineers and technicians; business people, operators, 
researchers) are required to establish, maintain and improve a supply 
chain outside China.
    It is not enough to establish mines and processing plants outside 
China. End consumers want reliable, long term, price competitive supply 
chains. Currently, some companies are specifying inferior solutions for 
certain applications due to fears of high prices or fear of lack of 
availability of neodymium and dysprosium (e.g. substituting ferrite and 
other magnets where rare earth magnets increase performance). This 
strategy is highly detrimental to longer term business and domestic 
economic development. Using less efficient inputs (such as ferrite 
magnets rather than rare earth magnets) in certain applications could 
lead to loss of competitiveness and replacement by most probably 
foreign-based suppliers, that can build more efficient products using 
superior raw materials.
    The supply chain analysis that H.R. 981 would provide will help 
government and industry determine where the most sensitive and cost 
effective investment should take place and highlight the importance of 
investment at all levels of the supply chain to be able to effectively 
offer a secure alternative to China.
Corporate Social Responsibility
    Social responsibility and environmental stewardship are corporate 
cornerstones for Avalon. Avalon believes that environmental, economic 
and social responsibility are integral to the upstream and downstream 
activities used to create these critical materials; from exploration 
and development to production. In 2010, Avalon was recognized by the 
Prospectors and Developers Association of Canada with its award for 
Environmental & Social Responsibility. Avalon is also one of only a 
very few junior resource companies in the world to have published a 
comprehensive Sustainability Report, prepared to the Global Reporting 
Initiative standard, in which Avalon fully discloses its policies and 
practices on social and environmental responsibility, including its 
performance against specific targets.
Permitting
    The permitting and environmental assessment process is different 
across the world, and is dependent upon the national and local 
jurisdictions in which the deposit and or operating facilities are to 
be established. Avalon's Nechalacho deposit is located in the Northwest 
Territories and is regulated under the Mackenzie Valley Resource 
Management Act. Avalon is nearing completion of the Environmental 
Assessment for the project, a critical step in the permitting process, 
and has already established strong community relationships with local 
Aboriginal groups where Avalon is considered an industry leader in best 
practice. In Geismar, Louisiana Avalon has an option on a property 
where permitting for a separation plant was initiated in December 2012 
and is expected to be completed by the end of 2013.
                                 ______
                                 
    Dr. Gosar. Thank you very much.
    Our next witness is Chairman Terry Rambler.

 STATEMENT OF TERRY RAMBLER, CHAIRMAN, SAN CARLOS APACHE TRIBE

    Mr. Rambler. Can you hear me? OK. Good morning, Chairman 
Lamborn, Ranking Member Holt, and members of the Subcommittee. 
My name is Terry Rambler, I am the Chairman of the San Carlos 
Apache Tribe, and President of the Inter-Tribal Council of 
Arizona. On behalf of my Tribe and ITCA, thank you for this 
opportunity to testify.
    Joining me today are San Carlos Apache Councilman Windsor 
Nosy, Sr., tribal leaders, local elected officials from 
communities directly impacted by this bill, and representatives 
from different organizations throughout the country. I would 
like for all of them to stand. Thank you. This group is diverse 
and growing. And it also includes Tribes and tribal 
organizations nationwide. We bring our united front in strong 
opposition to H.R. 687.
    We strongly oppose this bill and the land transfer it 
mandates for three reasons: one, it will destroy our sacred 
areas; two, it will deplete and contaminate the region's 
already overdrawn water supply; and three, it is a bad deal for 
the American taxpayer. H.R. 687 would transfer 2,422 acres of 
our sacred land, known as Oak Flat in the Tonto National 
Forest, to Resolution Copper to develop a massive copper mine. 
Oak Flat is one of our holy places, where spiritual deities 
reside. Just as a church is a place of worship to Christians 
and the Vatican is a holy place to Catholics, Oak Flat is the 
equivalent for Apaches, Yavapais, and others. My people have 
always gone to Oak Flat to pray, to gather ceremonial items, to 
seek peace, and to conduct ceremonial dances of our ancestors, 
such as the sunrise dance that celebrates a young woman coming 
of age. You can see some of those.
    I have a map here that shows the Oak Flat in relation to 
our Reservation. As you can see, the forest borders our 
Reservation, and Oak Flat is just 15 miles away. These lands 
are our aboriginal homelands. I have a second map here that 
shows Oak Flat and the forest outlined in red. The black 
outline shows land withdrawn from mining by President 
Eisenhower's public land order, which protected this area. 
Federal laws and policies require meaningful consultation with 
Tribes before Federal action. However, once Oak Flat is held in 
private ownership, as this bill directs, these Federal 
protections will disappear and the sacred area will be 
destroyed without our input.
    Resolution Copper plans to use the block cave method to 
extract the copper ore body underneath Oak Flat because it is 
far cheaper than other methods. However, the process is also 
more destructive to the land. The diagram here depicts the 
block cave mining process. The company would dig a tunnel 7,000 
feet down and then dig a horizontal tunnel to extract 1 cubic 
mile of ore. It will take 1,400 Cowboy Stadiums to hold 1 cubic 
mile of ore. The next diagram shows what happens next. The 
surface will eventually collapse, and the area will become an 
open pit about 2 miles in diameter. Like a crater, the pit will 
be visible from outer space.
    Our second major concern is the loss of water in the 
region, and our water rights. One of the primary purposes for 
establishing the Tonto National Forest in 1905 was to protect 
the watersheds and the quality of the water. H.R. 687 
undermines these purposes because this project will require at 
least 20,000 acre-feet of water annually to keep the mine from 
flooding. To put that in perspective, that amounts to the 
annual life water supply for 180,000 Arizona citizens. 
According to a recent study, this massive groundwater pumping 
would be unsustainable, harmful to the region's water supply, 
and threatens surface water resources and riparian habitats.
    Here is a picture of a perennial spring at Oak Flat. Mining 
here will contaminate and dry up this spring and other water 
resources at Oak Flat. Here is another picture of the Oak Flat 
area, an ancient oak tree that has nourished us for centuries 
with its acorns. It takes a century to produce the first acorn 
from these trees. These trees will be destroyed when the land 
collapses.
    My final point is that at a time when all Americans are 
being asked to tighten our belts, this bill will result in a 
giveaway of American wealth to a foreign-owned mining company. 
The appraisal requirements included in H.R. 687 do not insure 
that the public will receive fair value. As a result, the 
American taxpayer stands to receive only a small fraction of 
what the Federal minerals are worth.
    In closing, the Federal Government should continue to be 
stewards of this land to sustain the well-being of my people. 
Our people dance and pray at Oak Flat, just as our ancestors 
did. I ask for your help to ensure that our children and theirs 
will be able to do the same, well into the future.
    Again, thank you for this opportunity. [Speaks in Apache.] 
What I said to you was, ``May God watch over you and give you 
guidance.'' Thank you.
    [The prepared statement of Mr. Rambler follows:]
Prepared Statement of Terry Rambler, Chairman, San Carlos Apache Tribe, 
                              on H.R. 687
    My name is Terry Rambler. I am the Chairman of the San Carlos 
Apache Tribe (``Tribe''), representing 15,000 tribal members. The San 
Carlos Apache Reservation (``Reservation'') is located within part of 
our aboriginal territory, and spans 1.8 million acres in southeastern 
Arizona. I am also President of the Inter Tribal Council of Arizona 
(``ITCA''), a non-profit organization representing 20 federally 
recognized Indian tribes. Thank you for the opportunity to testify 
about our views on H.R. 687, the Southeast Arizona Land Exchange and 
Conservation Act of 2013. On behalf of the San Carlos Apache Tribe and 
ITCA, we strongly oppose H.R. 687 and respectfully urge Members of the 
Subcommittee to oppose this bill for the reasons set forth below.

                   Summary of Objections to H.R. 687

    H.R. 687 would direct the Secretary of Agriculture to convey 2,422 
acres of U.S. Forest Service lands in an area called Oak Flat and the 
copper ore body underneath it into the private ownership of Resolution 
Copper Mining, LLC (``Resolution Copper'' or ``Resolution'')--a 
subsidiary of foreign mining giants Rio Tinto (United Kingdom) and BHP 
Billiton, Ltd. (Australia) for block cave mining. The bill would 
require this transfer of the Oak Flat area to Resolution Copper within 
1 year of enactment.
    In the decade since this project has been in development, 
Resolution Copper has consistently refused to provide details regarding 
the environmental and economic impacts of the project to the local 
community and region. H.R. 687 would give the Oak Flat area to 
Resolution Copper for a bare fraction of its actual value. Once the 
land is privatized under H.R. 687, Federal laws and policies that 
currently protect the area and tribal rights would no longer apply.
    As details about the impacts of H.R. 687 have emerged, public 
opposition has grown and is diverse. Joining us today are local 
officials representing the Town of Superior and the Queen Valley 
Homeowner's Association. In addition, the City of Globe recently tabled 
its support for this project. These communities located near the Oak 
Flat area have either expressed opposition to H.R. 687 or serious 
concerns about it. Further, many tribes and tribal organizations 
nationwide oppose the bill because it would transfer Federal land 
encompassing a known tribal sacred area to a mining company whose 
mining activities will ultimately destroy the area and circumvent 
government-to-government consultation requirements with Indian tribes. 
Tribal organizations opposing this bill include the National Congress 
of American Indians, the Inter Tribal Council of Nevada, the United 
South and Eastern Tribes, Midwest Alliance of Sovereign Tribes, the 
Great Plains Tribal Chairman's Association, the Affiliated Tribes of 
Northwest Indians, the Eight Northern Pueblos Council, the All Indian 
Pueblo Council, and many other tribes and tribal organizations. Other 
groups that oppose this bill include the Association of Retired Miners, 
the Arizona Mining Reform Coalition, the Sierra Club, the Audubon 
Society, and others.
    Our opposition to H.R. 687 is based upon the following points: (1) 
the bill would desecrate and destroy an area of religious and sacred 
significance to the Apache and Yavapai people, which conflicts with 
Federal laws and policies governing meaningful consultation with Indian 
tribes and protection and preservation of sacred sites; (2) the bill 
mandates, in direct violation of NEPA, the transfer of the Oak Flat 
area to Resolution Copper without first informing the public about the 
adverse impacts on the quality and quantity of the region's precious 
water supply, the environment, and the potential health and safety 
risks to the public; and (3) the bill constitutes a multi-billion 
dollar giveaway to a foreign-owned mining company that is partnering 
with the country of Iran on a uranium mine in Namibia. Simply put, the 
American public cannot afford this deal.
H.R. 687 Would Result in Desecration and Destruction of a Native 
        American Religious and Sacred Site
    The 2,422 acres of lands to be conveyed pursuant to H.R. 687 are 
located in the Tonto National Forest and include the 740 acres of the 
Oak Flat Withdrawal where the Oak Flat Campground is located and the 
surrounding area (collectively referred to as the ``Oak Flat area''). 
The San Carlos Apache Reservation is bordered on the west by the Tonto 
National Forest. The Oak Flat area is 15 miles from our Reservation. 
The Forest and the Oak Flat area are part of our and other Western 
Apaches' aboriginal lands and it has always played an essential role in 
the Apache religion, traditions, and culture. In the late 1800s, the 
U.S. Army forcibly removed Apaches from our lands, including the Oak 
Flat area, to the San Carlos Apache Reservation. We were made prisoners 
of war there until the early 1900s. Our people lived, prayed, and died 
in the Oak Flat area. At least eight Apache Clans and two Western 
Apache Bands document their history in the area. Since time immemorial, 
Apache religious ceremonies and traditional practices have been held at 
Oak Flat. Article 11 of the Apache Treaty of 1852, requires the United 
States to ``so legislate and act to secure the permanent prosperity and 
happiness'' of the Apache people. Clearly, H.R. 687 fails to live up to 
this promise. The Oak Flat area, as well as other nearby locations, are 
eligible for inclusion in, and protection under, the National Historic 
Preservation Act of 1966, as well as many other laws, Executive orders 
and policies.
    Today, the Oak Flat area continues to play a vital role in Apache 
ceremonies, religion, tradition, and culture. In Apache, the Oak Flat 
area is Chich'il Bildagoteel (a ``Flat with Acorn Trees''). The Oak 
Flat area is a place filled with power--a place where Apaches today go 
for prayer, to conduct ceremonial dances such as the sunrise dance that 
celebrates a young woman's coming of age, to gather medicines and 
ceremonial items, and to seek and obtain peace and personal cleansing. 
The Oak Flat area and everything in it belongs to powerful Diyin, or 
Medicine Men, and is the home of a particular kind of Gaan, which are 
mighty Mountain Spirits and Holy Beings on whom we Apaches depend for 
our well-being.
    Apache Elders tell us that mining on the Oak Flat area will 
adversely impact the integrity of the area as a holy and religious 
place. Mining the Oak Flat area will desecrate the Gaan's home and 
would diminish the power of the place. Without the power of Gaan, the 
Apache people cannot conduct our ceremonies. We become vulnerable to a 
variety of illnesses and our spiritual existence is threatened. There 
are no human actions or steps that could make this place whole again or 
restore it once lost.
    The unique nature of the Oak Flat area has long been recognized and 
not just by the Apache. The Oak Flat Withdrawal was set aside from 
appropriation under the mining laws by President Eisenhower and 
reaffirmed by President Nixon.\1\ U.S. Department of Agriculture (USDA) 
Secretary Tom Vilsack has acknowledged the Oak Flat area as a ``special 
place'' that should be protected from harm ``for future generations.'' 
Protecting the Oak Flat area as a sacred site is consistent with the 
articles of the United Nations Declaration on the Rights of Indigenous 
Peoples, which was adopted by the U.N. General Assembly in September of 
2007, and for which President Obama announced U.S. support in December 
of 2012.\2\ The Obama Administration tied its support of the 
Declaration to the current Federal policies of government-to-government 
consultations with Indian tribes and maintaining cultures and 
traditions of Native Peoples.\3\
---------------------------------------------------------------------------
    \1\ Public Land Orders 1229 (1955) and 5132 (1971).
    \2\ See http://www.ohchr.org/english/issues/indigenous/
declaration.htm.
    \3\ Available at http://www.state.gov/s/tribalconsultation/
declaration/index.htm.
---------------------------------------------------------------------------
    The mining project proposed by Resolution Copper will destroy the 
Oak Flat area. The block cave mining technique will permanently ruin 
the surface of the area. As explained below, the water required for the 
project will forever alter the medicinal plants and trees in the area 
upon which our people rely for healing and prayer. The ore body that 
Resolution seeks lies 4,500 to 7,000 feet beneath the Oak Flat area. 
Resolution admits that the ore body is ``technologically difficult'' to 
mine, that it may take up to a decade to develop this technology, and 
that temperatures as high as 175 degrees Fahrenheit will be 
encountered.\4\ It also acknowledges that the land above the ore body, 
the Oak Flat Campground, will subside and cave in.\5\ The mine will 
destroy the nature of the land, its ecology, and its sacred powers 
forever. For my constituents, this reason alone is enough to oppose 
H.R. 687.
---------------------------------------------------------------------------
    \4\ See S. Hrg. 110-572, p. 44 (July 9, 2008) (Hearing before the 
Subcommittee on Public Lands and Forests of the Committee on Energy and 
Natural Resources, United States Senate, S. 3157 110th Cong.).
    \5\ See Resolution Copper website available at http://
www.resolutioncopper.com/sdr/2011/environment.
---------------------------------------------------------------------------
H.R. 687 Circumvents Federal Laws and Policies Designed To Protect 
        Native American Religious and Sacred Sites
    Indian tribes, including the San Carlos Apache Tribe, ceded and had 
taken from us hundreds of millions of acres of tribal homelands to help 
build this great Nation. The United States has acknowledged that, 
despite the transfer in title of these lands to the United States, it 
retained an obligation to accommodate access to and ceremonial use of 
religious and sacred sites by Native Americans. This solemn obligation 
is codified in a number of Federal laws, regulations, and policies.\6\ 
A core aspect of each of these Federal enactments is the requirement 
that the United States must conduct meaningful government-to-government 
consultation with affected Indian tribes prior to making a decision 
that will impact a Native sacred area.
---------------------------------------------------------------------------
    \6\ See Executive Order 13007: Indian Sacred Sites (May 24, 1996); 
the Native American Graves Protection and Repatriation Act, 25 U.S.C. 
3001 et seq.; the American Indian Religious Freedom Act, 42 U.S.C. 
1996; the National Historic Preservation Act, 16 U.S.C. 470 et seq.; 
the Religious Freedom Restoration Act, 42 U.S.C. 2000bb et seq.; and 
Executive Order 13175: Consultation with Indian Tribal Governments 
(Nov. 6, 2000).
---------------------------------------------------------------------------
    Executive Order 13175 on tribal consultation requires Federal 
agencies to conduct consultations with tribes when proposed legislation 
has substantial direct effects on one or more Indian tribes.\7\ USDA 
Secretary Vilsack acknowledged ``it is important that [the Southeast 
Arizona Land Exchange] engage in a process of formal tribal 
consultation to ensure both tribal participation and the protection of 
this site.'' \8\ President Obama stated in his 2009 Memorandum 
affirming and requiring agency implementation of E.O. 13175, that 
``[h]istory has shown that failure to include the voices of tribal 
officials in formulating policy affecting their tribal communities has 
all too often led to undesirable and, at times, devastating and tragic 
results.'' \9\
---------------------------------------------------------------------------
    \7\ 59 Fed. Reg. 22951 (April 29, 1994).
    \8\ See Letter from USDA Secretary Vilsack to Chairman of the 
Senate Energy and Natural Resources Committee, Subcommittee on Public 
Lands and Forests (July 13, 2009).
    \9\ 74 Fed. Reg. 57881 (Nov. 5, 2009).
---------------------------------------------------------------------------
    To strengthen Federal polices pertaining to Indian tribes, the 
Obama Administration recently acted to improve protections of Native 
religions and sacred areas. In December of 2012, the USDA released a 
report titled, ``USDA and Forest Service: Sacred Sites Policy Review 
and Recommendations,'' which provides a framework for how and why the 
United States, and specifically USDA and the Forest Service, is legally 
obligated to protect and preserve sacred areas located on Federal 
lands. The Report acknowledges, ``Like almost all public and private 
lands in the United States, all or part of every national forest is 
carved out of the ancestral lands of American Indian and Alaska Native 
people.'' It affirms and lists the Administration's Federal legal 
obligations to protect and provide access to Indian sacred sites and to 
consult with tribes on any Federal actions that will impact sacred 
sites.
    On December 5, 2012, five Federal agencies, including USDA, the 
Departments of the Interior, Defense, Energy, and the Advisory Council 
on Historic Preservation entered into a MOU to develop guidance for the 
management and treatment of Native sacred areas, to develop a public 
outreach plan to acknowledge the importance of maintaining the 
integrity of Native sacred areas and to protect and preserve such 
sites, and to establish practices to foster the collaborative 
stewardship of sacred sites, among other goals. On March 5, 2013, these 
Federal agencies adopted an action plan to implement the MOU, which 
entails working to ``improve the protection of and tribal access to 
Indian sacred sites, in accordance with Executive Order 13007 [on 
Indian Sacred Sites] and the MOU, through enhanced and improved 
interdepartmental coordination and collaboration and through 
consultation with Indian tribes.''
    H.R. 687 will make an end run around these legal and policy 
obligations by transferring the Oak Flat area to Resolution Copper in 
private ownership. Once the lands are in private hands, the obligations 
to protect the Tribe's religious and sacred areas and accommodate 
tribal access will have no force of law. Section 4(c) of the bill 
requires tribal consultation, but earlier provisions of the bill 
mandate that the land be transferred regardless of the outcome of that 
consultation, rendering the act of consultation a mere formality with 
no meaningful effect.
H.R. 687 Authorizes the Project To Move Forward Without Informing the 
        Public of the Adverse Impacts to the Region's Water, 
        Environment, and Health and Human Safety
            Bill Circumvents NEPA and Public Interest Requirements
    H.R. 687 undermines the National Environmental Policy Act (NEPA), 
which requires an analysis of potential impacts, including providing 
public notice and an opportunity to comment, before Federal actions are 
taken. The bill fails to require an environmental review, including 
consideration of mitigation measures, of the mining project before the 
land exchange is completed. The bill mandates that USDA convey the 
lands to Resolution Copper within 1 year of enactment.\10\ Once the 
lands are transferred to Resolution Copper, NEPA review will not have 
any real impact because the land would already be in private ownership. 
Because the bill is a mandatory transfer, the Secretary of Agriculture 
has no discretionary authority to determine under the Federal Land 
Policy Management Act (FLPMA) or other laws whether the exchange is a 
bad deal for the American taxpayer, the local residents, and the local 
economy, which would be the case if an administrative transfer were 
required.
---------------------------------------------------------------------------
    \10\ Section 4(i) of the bill states, ``the land exchange directed 
by this Act shall be consummated not later than 1 year after the date 
of enactment of this Act.'' (Emphasis added).
---------------------------------------------------------------------------
    In May 2007, the Forest Service published its ``Technical Guide to 
Managing Groundwater Resources.'' The Technical Guide examined the 
Forest Service's compliance with FLPMA and NEPA.\11\ The Guide 
references the Service's experience with the Carlota Mine also located 
in the Tonto National Forest. It was determined through the evaluative 
procedures of FLPMA and NEPA that Carlota Mine's groundwater pumping 
would impact the Tonto Forest's surface waters and the Service's 
appropriated water rights. The Carlota Mine was required to mitigate 
the impacts of its groundwater demands for the mining operation before 
the mine was permitted. The Carlota project illustrates the importance 
of NEPA review before this land exchange is completed. The surface 
waters and aquifers that were affected by the Carlota Mine are the same 
surface waters and aquifers that will be impacted by Resolution 
Copper's mine. Under H.R. 687, Resolution Copper will be able to evade 
this type of analysis and can ignore mitigation conditions.
---------------------------------------------------------------------------
    \11\ See Technical Guide to Managing Groundwater Resources, U.S. 
Forest Service, FS-88, pp. 20-22 (May 2007).
---------------------------------------------------------------------------
    Resolution Copper has no intention of sharing any relevant 
information with the public prior to taking the lands in private 
ownership. Resolution's Jon Cherry told the Senate Environment and 
Natural Resources Committee in February of 2012 that Resolution Copper 
``will be in a position to file our Mine Plan of Operations (MPO) which 
will begin the NEPA EIS process over the entire project area including 
the area of the subject exchange'' by the ``second quarter of 2012.'' 
\12\ To our knowledge, Resolution Copper has not fulfilled this 
promise.
---------------------------------------------------------------------------
    \12\ See S. Hrg. 112-486, pp. 28, 29 (Feb. 9, 2012) (Hearing Before 
the Committee on Energy and Natural Resources, United States Senate, 
112th Congress).
---------------------------------------------------------------------------
    Section 4(j)(1) of H.R. 687 requires only that Resolution Copper 
submit a MPO to the Secretary prior to commencing production in 
commercial quantities. There are no requirements to guarantee that the 
MPO will contain a complete description of mining activities and 
measures Resolution Copper will take to protect environmental and 
cultural resources, which are normally required by law. Under 
Resolution Copper's proposed timeline, the MPO could take close to a 
decade. Regarding actual environmental review, Section 4(j)(2) of the 
bill requires only that the Secretary, within 3 years of receiving 
Resolution Copper's MPO, prepare an environmental review that must be 
conducted under the framework of subparagraph 4322(2) of NEPA. Again, 
this review will be conducted long after the lands are exchanged and in 
private ownership.

    Section 4(h) of the bill makes clear that Federal laws will not 
limit Resolution Copper's activities on the land after the mandated 
exchange. It provides that the lands conveyed ``shall be available to 
Resolution Copper for mining and related activities subject to and in 
accordance with applicable Federal, State, and local laws pertaining to 
mining and related activities on land in private ownership.'' As a 
result, the Secretary will have no discretion to exercise meaningful 
authority over the MPO or mining activities on private land after the 
exchange absent a Federal nexus. There is no requirement in the bill 
for the Secretary to examine the direct, indirect and cumulative 
impacts of exploratory activities, pre-feasibility, feasibility 
operations, or mine facility construction that will be conducted after 
the exchange.
    Further, upon enactment of H.R. 687, Resolution Copper will almost 
immediately begin activities that will harm our sacred area and the 
region's water supply, again without any public disclosures of 
information. Section 4(f) mandates that the Secretary ``shall'' provide 
Resolution with a special use permit within 30 days of enactment to 
engage in mineral exploration activities at Oak Flat Withdrawal and, 
within 90 days, the Secretary is required to allow mineral exploration. 
The integrity of Oak Flat could be substantially harmed by exploratory 
activities before the limited environmental review requirements in Sec. 
4(j)(2) are triggered. The limited environmental review of the MPO will 
have little or no benefit. The Secretary lacks any authority to propose 
alternatives to interim activities that might be necessary to protect 
water resources, landscape, plants, ecosystems or the integrity of Oak 
Flat as a traditional cultural property and sacred site. The immediate 
exploration of Oak Flat contemplated by Section 4(j) constitutes an 
``irretrievable commitment of resources'' in contravention of NEPA.
    Joel Holtrop, Deputy Chief of the National Forest Service, stated 
that a MPO containing subsurface information is ``essential in order to 
assess environmental impacts, including hydrological conditions, 
subsidence, and other related issues.'' \13\ Similar concerns were 
expressed by the Forest Service Associate Chief Mary Wagner who noted 
that the Service could not support the bill given that it ``limited the 
discretion'' of the Service to develop a reasonable range of 
alternatives and lacked the opportunity for public comment on the 
proposal.\14\ Likewise, USDA Secretary Vilsack stated:
---------------------------------------------------------------------------
    \13\ See S. HRG. 111-65 (June 17, 2009) p. 41, Hearing before the 
Subcommittee on Public Lands and Forests of the Committee on Energy and 
Natural Resources, United States Senate (S. 409 111th Cong.).
    \14\ See S. HRG. 112-486 (June 14, 2011) p. 16, Hearing before the 
Committee on Energy and Natural Resources, United States Senate (H.R. 
1904 and S. 409 112th Cong.).

        The purpose of a requirement that the agency prepare the EIS 
        after the exchange, when the land is in private ownership, is 
        unclear because the bill provides the agency with no discretion 
        to exercise after completing the EIS. If the objective of the 
        environmental analysis is to ascertain the impacts of the 
        potential commercial mineral production on the parcel to be 
        exchanged, then the analysis should be prepared before an 
        exchange, not afterwards, and only if the agency retains the 
        discretion to apply what it learns in the EIS to its decision 
        about the exchange. It seems completion of the exchange prior 
        to the EIS would negate the utility of the EIS. \15\
---------------------------------------------------------------------------
    \15\ See Letter from USDA Secretary Vilsack to Chairman of the 
Senate Energy and Natural Resources Committee, Subcommittee on Public 
Lands and Forests (July 13, 2009) (emphasis added).

    Further, H.R. 687 does not allow for a supplemental EIS document if 
additional review is needed to examine the direct, indirect and 
cumulative impacts of mining activities by Resolution. Sec. 4(j)(2) 
makes clear that the Secretary may only use the single environmental 
review document prepared within 3 years of the submission of a MPO as 
the basis for all ``decisions under applicable Federal laws, rules and 
regulations regarding any Federal actions or authorizations related to 
the proposed mine or plan of operations.'' (Emphasis added).
    Again, the bill conflicts with the purposes of NEPA and the bill 
fails to vest any real discretion in the Secretary to address the many 
concerns presented by the mining operation proposed for Oak Flat. It 
simply does not make sense for this bill to limit the Secretary's 
discretion, undermine the NEPA process, and ignore the environmental 
and tribal concerns related to the mining project.
    Moreover, the potential for negative economic impacts to the local 
economy through a loss of recreation and tourism could be substantial. 
In 2009, detailed direct travel impact estimated for Pinal County 
totaled $421 million dollars, with over $16 million spent by those 
visiting the nearby campground areas.\16\ Many of these dollars were 
spent in and around the area of this proposed mine.
---------------------------------------------------------------------------
    \16\ See Arizona Travel Impacts 1998-2009p, July 2010 Report, 
Arizona Office of Tourism, Phoenix, Arizona.
---------------------------------------------------------------------------
    If enacted, H.R. 687 will result in disastrous consequences, which 
Resolution seeks to downplay and conceal given that the bill requires 
no cost-benefit analysis of the potential environmental impacts. 
Resolution would be able to mine copper without environmental 
permitting, cultural protections or financial assurances necessary for 
responsible stewardship. As a limited liability corporation, the 
Company could simply walk away from potentially billions of dollars of 
environmental and infrastructure damages to this sacred area.
            Southeast Arizona's Water Supply Cannot Sustain This 
                    Project
    Resolution Copper has not been transparent with the public or its 
neighbors in the Oak Flat area. In 2009, Resolution explained that it 
was purchasing water and reclaiming contaminated waters in order ``to 
build the needed water supplies for mining activities that are a full 
decade or more away.'' Resolution claimed to be ``managing water by 
taking into account the needs of both current and future users of this 
precious resource.'' \17\ Resolution claimed that it had purchased and 
``banked'' over 120,000 acre feet of Central Arizona Project (``CAP'') 
water from 2006 through 2008 with Irrigation Districts near Phoenix, 
enough to operate the mine for 6 years at a projected use of 20,000 
acre feet per year.\18\ Resolution further reported in 2008 that it 
``installed several hydrology wells to assist in developing models that 
will determine if mining may affect the regional aquifers, and . . . 
what mitigation options are viable.'' \19\
---------------------------------------------------------------------------
    \17\ Previously on Resolution Copper webpage, now missing file: 
http://www.resolutioncopper.com/res/environment/ddnav.css
    \18\ Id.
    \19\ See Resolution Copper webpage.
---------------------------------------------------------------------------
    H.R. 687 does not require Resolution Copper to perform or disclose 
its studies of the impacts on the regional water supply and hydrology. 
Repeated requests for an independent agency, such as the U.S. 
Geological Survey (``USGS''), to conduct studies have been ignored or 
opposed. Resolution Copper's failure to disclose critical information 
about the impacts on the region's water has united a diverse group that 
opposes H.R. 687.
    Our neighbors to the West in Queen Valley have already felt 
Resolution's insatiable thirst for water. Since 2008, Resolution has 
been pumping groundwater to dewater parts of the decommissioned Magma 
Mine. Water levels in the Magma shaft have declined nearly 2,000 feet 
and water levels in the surrounding aquifer will inevitably decline as 
well. The Queen Valley Homeowners Association reported that since 
Resolution began pumping 900,000 gallons of water a day, the 
community's water supply fell to a historic low requiring water 
rationing for the community golf course. The Association passed a 
resolution opposing the mine.
    According to USGS records, since 2008, the average streamflow in 
Queen Creek (downstream from the mine site) has been less than half the 
average streamflow for 2001-2007 before Resolution began dewatering at 
Magma Mine. Resolution's dewatering efforts removes far less water than 
the mine sought, though H.R. 687 will require (approximately 920 acre 
feet per year compared to the mine's eventual need for 20,000 acre feet 
per year). The simple act of dewatering will have negative effects on 
regional water supplies. If Resolution depends on even more groundwater 
for its mining operations, the negative impacts will grow.

    In 2009, Senator Bingaman questioned the Forest Service about the 
impacts of the mine on the local water supplies and quality. Deputy 
Chief Holtrop responded:

        At this time the U.S. Forest Service does not have an 
        understanding of the impacts of the proposed mine will have on 
        local or regional water supplies, water quality, or possible 
        dewatering of the area. No studies or assessments of the water 
        supplies have been conducted. That is information which could 
        be obtained by the Forest Service with NEPA analysis before the 
        exchange. A NEPA analysis after the exchange would not allow 
        the Forest Service to recommend alternatives since the 
        exchanged parcel would already be in private ownership. Data 
        and analyses in the possession of Resolution Copper Mining 
        would be of assistance to the Forest Service in evaluating the 
        impacts of the proposed mine on local and regional water 
        supplies and quality.\20\
---------------------------------------------------------------------------
    \20\ See S. Hrg. 111-65, p. 42 (June 17, 2009) (Hearing before the 
Subcommittee on Public Lands and Forests of the Committee on Energy and 
Natural Resources, United States Senate, S. 409 111th Cong.) (emphasis 
original).

    In order to better inform the public of the potential impacts, L. 
Everett & Associates (LEA), an internationally recognized environmental 
consulting firm made up of hydrogeologists, engineers, and geologists, 
conducted a review recently of potential environmental impacts to the 
region that would be caused by H.R. 687. The following excerpts from 
---------------------------------------------------------------------------
the review clearly rebuff Resolution Copper's water claims:

        ``[I]t is highly speculative that CAP water will be a reliable 
        source for Resolution over the decades-long lifetime of the 
        mine. In fact, Resolution correctly admitted that `excess CAP 
        water will not always be available for purchase and other 
        sources will be needed.' It seems apparent that Resolution will 
        need to rely on local groundwater resources to provide a 
        significant percentage of Resolution's water supply if it is to 
        be a viable project.

        ``It is virtually impossible for Resolution to meet even a 
        fraction of its water needs from local groundwater in a 
        sustainable manner: the amount of water needed is just too vast 
        for the natural processes that recharge the aquifer in this 
        arid region of Arizona to replenish the needed withdrawals.

        ``Because groundwater and surface water systems are intimately 
        interrelated, pumping too much groundwater will have a negative 
        impact on nearby surface water resources because lowering the 
        water table can starve the local streams of recharge from the 
        aquifer. This is a serious issue that is very difficult if not 
        impossible to mitigate. For example, the nearby Carlota Mine 
        uses much less water than the proposed Resolution Mine 
        (approximately 1,000 acre feet per year). In a 25-day pump test 
        at the Carlota Mine, stream flow in Haunted Canyon (2,300 feet 
        from the nearest well) declined from 45 gallons per minute to 5 
        gallons per minute, thus threatening the sensitive riparian 
        habitat.'' \21\
---------------------------------------------------------------------------
    \21\ Letter from LEA Principal Geologist, James T. Wells, PhD, PG, 
to San Carlos Apache Tribe, Chairman Terry Rambler (March 18, 2013) 
(Attached to this testimony) (hereinafter ``LEA Analysis'').

    Following its assessment of the dewatering process that will be 
required to operate Resolution's mine, LEA added, ``Given the depth of 
the ore body and the need to dewater the mine workings that are deep 
below the water table, Resolution will have to aggressively pump 
groundwater from the aquifer. The effect of this pumping will be felt 
far beyond the boundaries of the mine.''
    Throughout the mining process, water will migrate to the vacant ore 
body and mining tunnels. For example, Resolution estimates that inflows 
to the existing workings at Magma Mine are 300 million gallons per 
year. If mining production on this new project is authorized, the mine 
dewatering will deplete many billions of gallons of water from surface 
waters and groundwater throughout the region, resulting in the loss of 
important seeps, springs, and streams and depleting the perennial pools 
in Gaan (Devil's) Canyon and streamflows in Queen Creek and other 
surface waters.
    The alteration of subsurface and surface geological structures 
because of block caving and the admitted collapse of the land surface 
will alter the natural state of the aquifers and surface drainage of 
the watersheds forever. Resolution has refused to publish the potential 
impacts on the water supplies of the region despite the fact that this 
legislation has been introduced in the Congress over the past 8 years. 
Instead, Resolution has simply claimed that it is urgent for Congress 
to pass this land exchange.
            Additional Damage to the Southeast Arizona Environment
    While water is a paramount concern for the opponents of H.R. 687, 
it is not the only concern. Resolution Copper has failed to provide 
data pertaining to its mining and post-mining subsidence analysis, 
water quality contamination analysis (including acid mine drainage and 
subsequent pollution), air quality compliance, tailings and overburden 
storage and placement.
    On March 15, 2013, the local Town of Superior adopted a resolution 
opposing H.R. 687. The nearby City of Globe has tabled a proposed 
resolution to support the bill until its questions about the bill have 
been satisfactorily answered about the impacts of this mine. This bill 
touts jobs for the local economy. But local community leaders 
rightfully ask: ``What good are jobs if our communities are 
environmental disaster areas lacking water to support our citizens?''
    It is common knowledge that acid mine drainage leaking into 
groundwater and surface water is a widespread consequence of copper 
mining. Acid-generating mines pollute surface water and groundwater 
requiring expensive reclamation and long-term water treatment. The 
water Resolution is pumping from the Magma Mine shaft is contaminated 
with heavy metals. That water is being treated at Resolution's water 
treatment facility. In order for that treated water to be reclaimed and 
re-used, it has to be diluted with clean CAP before being transported 
for use on crops to the Irrigation Districts.
    Instead, Resolution and its foreign corporate parents avoid the 
true costs of environmental compliance through this land exchange. Once 
these public lands are conveyed, under the permissive mining and 
reclamation laws of the State of Arizona, Resolution will probably not 
be required to post a cash bond to underwrite either the cost of 
remediation during its mining operations or for clean-up upon mine 
closure. Typically, only self-bonding or corporate guarantees are all 
that is required. This is woefully insufficient to protect the public 
from bearing the potentially astronomic costs of clean-up resulting 
from a limited liability company's massive mining operations. As stated 
earlier, Resolution can simply walk away from damage to the Oak Flat 
area. As a result, American taxpayers would be left without any revenue 
and will be on the hook for the future cost of any environmental 
remediation.
    There are too many environmental questions that Resolution Copper 
has failed to answer. This land exchange allows Resolution to avoid 
responding to these questions that Federal law otherwise requires every 
other company in America to answer. The Subcommittee should ask why 
Resolution deserves special treatment?
H.R. 687 is a Massive Giveaway of Taxpayer Resources to Foreign, 
        Special Interests
    At a time when all Americans are being asked to tighten our belts, 
H.R. 687 will result in a giveaway of American wealth to a foreign-
owned mining company. The appraisal requirements of H.R. 687 are unique 
to this land transfer and do not adequately ensure that the public will 
receive fair value. Since the bill does not afford the Federal agencies 
the opportunity to perform a substantive economic evaluation of the 
lands along with the copper and other minerals to be exchanged to 
Resolution, it is impossible for the Congressional Budget Office and/or 
Office of Management and Budget to effectively evaluate H.R. 687. The 
public interest requires that a complete and fully informed appraisal 
and equalization of values be performed prior to Congressional passage 
of H.R. 687, not after. Resolution Copper has variously estimated the 
mineral wealth in the lands ranging from $100 to $200 billion. 
Resolution's self evaluation of the ore body underlying Oak Flat is 
orders of magnitude greater in value than that of the non-Federal 
parcels offered in exchange to the public.
    A significant amount of information is required for a meaningful 
and accurate appraisal. Under the Uniform Appraisal Standards for 
Federal Land Acquisition (UASFLA) requirements, a detailed mining plan 
is necessary to properly assess the value of the exchanged land. UASFLA 
requires that production level estimates should be supported by 
documentation regarding production levels achieved in similar 
operations. However, it is unknown at this time what Resolution 
Copper's production estimates are since mining plan data has not been 
forthcoming.
    UASFLA royalty income approach also requires several economic 
predictions including a cash-flow projection of incomes and expenses 
over the life-span of the project and a determination of the Net 
Present Value (NPV), including the NPV of the profit stream, based on a 
discount factor.
    Deputy Chief Holtrop and BLM Deputy Director Luke Johnson informed 
the Subcommittee on National Parks, Forests and Public Lands on an 
earlier version of this bill that the completion of the exchange within 
1 year (as required by H.R. 687 Section 4(i)) was insufficient time to 
complete the required appraisals.\22\ Specifically, Mr. Johnson stated:
---------------------------------------------------------------------------
    \22\ See S.110-52 (Nov. 1, 2007), pp. 4, 5, 8 (Legislative Hearing 
before the Subcommittee on National Parks, Forests and Public Lands of 
the Committee on Natural Resources U.S. House Of Representatives, 112th 
Congress).

        Based on our experience with exchanges, we do not believe that 
        this is sufficient time for the completion and review of a 
        mineral report, completion and review of the appraisals, and 
        final verification and preparation of title documents. 
        Preparation of a mineral report is a crucial first step toward 
        an appraisal of the Federal parcel because the report provides 
        the foundation for an appraisal where the land is underlain by 
        a mineral deposit. Accordingly, adequate information for the 
---------------------------------------------------------------------------
        mineral report is essential.

    Given the evaluation standards prescribed by the UASFLA, coupled 
with the lack of factual data from Resolution, the American taxpayer 
will once again be short-changed.
Resolution Copper's Corporate Parents Partner With Iran and China
    Resolution is not deserving of the special treatment given it under 
H.R. 687. The Company is a subsidiary of Rio Tinto (55 percent majority 
owner) (UK headquarter/Australian offices) and BHP Billiton (45 percent 
shareholder) (Australia headquarter/UK offices). Rio Tinto is a partner 
with Iran in the Rossing uranium mine in Namibia.
    Rio Tinto currently owns a majority stake in the Rossing mine; 
while, the Iran Foreign Investment Company (IFIC) owns a 15 percent 
stake in the same mine. The IFIC is wholly owned by the Iranian 
government. United Against Nuclear Iran (UANI) raised concerns about 
Rio Tinto partnership and called on Rio Tinto and Rossing to sever ties 
with the Iranian government. In a letter to the Chairman of Rio Tinto, 
UANI President, Ambassador Mark D. Wallace, wrote:

        Thank you for the letter of November 8, 2010 from the Rio Tinto 
        Group. While your letter attempts to address some of the 
        concerns . . . the largest issue--the current Iranian 
        government's 15 percent stake--remains outstanding and is of 
        serious concern to UANI and many within the international 
        community . . .. You dismiss the concerns raised by UANI 
        because the government of Iran initially acquired its share in 
        the Rossing mine in 1975 . . .. This fact is not relevant in 
        2011 when the government that has been profiting from the mine 
        for over three decades is one that is pursuing an illegal 
        nuclear weapons program, [and] sponsoring terrorism in the 
        region . . ..''

Letter from Former U.S. Ambassador and UANI CEO Mark Wallace to Rio 
Tinto Group Chairman Jan du Plessis (Jan. 13, 2011).

    In addition, there are no guarantees that the copper mined pursuant 
to H.R. 687 will even be processed or used in the U.S. Chinalco, owned 
by the Chinese government, holds a 9 percent stake in the Rio Tinto 
Group. Nothing in the bill requires Resolution Copper, Rio Tinto's 
subsidiary, to process or sell the copper to U.S. companies or even use 
U.S. resources to mine the copper.
    Based upon the history of parent company Rio Tinto's business 
relations with Iran and China and in light of the U.S. and 
international sanctions against Iran, it is not in America's interests 
to trade valuable Federal land to this foreign-owned mining company.
Speculative Economic Benefits
    Without substantiation, Resolution has touted local job creation as 
the primary justification for this land exchange. Resolution's jobs 
claims have varied widely over the years that this project has been 
proposed. Because Resolution is not required to publicly disclose a MPO 
before the land transfer, Resolution's jobs claims are speculative at 
best. Resolution takes pride in the fact that they are building the 
mine of the future. Resolution's Vice President stated, ``Our 
grandfathers wouldn't recognize the mines of today.'' The proposed 
mine, under H.R. 687, will be highly automated and the likely actual 
jobs produced will come in far below the speculative figures promised. 
In addition, Resolution has opposed all efforts to amend the bill to 
require that: (1) the project headquarters to be located in Southeast 
Arizona; (2) local Arizonans be considered first for any job 
opportunities that may result from the project; and (3) the ore is 
processed and used in the United States--and not in China or another 
foreign nation. Further, Resolution has admitted that it will take at 
least 10 years to develop technology to access the ore body given that 
it is 1-mile beneath the surface of the earth where it is a temperature 
of 175 degrees.

                               Conclusion

    In 1871, the U.S. established our Reservation. Since then, the 
United States diminished our Reservation several times due to the 
discovery of silver, copper, coal, water and other minerals and natural 
resources. Our burial sites, living areas, and farmlands on our 
Reservation were flooded for a Federal dam for the benefit of others. 
Based upon this history and for the reasons stated above, the Tribe 
strongly opposes H.R. 687 or any other conveyance of our tribal 
ancestral lands in the Oak Flat area to Resolution Copper for mining 
that would permanently destroy this sacred site. Once done, this action 
cannot be undone.

[Note.--The material attached to Mr. Rambler's Prepared Statement and 
the letter referred to in footnote 21 have been retained in the 
Committee's official files.]
                                 ______
                                 
          Questions Submitted for the Record to Terry Rambler
Questions Submitted for the Record by The Honorable Grace F. Napolitano
    Question. Where are tribal sacred sites located?
    Answer. Apache culture, heritage and religion do not focus upon a 
specific site or place as sacred, in the traditional convention of 
Anglo-European site location. Instead, an area or region is deemed by 
the Apache People to have cultural, sacred and religious significance.
    The Apache lands which are impacted by the land exchange with 
Resolution Copper Mining cover a wide area and include lands known in 
Apache as Chi'chil bigagoteel. Chi'chil bigagoteel encompasses the Oak 
Flat campground. Nearby is Dibecho Nadil (Bighorn Sheep Are Put There), 
the geological feature known as Apache Leap. Chi'chil bigagoteel is 
bounded by Gan Bikoh (Crowndancers Canyon), also known as Devil's 
Canyon. To the north it is bounded by Ga'an Daszin (Mountain Spirits 
Standing), also called Queen Creek Canyon.
    This area is documented as the ancestral home of the Pinal and 
Aravaipa Apache Bands of the Western Apache, San Carlos Apache Group. 
It was also known to have significance to the Western Apache, Tonto 
Apache Group.
    Apache spiritual beings, Ga'an, live and exist within the sacred 
sites of Oak Flat, Ga'an Canyon (Devil's Canyon) and Apache Leap. The 
Ga'an are spirit entities made for the Apache People by Yusn, Life 
Giver, and are responsible for teaching the Apache People the proper 
way of living. Chi'chil bigagoteel is recognized as home of the Ga'an.
    Oak Flat has, for generations, played a crucial role in the 
exercise of the religious, traditional and cultural practices of the 
Western Apache. These practices continue to this day. Oak Flat and the 
surrounding area have long been used--and are used today--for religious 
ceremonies, sweat lodge ceremonies, and Sunrise Dances (puberty 
ceremonies). Chi'chil bigagoteel provides plants and other natural 
resources for spiritual, ceremonial and medicinal uses. It has been 
said by San Carlos Apache Tribal Cultural Officer, Vernelda Grant, that 
the uniqueness of the ecosystem of this area adds to significance and 
sacredness of the area to the Apache People.
    Losing access to these ecosystems, both by their closure [to Apache 
People] or their destruction profoundly weakens the strength to both 
Apache and Indigenous peoples' prayer and ceremony, and severely limits 
the abilities of Apaches and Indigenous peoples to effectively practice 
their religion, ultimately resulting in physical and spiritual harm to 
Apaches and Indigenous peoples and neighboring communities.
    Question. Are sacred sites in jeopardy?
    Answer. There is no question that Apache sacred areas are in 
jeopardy as a consequence of the Southeast Arizona Land Exchange and 
Conservation Act of 2013.
    The ore body which Resolution Copper Mining (RCM) seeks to exploit 
lies directly under Oak Flat, Chi'chil bigagoteel. As pointed out in my 
testimony on March 21, 2013, the surface lands of Oak Flat will 
collapse as a result of the mining method, block caving, RCM will 
employ to extract the ore body. RCM's own website admits to such 
subsidence. The exhibits which were presented with my testimony 
exemplify how the block cave mining method works and the land 
subsidence which inescapably follows. Virtually the entirety of 
Chi'chil bigagoteel will be destroyed by RCM's mining operation.
    RCM's mining operation will also require enormous quantities of 
water estimated at 20,000 acre feet per annum, or 600,000 acre feet 
over the life span of the mine. Groundwater pumping will inevitably be 
a large source for that water. Seeps, springs and streams well beyond 
the physical boundaries of Oak Flat will be affected by this pumping. 
Furthermore, in order to operate the mine at depths of 4,500 to 7,000 
feet below the surface of the earth, RCM will be required to pump 
groundwater to keep its mine from flooding further depleting water 
resources throughout the area. RCM's groundwater pumping activities 
will destroy the medicines and plants that we gather, which will 
effectively suffocate the practice of our religion.
    Certainly, the land subsidence and groundwater pumping will destroy 
Apache sacred areas. Without belaboring the point, other aspects of the 
mining operation, such as toxic water pollution associated with copper 
mining and tailings waste sites, will further contribute to the 
destruction of areas sacred to the Apache and other Indigenous people.
    Question. Does H.R. 687 provide adequate protections to avoid the 
land from collapsing?
    Answer. H.R. 687 provides no protections to avoid the land from 
collapsing. Indeed, the protections which are usually afforded the 
public under various Federal laws, such as National Environmental 
Policy Act (NEPA), to assess potential harms and suggest possible 
alternatives are circumvented by H.R. 687. Once the land is in the 
private ownership of Resolution Copper and its parent corporations Rio 
Tinto and BHP Billiton, NEPA and other protections will be lost. H.R. 
687 virtually eliminates the Secretary of Agriculture's discretionary 
authority to determine under the Federal Land Policy Management Act 
(FLPMA) or other laws the best interests of the public and the American 
taxpayer. Please see my written testimony at pages four to seven.
                                 ______
                                 
    Dr. Gosar. Thank you, Chairman Rambler.
    Our next guest is Ms. Soyla Peralta, otherwise known as 
Kiki.

 STATEMENT OF SOYLA ``KIKI'' PERALTA, COUNCIL MEMBER, SUPERIOR 
                          TOWN COUNCIL

    Ms. Peralta. Good morning, members of the Subcommittee. My 
name is Kiki Peralta, and I am councilwoman for the Town of 
Superior. The project mandated by H.R. 687 will have the most 
direct and greatest impact on our town. This project will be in 
our back yard. And we can't let that happen, because this is 
our town. We were born and raised in Superior. I was married in 
Superior, and I raised my children in Superior.
    Unfortunately, we are here because we want our voices 
heard. Our county and Arizona Delegation is not listening.
    I support the mining industry. The Town of Superior 
supports the mining industry and recognizes the role that 
copper mining has played in Superior's history and economy. My 
father, brother, husband were all miners. As a matter of fact, 
I was the first female hired by Magna-Copper Company in 1975 as 
a laborer.
    I have to let you know up front that in the past this 
Council has supported this project. However, for the following 
reasons, the Town of Superior now opposes the Southeast Arizona 
Land Exchange. Information has been difficult to come by. But 
with the little information that we have, we have learned the 
true impacts of this project. This has forced me and our Town 
Council to rethink our position.
    Our opposition to this project is based on three major 
points: number one, the lack of a NEPA study to show what 
impacts we will be facing; number two, the impact of our water 
and/or hydrology studies; and three, the impacts of block cave 
mining on our environment, and the lack of jobs that it will 
produce.
    First, on the NEPA and Mining Plan of Operation. We 
strongly oppose this land exchange moving forward without first 
performing the NEPA studies and informing our town about the 
negative impacts of this project. Section 4(h) of the bill 
provides that if this bill is passed, the lands will be treated 
as if they are in private ownership. As a result, no tribal 
consultation or no NEPA studies will be required.
    A Mining Plan of Operation will also help inform our 
community. Where will the tailings and waste products be 
dumped? What impacts will they have on our town and surrounding 
communities? My question is, once again, why must this project 
move forward before informing our community what we can expect? 
This is like playing Russian Roulette with our community.
    Next, the water. It is often said that whiskey is for 
drinking and water is for fighting. Water in Southeast Arizona 
is more precious than gold, and it is surely worth more than 
copper. Where will this water come from? And what effects will 
such large water consumption have on the regional water 
balance? Again, where are the hydrology studies? Again, I ask, 
how can this project move forward before a question as vital to 
our lives as water is answered?
    Finally, we have serious concerns with the block cave 
method of mining. Block cave mining historically has not been 
used in Superior. We know mining, and this method is proven to 
be destructive and harmful to the environment. My other concern 
with block cave mining is the jobs. Resolution promises jobs 
for our community. But in reality, with the use of block cave 
mining, most of it will be mechanized and employ only a small 
workforce.
    I wish that Resolution Copper would answer these questions 
today, and I wish that the Arizona Delegation and Congress 
would demand these answers. But the bottom line is that today I 
am here to represent my community and to protect the long-term 
interest of my town.
    It was great to hear Pinal County Chairman Miller speak 
today. Unfortunately, this is the first time I have seen him. 
Neither him nor Congressman Gosar or Kirkpatrick have met with 
us on this issue. Yet again, our town will suffer the most 
direct impacts of this project. Our water, our environment, our 
air will all be harmed. Yet no one has come to me with our 
Council. Unfortunately, our county and congressional delegation 
are not listening. I wish that my Congresswoman, Ann 
Kirkpatrick, could have stayed to listen.
    With that said, I am here to fight for my community and I 
am glad that you are here to listen. I urge you to oppose this 
bill. The Town of Superior can't afford this deal. I again want 
to thank you for this opportunity.
    [The prepared statement of Ms. Peralta follows:]
Prepared Statement of Soyla ``Kiki'' Peralta, Council Member, Superior 
                       Town Council, on H.R. 687
    The Town Council of the Town of Superior, Arizona realizes that 
Superior, Arizona, was born as a mining community and has lived through 
the mining booms and busts of the Silver King Mine, the Queen Mine, the 
Belmont Mine, the Magma Mine and the Broken Hill Proprietary Mine over 
the history of our 100 plus years. Because we recognize that mining is 
a large part of our history and will potentially be a larger part of 
our future, we are not opposed to mining. In fact, we strongly support 
responsible mining policies, and practices in and around our community. 
However, we believe that H.R. 687 is unacceptable as it presents 
serious negative impacts to us and our surrounding community as it 
seeks to circumvent the important National Environmental Policy Act 
(NEPA) review and analysis process. This is public land, and the public 
must be heard openly and fairly under the NEPA process. A decision 
regarding these public lands should be made with the utmost knowledge 
and care. Once these lands are lost to the public, they can never be 
regained.
    We appreciate and thank you for the opportunity to express our 
views and voice our concerns about H.R. 687, the Southeast Arizona Land 
Exchange and Conservation Act of 2013 that will profoundly affect our 
Town and Region.
Oak Flat Land Exchange and Loss of Important Public Campground and 
        Recreational Areas
    Resolution Copper Mining, LLC, owned by Rio Tinto based in the 
United Kingdom, and BHP-Billiton based in Australia, is planning a 
massive block-cave mine and seeks to acquire Oak Flat Campground and 
the surrounding public lands for its use through this land exchange 
bill. If they succeed, the campground and an additional 2,406 acres of 
the Tonto National Forest will become private property and forever off 
limits to recreationists and other users. Privatizing this land would 
end public access to some of the most spectacular outdoor recreation 
and wildlife viewing areas in Arizona. It would deprive the Town of 
Superior, currently land-locked at only 4 square miles, from economic 
diversification in and around our community. It would also deprive the 
San Carlos Apache Tribe of their religious and cultural attachments to 
the area.
    Located just 5 miles east of Superior, Oak Flat and Devil's Canyon 
are recognized as some of the most unique, scenic, popular and 
unspoiled areas in the State of Arizona; and they are an important part 
of our history and our economic diversification. It has long been 
prized for its recreational variety. This area is exquisite and easily 
accessible to millions of visitors from the Phoenix and Tucson 
metropolitan areas, as well as the outlying areas of Gold Canyon, Queen 
Valley, Florence, Kearny, Winkelman, Hayden, Globe, Miami, Top of the 
World and Superior. It is significant to our citizens, our neighbors, 
and the Apache people, for their cultural values and religious 
heritage.
    The Oak Flat Campground, Apache Leap, and the surrounding area are 
important to the Apaches who gather acorns and pine nuts that are used 
both traditionally and ceremonially. Apache Leap is an historical land 
known as the Apache's Masada. It is there that many Apaches leaped to 
their deaths rather than be captured by the U.S. Army approximately 125 
years ago. One of our local historians, Christine Marin, Ph.D., 
Archivist and Historian for Arizona State University and who is a 
former resident of Globe, Arizona, and still has family in Superior, 
Arizona, published an article in the Copper Country News dated June 11, 
2008. In her article entitled, ``Apache Leap Legend: Now We Have `The 
Rest of the Story','' Dr. Marin indicated that the story of the Apache 
warriors is verified by two historical publications. We believe that 
these lands have significant import to the Apaches and that their 
wishes should be carefully considered and respected. It is because of 
this that our Resolution No. 451 (attached) includes this reference.
    You, our Federal legislators, are being asked to give up these 
publicly owned lands that have been in trust for the American and 
Native peoples since 1955, when President Eisenhower signed BLM Public 
Land Order 1229. This Order specifically put Oak Flat off-limits to all 
future mining activity. In 1971, President Nixon issued BLM Public Land 
Order 5132 to modify PLO 1229 and allow ``all forms of appropriation 
under the public land laws applicable to national forest lands--except 
under the U.S. mining laws.'' These two executive orders from two 
different Republican administrations both mandated that these lands 
were to be preserved in perpetuity with special emphasis on prohibiting 
mining activities on Oak Flat. There is no compelling reason for these 
Orders to be overturned.
    We are particularly concerned that this legislated land exchange of 
the Oak Flat Campground and surrounding area would bypass critical 
environmental impact studies. We fear that natural and cultural 
resources will not be protected. We know, without a doubt, that 
subsidence will occur and that it will adversely affect our community. 
We don't have any information regarding RCC's proposed disposition of 
the massive amounts of tailings that will be produced and where they 
will reside. We are terrified that downstream pollution will affect the 
Town of Superior and everyone who depends upon the nearby aquifers for 
drinking water. Our local water supplier recently imposed an additional 
``arsenic surcharge.'' While The Magma Mine was operational, local 
residents were told that there was no pollution or effects on the water 
supply. Now, 20 plus years later, we find that there was--and continues 
to be--a price to pay for giving a foreign-owned mining company carte 
blanche because we trusted the mine explicitly. We are also worried 
that a mine would dry up not only the Town of Superior's water supply, 
but a portion of the water supply for the Phoenix metropolitan area. We 
also have good reason to believe that mining at Oak Flat will destroy 
the riparian habitat not only at Oak Flat, but the nearby Devil's 
Canyon which is one of Arizona's great undiscovered riparian treasures. 
It is for these reasons and many more that we oppose the enactment of 
the Southeast Arizona Land Exchange and Conservation Act prior to 
proper NEPA reviews.
Water, the Environment, and Destruction of Land Surface
    The Town believes it is critical that Hydrology Surveys, 
Environmental Impact Studies, Subsidence Analyses and Transportation 
and Circulation Plans be conducted PRIOR to discussion of any land 
exchange and/or different use.
    Resolution Copper Company's Environmental Impact Assessment 
Manager, Bruce Marsh, has indicated that the new mine would utilize 
40,000 acre feet of water per year. He further indicated that they 
would be buying excess water from the tribes and other sources, 
however, they are merely banking those water rights and the sources are 
not secured. This is a concern because: (1) Arizona is still in the 
grip of a decades long drought with dwindling Central Arizona Project 
supplies, and we do not have any assurances that water will still be 
available when Resolution Copper Company begins mining in the next 10 
years; (2) Superior is located in the Maricopa AMA rather than the 
Pinal AMA, and Phoenix metropolitan area water supplies depend upon the 
Queen Creek aquifers; (3) The close proximity of the Queen Creek 
aquifer to such a massive mining operation will negatively disrupt the 
underground water flow and negatively impact hundreds of thousands of 
residents; and (4) Neither the State of Arizona nor the local residents 
should have to bear the burden of restoring clean and sustainable water 
utilized by mining.
    RCC has already begun to dewater shafts to prepare for additional 
exploration of the ore deposit. We fear that in removing the more than 
2 billion gallons of water that have accumulated in the mine since it 
was last shut down in 1996 will upset the water balance of the Oak 
Flat, Apache Leap, and Devil's Canyon riparian areas. In 1946, Queen 
Creek was called a perennial flowing stream. Our Town elders tell us 
that when the Magma Mine was in full production during the 60s and 70s, 
riparian areas at Oak Flat and in the Town of Superior dried up. An 
independent analysis of the impact of a potential mine at Oak Flat to 
the water balance of the entire region should be conducted before this 
bill should even be considered by Congress.
    The Town is alarmed about the issue of subsidence from Resolution 
Copper Company's proposed block-cave mining method and its effect on 
Oak Flat Campground, Apache Leap escarpment, US Highway 60, and the 
Town of Superior. Resolution Copper Company has admitted to only 
``minimal subsidence.'' However, they admittedly chose this method of 
mining as it is the least expensive and quickest method to approach 
this massive ore body. However, experts have demonstrated that there 
will be irreparable destruction of unknown extent to the surface 
utilizing the block-cave method of mining. This is absolutely 
unacceptable. Does block cave mining eventually lead to open pit?
    Resolution Copper Company has not yet determined the manner in 
which the tailings will be accumulated. Since there will be a 
considerable volume of tailings that will be created by this method of 
mining, The Town is concerned about the contamination associated with 
this activity. We are also concerned regarding reclamation of these 
tailings upon mine closure.
    H.R. 687 mentions the National Environmental Policy Act (NEPA) but 
the bill does not provide for even the most basic study and analysis of 
these issues and concerns prior to obtaining the land exchange. 
Furthermore, if the land exchange is granted, the ``NEPA'' language in 
the bill is so vague that the company could easily avoid doing any 
``NEPA'' analysis. Even if a ``NEPA'' study were to be conducted after 
the land exchange went into effect, the results would be meaningless as 
the outcome of the study would already be mandated by law.
    The Town believes that Resolution Copper Company should not be 
exempt from the required national permitting studies and analyses that 
have been required of the other mines in the area by virtue of a land 
exchange. No other mining corporation in this area has been allowed to 
bypass the Federal permitting and NEPA process.
    If the start-up timeframe proposed by Resolution Copper Company is 
correct, then there is plenty of time to conduct the full public review 
process. Additionally, if Resolution Copper Company is as 
``transparent'' as they profess, they should welcome this endeavor to 
put all the ``cards on the table'' and hear everyone's input.
    We also believe that details of the project and potential impacts 
(Mining Plan of Operation) should be made available to our residents 
and to the general public up front. We continually hear that Resolution 
Copper Company will make this plan available later--after the land 
exchange. We feel that if the land exchange is of utmost importance, 
Resolution Copper Company should accelerate production of their plan 
NOW--before the land exchange.
Threat to the Town of Superior's Economic Diversification and 
        Sustainability
    Many citizens of the Town have lived through the boom and bust 
cycle of mining. After closure of the Magma/BHP mine in the 1990s, many 
people fled the community in search of jobs, medical treatment 
facilities and amenities that were not available in Superior. Voters 
taxed the political body to create a more diversified and sustainable 
economic base for its residents. The Town received grants to develop an 
Industrial Park, a low-income housing subdivision, a new swimming pool, 
second fire station, airport, rest stop and numerous parks and trails. 
These projects were initiated to create jobs for our local residents, 
to increase State-shared revenue and local taxes and to encourage eco-
tourism.
    The Town believes that in order to sustain growth and development, 
we cannot rely on any one industry to support us. Mining has an allure 
and historical ties in our community. However, just as in the past, 
mining has a short life. We cannot base our future on one single 
industry or employer. Additionally, the process of mining in the 21st 
century is very technologically advanced and requires specialized 
training. Resolution Copper Company has not indicated that they will 
hire untrained, local labor. In fact, today's activity on the project 
reflects an influx of mining technicians from outside the community. We 
routinely see vehicles with license plates from Utah, Colorado and 
Mexico. We are seeing more and more articles regarding the development 
of robotic workers for future mining activities. These robotic systems 
are being tested today in South American and Australian mining 
operations. It would be no surprise if many of the technical jobs that 
are available will be held by highly trained individuals sitting at a 
computer in another state--or even another country--controlling our 
robotic work-force remotely. The loss of this natural resource and 
already protected public lands compromises the potential for our 
community to foster and promote a more diversified economy based upon 
tourism and outdoor activity. At a minimum, the Boyce Thompson State 
Park to the west and the Oak Flat Campground to the east create a 
natural flow of traffic to and through the Town. Tourists, Boy Scout 
troops and other individuals and groups routinely pass through to camp 
overnight at the Oak Flat Campground. They stop for gas, sundries and 
refreshments at local establishments in far greater numbers than local 
workers. Superior is a natural ``pit stop'' for eco-tourism and this is 
the type of activity that sustains our economy.
    While Resolution Copper Company has promised great hope for another 
``boom,'' they do not willingly embrace annexation into our town 
limits, they have purposely depreciated their land values in 
anticipation of the land exchange and they have strong-armed our local 
government into accepting less than adequate compensation for future 
use of the Town's services and support.
Summary
    Resolution Copper Company has divided this community by demanding 
that the Town Council speak for the residents of Superior in unwavering 
and unqualified support of a land exchange that is not necessary in 
order for Resolution Copper Company to mine. Behind the scenes, their 
representatives have attempted to force the firing of individuals 
opposing the Land Exchange. Those individuals who question Resolution 
Copper Company in any fashion are deemed to be ``anti-mine.'' 
Businesses deemed ``anti-mine'' are not supported by Resolution Copper 
Company, their employees or agents--in fact RCC employees are urged to 
boycott! These strong-arm tactics should not be allowed to pervade a 
community already distraught from previous ``boom and bust'' mining 
cycles.
    H.R. 687 does not represent a land exchange that is in the broader 
public interest. It is clear to the Town that Presidents Eisenhower and 
Nixon believed that they were protecting Oak Flat from big business 
interests in acquiring public lands for development, mining and 
transportation. Oak Flat has been important enough to protect from 
mining and other elements for over 50 years, and it should not be so 
easily conveyed to a foreign-owned mining interest. This land exchange 
would set a terrible precedent.
    The Town urges this Committee to ensure that the concerns of all 
public interests are addressed prior to consideration of any Federal 
land exchange. We believe you should protect these public lands for the 
public's future use and preserve the unique opportunities for 
Arizonans--and especially Superiorites--that the Oak Flat area 
provides.
    For these and many other reasons, we oppose H.R. 687, the Southeast 
Arizona Land Exchange and Conservation Act of 2013 and feel that it 
should be rejected, until such time as our concerns are at least 
addressed through proper NEPA studies.
    Thank you for your time and consideration.
                                 ______
                                 
    Dr. Gosar. Thank you very, very much. There are two things 
now--if we can have the screens cleared, please? Thank you.
    The Chairman would like, by unanimous consent, to have two 
things, the ``Pentagon Warns of Mineral Shortfalls,'' and a 
Congressional Research memorandum to be included in the record. 
So ordered?
    [No response.]
    Dr. Gosar. No objections, so ordered.
    [The information submitted for the record by Dr. Gosar has 
been retained in the Committee's official files:]
    Dr. Gosar. I would like to acknowledge myself for the first 
aspects of questioning.
    Ms. Peralta, thank you for coming here today. I noticed in 
your testimony that you made the following statement, ``This is 
public land, and the public must be heard openly and fairly 
under the NEPA process.'' You are aware that when Resolution 
files its Mining Plan of Operations, that it will go through 
the environmental review process, and that the public will have 
opportunity to provide comments, as guaranteed in the law. Are 
you familiar with that?
    Ms. Peralta. Yes, I am.
    Dr. Gosar. Thank you. Sections 4(i) and 4(j) address 
explicitly and implicitly compliance with the Federal 
environmental laws and regulations pertaining to conveyances of 
Federal land and approval of Mining Plan of Operations. My bill 
is clear that the mine can only move forward following 
preparation of a full environmental impact study that is in 
accordance with NEPA and all other applicable Federal laws and 
regulations. That includes national historic preservation acts, 
endangered species acts, Executive orders pertaining to 
wetlands and floodlands, and hazardous material surveys.
    Additional environmental compliance requirements will also 
have to be addressed at the State and local levels in order for 
this mine to be developed. As you know, and should know, many 
of Arizona's environmental compliance laws are even stronger 
than those of the Federal laws. This legislation promotes 
economic development in an environmentally responsible way.
    Now, I agree that the public should be heard, and that is 
why we invited you here today. Why do you feel it is so 
important for the public to be heard in the NEPA process, while 
you and your colleagues silenced the voices of almost 200 
citizens last week at your Council meeting when you adopted 
your resolution to oppose this bill? You stated that you had 
made up your mind, no executive session was necessary, no 
public input would be taken, and that if anyone acted up, they 
would be escorted out by the police. Is that fair, Ms. Peralta?
    Ms. Peralta. Once again----
    Dr. Gosar. Is it fair, ma'am?
    Ms. Peralta. Yes, it is. According to the open meeting law, 
I had those rights. I was the Chair of the meeting.
    Dr. Gosar. Thank you very much. For the record, even my 
chief of staff went to the meeting at my request, tried to meet 
with members of the Council prior to the meeting, and was not 
given the opportunity to address the Council. In fact, everyone 
in the town that attended your 4-minute meeting--4 minutes, 4-
minute meeting--was threatened with police removal if they 
spoke. It doesn't really sound like you or your town manager 
want to engage at all.
    I have been humbled by the outpouring of support of your 
community that was given to Congressman Kirkpatrick and myself 
in our efforts to take action. I have been submitted, in 
regards to the record, over 400 letters and petition signatures 
opposing the town's actions and supporting our bill collected 
over the span of just 3 days. The Town of Superior has little 
over 2,500 residents. This is pretty incredible.
    Ms. Peralta, is it true that petitions have been taken out 
to recall you from your seat on the Council?
    Ms. Peralta. Yes, it is.
    Dr. Gosar. Yes, it is. They were actually filed this 
morning.
    Ms. Peralta. But--yes, they were.
    Dr. Gosar. Yes, thank you.
    Ms. Peralta. And I think they have been taken out before--
--
    Dr. Gosar. The Town of Superior held local elections just a 
week ago, after the current Council broke its Mutual Benefits 
Agreement off with Resolution Copper. The two top vote-getters 
in the pick-three election were the only two candidates in the 
race to express vocal opposition to the current Council's 
actions. Two of the current Council members who were part of 
this action were the bottom two vote-getters.
    I would like to submit for the record the results of the 
March 12th election and the statements of the opposition to the 
current Council's actions.
    I would also like to submit the local media accounts of the 
report: the Superior Sun: ``Business Owners, Townspeople React 
to Superior's Council Decision;'' ``Thank You, Town Council, 
for Losing Superior's Jobs with Resolution Copper,'' right here 
on the front page. ``The Copper New Superior Council Meeting 
Stirs Anger.''
    Ms. Peralta, it appears the only person dividing your 
Council is you and the three Council members that have 
spearheaded this effort. I encourage you to read these letters, 
these petitions, and hear from your citizens and what they are 
telling you. I am hard-pressed to believe that you would be 
here today with your position if you had listened to your 
community.
    Ms. Peralta, what is the current financial situation and 
status of the town?
    Ms. Peralta. We are broke.
    Dr. Gosar. Yes. My understanding is the community is in 
dire financial conditions. Four months ago you could not even 
meet payroll or pay for garbage collection. Is it true that 
Resolution advanced monies due in 2013 under your Mutual 
Benefits Agreement to cover these bills?
    Ms. Peralta. Yes, it is.
    Dr. Gosar. Hardly sounds like a bad partner. Supervisor 
Miller, why do you think the Town Council has taken such a 
radical reversal in position?
    Mr. Miller. Congressman Gosar, I don't know what the total 
motivation was. I thought it was interesting that, at my board 
of supervisors meeting, we had 12 residents from Superior in 
support of the resolution that we passed, and 2 against it, one 
of which was the new town manager, who stood up and advised us 
that they were broke, that they couldn't even put two police 
cars back into duty. I thought that was awfully telling as to 
their status.
    Dr. Gosar. Supervisor Miller, just one last question. In my 
tenure in representing District 1, have you seen my presence in 
and around Superior in regards to being accessible and 
answering questions? Because the witness prior said that I was 
not accessible and never had been consulted about this mine.
    Mr. Miller. Congressman Gosar, you have been one of the 
most accessible legislators I have ever seen. And if there was 
an issue and we called you, you made yourself available at any 
time.
    Dr. Gosar. For the record, without objection, I would like 
to highlight those things that I highlighted. And one last 
exception is a letter in regards to Chairman Rambler dated 
April 15, 2011 in regards to my office in regards to the issues 
with tribal consultation and tribal issue in regards to this 
mine that was prepared by my staff and experts in Native 
American law that I would like submitted for the record.
    [No response.]
    Dr. Gosar. No objection, so done.
    [The information submitted for the record by Dr. Gosar has 
been retained in the Committee's official files:]
    Dr. Gosar. I would like to now turn it over to the Ranking 
Member, Raul Grijalva.
    Mr. Grijalva. Thank you very much, Mr. Chairman. Ms. 
Peralta, welcome and thank you for taking the time. Can you 
tell us about the City Council? There is a number of your 
colleagues that can't vote on this issue. Is that correct?
    Ms. Peralta. That is correct. We----
    Mr. Grijalva. How many?
    Ms. Peralta. We have our Mayor and our Vice Mayor, John 
Tameron, who are in conflict.
    Mr. Grijalva. Conflict because of what?
    Ms. Peralta. Our Vice Mayor's son is employed by 
Resolution.
    Mr. Grijalva. It is because of employment?
    Ms. Peralta. And then our Mayor's daughter is married to 
him, so that puts him in conflict, also. And our Councilman 
John Tameron has a contract with Resolution for cleaning 
services he provides.
    Mr. Grijalva. It is my understanding that one of the 
councilmen, I don't know how recently, left the Council after 
some adjudication?
    Ms. Peralta. Yes, which is why we had to--which is why the 
mutual benefits agreement is null and void. Councilman Hank 
Gutierrez was indicted for conflict of interest.
    Mr. Grijalva. And he works where?
    Ms. Peralta. He has a contract with Resolution.
    Mr. Grijalva. Thank you, Ms. Peralta. I also wanted to ask 
you. There was a, you know, we get into the discussion, and I 
appreciate the Supervisor's point that Resolution has not only 
raised the reading scores in the area but is prepared to spend 
$16 billion of revenue. At some point we will follow up with 
the Supervisor and get some information and some facts. It is 
nice to put a little facts, figures around, but you know, at 
some point you have to substantiate them. And we will be 
following up with questions.
    Chairman Rambler, and thank you very much for being here, 
as well. Oak Flats' significance; you hear that we are going to 
leave the surface alone, so what is the problem? Proponents of 
the legislation say, ``We are going to leave the surface alone, 
so what is the problem?'' And would you please tell them what 
the problem is going to be down the road, not only in terms of 
a sacred site, but in terms of the excavation that could 
potentially occur underneath?
    Mr. Rambler. Yes, thank you. I know in reading some parts 
of the bill itself, the proposed bill, it talks about surface, 
but it doesn't talk about subsurface. So, on the surface, for 
example, Oak Flat and Apache Leap itself, even though in this 
particular case the bill itself may say Apache Leap will not be 
disturbed and a fence may be put around it to not disturb it 
further, but there is nothing there that prevents it from being 
disturbed underneath.
    So, when we look at it, we look at it in total, the 
sacredness of the whole area in total. And so, when underground 
it is going to be disturbed, when there is going to be a big 
hole left under there, and we don't know what the potential 
impact is to the water resources, but we know from history that 
when there is a big hole and it rains and it snows and water 
comes running down, where is that water going to go, it is 
going to go to that big hole, and so we don't know what the 
impacts are, and that is how we believe that what is going to 
happen under ground is going to affect whatever is going to be 
on the surface.
    Mr. Grijalva. Thank you. And there has been discussion 
saying that this bill does not weaken the NEPA process, and so 
people are convinced that the State of Arizona permitting 
process for mines and private lands is the same as NEPA. Even 
if we side-step NEPA on this one, that is absolutely not true. 
The State is far weaker. The public comment period is short. 
There is no quick turnaround in the submission of critical 
documents. There is no pre-scoping, and the process does not 
require bonding to guarantee a clean-up and reclamation after 
the fact. And that is just the environmental side of it. On the 
consultation, that is a whole other story that doesn't exist.
    And so, there is no substitute for, one, skipping over NEPA 
and doing it after the fact where there is no enforceability, 
and saying, well, the State can take care of it. The State 
can't take care of it. The State won't take care of it. This 
NEPA process guarantees not only the people of Superior and the 
surrounding community, but the viability and the intended or 
unintended consequences of this mine everybody is going to know 
up front.
    And I, for the life of me, you know, many of the critics of 
this process could have, would have been shut up a long time 
ago, 5 years ago. But for some reason there is a drive to get 
it done without NEPA, do it after the fact. If there would have 
been agreement, ``Let's do NEPA now,'' we would be waiting and 
resolving and debating what the remediation would have had to 
be. The consultation government-to-government, we would have 
dealt with those consequences, and maybe they wouldn't have 
been good.
    One suspects, and it is only a suspicion, that a full-blown 
NEPA process with public comment is going to disclose and make 
transparent some consequences that not only the Tribes and the 
Council lady from Superior are going to be opposed to, they are 
going to have some consequences that the whole region will be 
very, very concerned, particularly around water and sacred 
sites. Thank you very much, Mr. Chairman.
    Dr. Gosar. Thank you. I would like to acknowledge the 
gentlewoman from Wyoming, Ms. Lummis.
    Mrs. Lummis. Thank you, Mr. Chairman. And I would like to 
slip back in to the much more mundane topic of soda ash in 
Trona.
    [Laughter.]
    Mrs. Lummis. Mr. Hohn, give everybody just a little break, 
could you explain a little bit about China and its trade 
practices that are distorting the markets for soda ash, 
globally?
    Mr. Hohn. Absolutely. You know, the facts are China's 
capacity to produce synthetic soda ash is growing. Another fact 
is that China's exports of soda ash are growing. Another known 
fact is that China has incentives such as the VAT that enables 
China to sell soda ash below their cash costs. These are all 
facts that we are dealing with within the global soda ash 
markets.
    Mrs. Lummis. I have another quick question, and it relates 
to the checkerboard. I think a lot of people don't understand 
that the Union Pacific Railroad, when it was given its right-
of-way across the Untied States, was given every other section, 
and that this area where the Trona resource lies is within that 
checkerboard.
    So, the surface, and, therefore, the subsurface mineral 
interests under it--lie 640 acres of private land, and next to 
that, 640 acres of public land, and that the mining technology 
is such that when you are mining a long wall, those things are 
enormously expensive to move. Almost indescribably expensive to 
move, a long wall, once you set it up and start along its 
mining course of action.
    Is it possible to just lift those up, or lift your mining 
up and go where the royalty is the lowest?
    Mr. Hohn. It is very, very, very difficult. It requires 
years of advanced mine planning as we look at how we mine the 
checkerboard, as you just described. I can assure you with 
confidence that, prior to my current role as General Manager of 
the Soda Ash Business for OCI Chemical Corporation I was the 
Site Manger out in our facility out in Green River, Wyoming. 
And while we employ a bit of a different mining technique, it 
is a continuous miner operation with room and pillar 
advancement--it is impossible to pick up and just change a mine 
plan very, very rapidly. And while I don't have the long wall 
mining experience, I can assure you also that from my 
education, that also requires many years of advanced mine 
planning.
    Mrs. Lummis. Thank you. And, Mr. Chairman, I will save the 
rest of my time and yield back to you to use for whatever 
purpose you wish to use it for.
    Dr. Gosar. I thank the gentlelady. Before her time runs out 
I would like to address some issues laid out in the 
Administration's testimony regarding tribal consultation and 
the protection of historical significant sites.
    As someone who has lived among Native Americans my entire 
life, first in Wyoming, then in Creighton University in Omaha, 
Nebraska, and finally in Northern Arizona, tribal consultation 
and Congress's trust responsibility to Tribes is very important 
to me. In fact, I have been very outspoken in favor of the 
policies that benefit Tribes in my short time in Congress. That 
is why, in crafting this legislation, I have taken specific 
measures to protect those interests.
    However, regarding Oak Flat Campground, I wanted to correct 
some of the misinformation that has been thrown around here. 
When the Oak Flat Picnic and Campground was withdrawn in 1955 
by a Public Order, PLO1229, in the text it read, ``Reserving 
lands within National Forests for use of the Forest Service as 
campgrounds, recreation areas, and for other public purposes.'' 
The withdrawal was done to protect the Federal Government's 
interest in the capital improvement of the campground. It made 
no mention of tribal sacred sites. In fact, members of 
communities that surround the area have given firsthand 
accounts that the San Carlos did not utilize the area for 
ceremonies until this project was announced about a decade ago. 
I will submit a variety of accounts longtime residents of the 
area have provided for the record.
    I would also like to point out on September 20, 1971 the 
Oak Flat Picnic and Campground withdrawal area was modified by 
Public Land Order 5132 by Assistant Secretary of the Interior 
Harrison Loche. Since then, the 760 acres, known as Oak Flat 
Picnic and Campground Area, has been eligible for disposal by 
land exchange and other disposal authorities of the Forest 
Service.
    Once again, I would like to keep the discussion about 
facts, because the facts set you free.
    The Ranking Member has two articles that he would like to 
be included?
    Mr. Grijalva. Thank you, Mr. Chairman. And an inventory and 
a list of all the Native Nations and tribal governments that 
are in opposition of the legislation. Also we will be 
submitting for Chairman Lamborn a kind of an explanation 
between fee simple and trust land that is for the purpose and 
use by Native Tribes under law.
    And, Mr. Rambler, thank you. I like the NEPA process, I 
like consultation, government-to-government, because I don't 
try to tell you what to do and what you need.
    Dr. Gosar. Without objection, so ordered.
    [The information submitted for the record by Mr. Grijalva 
has been retained in the Committee's official files:]
    Dr. Gosar. As of this, with no further objections--oh, no, 
I am sorry. Mr. Cramer?
    Mr. Cramer. I have nothing, Mr. Chairman, but would yield 
my time to the Chair, if he needs it.
    Dr. Gosar. Well, thank you very, very much. Without further 
ado, I know a number of you have to catch your planes. So thank 
you very, very much for the testimony, and as of now--thank 
you--we stand adjourned.
    [Whereupon, at 2:05 p.m., the Subcommittee was adjourned.]

            [Additional Materials Submitted for the Record]

    The documents listed below have been retained in the 
Committee's official files.
Submitted for the record by Representative Paul A. Gosar on 
H.R. 687:
    <bullet>  Letters of support from the State government 
delegation of the affected region: Governor Jan Brewer, State 
Senator Barb McQuire, State Representatives Frank Pratt, T.J. 
Shope, and Brenda Barton
    <bullet>  A resolution unanimously passed by the bipartisan 
Pinal County Board of Supervisors and letters of support from 
the entire bipartisan Gila County Board of Supervisors. These 
two counties encompass the areas most affected by the exchange.

Additional material submitted for the record by Representative 
Paul A. Gosar:
    <bullet> Article: Hope for Resolution Copper mine is 
bipartisanship, By Editorial board, The Republic/azcentral.com, 
2/19/13
    <bullet>  E&E Article--Pentagon Warns of Mineral 
Shortfalls, 3/20/13
    <bullet> Letter of support from Senate President Biggs
    <bullet>  Letter from the Queen Creek Coalition (rock 
climbing group)
    <bullet> Superior Town Council election results with quotes 
from two candidates and links to news articles where they were 
quoted
    <bullet> News Articles: Superior Sun and the Cooper Country 
News
    <bullet> CRS Report on Earnings of Mining and Tourism 
Industries
    <bullet> Letter from Representative Paul A. Gosar to 
Chairman Rambler dated April 15, 2011
    <bullet> Petition and letters of support for H.R. 687, 400 
signatures
    <bullet>  Letter of support from The Nature Conservancy
    <bullet> Letter of support from the Sonoran Institute

Additional material submitted for the record on H.R. 687:
    <bullet>  Access Fund Executive Director Brady Robinson
    <bullet>  Affiliated Tribes of NW Indians
    <bullet>  Colorado River Indian Tribes
    <bullet>  Fort McDowell Yavapai Nation
    <bullet>  Inter Tribal Council of AZ Tribes
    <bullet>  National Center for Policy Analysis Finding 
Sources of Rare Earths beyond China
    <bullet>  Ramona Band of Cahuilla Indians
    <bullet>  Letters from the Mayor of the Town of Payson, the 
Mayor of Globe, Terry Wheeler, Superior Councilman John 
Tameron, and a resolution of support from the Town of Kearney

Submitted for the record by Representative Raul M. Grijalva:
    <bullet> Written Testimony of Roger Featherstone, Director, 
Arizona Mining Reform Coalition, Testimony on H.R. 687

Submitted for the record in response to James M. Iwanicki's 
testimony:
    <bullet>  Keweenaw Bay Indian Community
    <bullet>  Upper Peninsula Environmental Coalition

Submitted for the record by Representative Joseph J. Heck on 
H.R. 697:
    <bullet>  Historic Defense Plant Corporation areas
    <bullet>  Three Kids Mine and Mill Site Layout
    <bullet>  Three Kids Mine Project Site Map Final
    <bullet>  Statement of the Honorable Andy Hafen, Mayor, 
City of Henderson, Nevada, on H.R. 697

                                 <all>

</pre></body></html>
